<html>
<title> - SUPPLEMENTAL FUNDING OPTIONS TO SUPPORT THE NATIONAL PARK SERVICE</title>
<body><pre>[Senate Hearing 113-82]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 113-82
 
   SUPPLEMENTAL FUNDING OPTIONS TO SUPPORT THE NATIONAL PARK SERVICE
=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   TO

  CONSIDER SUPPLEMENTAL FUNDING OPTIONS TO SUPPORT THE NATIONAL PARK 
SERVICE'S EFFORTS TO ADDRESS DEFERRED MAINTENANCE AND OPERATIONAL NEEDS

                               __________

                             JULY 25, 2013


                       Printed for the use of the
               Committee on Energy and Natural Resources

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

82-796 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
   Office Internet: bookstore.gpo.gov Phone: toll free (800) 512-1800; 
          DC area (202) 512-1800 Fax: (202) 512-214 Mail: Stop IDCC, 
                      Washington, DC 20402-0001



               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                      RON WYDEN, Oregon, Chairman

TIM JOHNSON, South Dakota            LISA MURKOWSKI, Alaska
MARY L. LANDRIEU, Louisiana          JOHN BARRASSO, Wyoming
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
BERNARD SANDERS, Vermont             MIKE LEE, Utah
DEBBIE STABENOW, Michigan            DEAN HELLER, Nevada
MARK UDALL, Colorado                 JEFF FLAKE, Arizona
AL FRANKEN, Minnesota                TIM SCOTT, South Carolina
JOE MANCHIN, III, West Virginia      LAMAR ALEXANDER, Tennessee
BRIAN SCHATZ, Hawaii                 ROB PORTMAN, Ohio
MARTIN HEINRICH, New Mexico          JOHN HOEVEN, North Dakota
TAMMY BALDWIN, Wisconsin

                    Joshua Sheinkman, Staff Director
                      Sam E. Fowler, Chief Counsel
              Karen K. Billups, Republican Staff Director
           Patrick J. McCormick III, Republican Chief Counsel



                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Coburn, Hon. Tom, U.S. Senator From Oklahoma.....................     5
Gabrys, Gerard, Chief Executive Officer, Guest Services Inc., the 
  National Park Hospitality Association, Fairfax, VA.............    41
Jarvis, Jonathan B., Director, National Park Service, Department 
  of the Interior................................................    20
MacDonald, David, President, Friends of Acadia, Bar Harbor, ME...    53
Murkowski, Lisa, U.S. Senator From Alaska........................     3
Obey, Craig D., Senior Vice President for Government Affairs, 
  National Parks Conservation Association........................    46
Puskar, Dan, Executive Director, Association of Partners For 
  Public Lands, Wheaton, MD......................................    58
Wyden, Ron, U.S. Senator From Oregon.............................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    69

                              Appendix II

Additional material submitted for the record.....................    77


   SUPPLEMENTAL FUNDING OPTIONS TO SUPPORT THE NATIONAL PARK SERVICE

                              ----------                              


                        THURSDAY, JULY 25, 2013

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:40 a.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Ron Wyden, 
chairman presiding.

 OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM OREGON

    The Chairman. The Energy and Natural Resources Committee 
will come to order.
    In 2016, just 3 years from now, the National Park Service 
is going to celebrate its centennial anniversary. While the 
creation of our national park system is one of our country's 
greatest successes, the Park Service faces significant funding 
challenges in taking care of the more than 400 national parks, 
monuments, and other sites that Congress and the President have 
entrusted to its protection.
    It now has a deferred maintenance backlog that is estimated 
at $11 billion, and it is perhaps higher. The backlog grows 
each year. Meanwhile, the Park Service, like every other part 
of the Federal Government, faces significant limitations on the 
funding that Congress appropriates for the operation and care 
of our national parks, and it is unlikely that the 
appropriation levels are going to increase any time soon, 
certainly not increase to the amount necessary that would fully 
address the deferred maintenance backlog.
    So, given these challenges, Senator Murkowski and I wanted 
to schedule this hearing so that the committee can explore and 
consider new ideas to help fund the Park Service for the next 
century. It really wouldn't be an appropriate parks hearing if 
you didn't refer at least once to Wallace Stegner's famous 
quote that ``national parks are the best idea we ever had.'' 
They certainly continue to be a very popular idea.
    Despite the budgetary challenges, Senators of both 
political parties continue to push for new or expanded national 
parks in their home States. Already in this Congress, 7 bills 
calling for studies of new national parks have been referred to 
this committee; another 7 bills would establish new national 
parks; and 6 bills would expand the size of existing park 
areas.
    These bills are evidence of the extraordinary popularity of 
national parks with the American people and the desire to 
protect new areas and tell new stories that are not adequately 
represented in the national parks system. I support many of 
those efforts. In fact, one of the bills expanding an existing 
national park area is legislation that I proposed to expand the 
Oregon Caves National Monument. So I understand the desire and 
the need that Americans are expressing to protect these very 
special places.
    At the same time, my view is that Congress has to come up 
with fresh, creative ideas to help the Park Service make 
concrete, tangible headway with its maintenance backlog to 
ensure the long-term viability of our parks system. For 
example, today I'm going to want to explore with witnesses the 
idea of raising fees for non-U.S. citizens, like many other 
countries do.
    For example, this could apply to back-country camping 
permits that are very popular. Of course, the argument on 
behalf of looking at an idea like this is that those are 
individuals who use our park system. They don't pay taxes to 
support the parks, and there is a very high volume and an 
increasing volume of foreign visitors.
    We, Senator Murkowski and I, were especially interested in 
having Dr. Coburn here today, because he has been persistent in 
advocating for the need to address this deferred maintenance 
backlog for quite some time. As Dr. Coburn does on so many 
issues, he makes it clear that you cannot just pretend the 
problems don't exist. You've got to step up, and you've got to 
look, as I indicated, at real and creative approaches that we 
can build bipartisan support for to address these concerns.
    He is raising legitimate questions about how the Park 
Service is going to be able to properly care for our national 
parks, and how it will ever be able to address this immense 
funding backlog. So, Senator Murkowski and I thought it was 
especially appropriate that he lead off the hearing of this 
morning so we can get his perspective and consider the real 
issues that he has raised. We thank him, and we will hear from 
him in just a few minutes.
    The last point I wanted to make is that as the Park Service 
centennial gets closer, we are going to examine all of the 
creative ideas that have been proposed thus far. Certainly, 
there ought to be opportunities with national park partners, 
such as park philanthropic and friends groups, and I would just 
ask that colleagues on both sides of the aisle who support 
parks be open to considering some of these new approaches.
    For example, our committee recently included $50 million of 
dedicated funding in the helium bill to pay for the Federal 
share of a challenge cost-share agreement for national park 
deferred maintenance projects. In effect, through the helium 
legislation, Senator Murkowski and I said, ``Here's a chance to 
meet one of the country's economic needs and, in the years 
ahead, with a specific timetable, really get the Government out 
of the helium business.'' We were able to do that in a 
bipartisan way.
    We'll pay special attention to some of the funding ideas 
that were proposed by the Bipartisan Policy Center, again an 
effort to reach across the aisle in a challenging area. We're 
going to ask some details about that.
    While the Park Service is primarily reliant on Federal 
appropriations to fund deferred maintenance projects, the 
agency is able to use revenue collected from park entrance and 
visitor user fees to fund repair, maintenance, and other 
projects that directly improve the enjoyment of our visitors. 
However, the authority to collect and spend fee revenues 
expires in December 2014, and if that law isn't renewed, the 
Park Service would lose almost $180 million annually. So I 
think it's critical that fee legislation be passed during this 
Congress so that the Park Service and other land management 
agencies do not lose that particularly important revenue 
source.
    We're also looking forward to the views of National Park 
Service Director Jon Jarvis. He's been talking with us about a 
number of different approaches.
    Let me now recognize Senator Murkowski on this matter and 
particularly thank her again for all of the bipartisan efforts 
that she has been willing to take on. It's one of the reasons 
we were able to get 14 bills cleared in the Senate, more than 
anyone had anticipated at this early date. It wouldn't have 
happened without Senator Murkowski, and I thank her for her 
bipartisan approach, and recognize her.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. As you know, 
we've got an opportunity to move another perhaps as many as 14 
of these bills. So look forward to moving this process forward. 
But thank you for this very important hearing this morning. For 
those of us in Alaska, our parks are pretty special. Not that 
they are not special in other parts of the country, I think 
ours are just bigger and they take up more space, and they are 
a constant reminder of the national treasures that we have.
    I thank you, Dr. Coburn, for your interest in this issue, 
your interest in ensuring that we are on a path toward greater 
sustainability when it comes to the operation and maintenance 
of our national parks and our park system.
    Mr. Chairman, I do believe that we're taking an important 
step today with this hearing. In starting this discussion about 
how we're going to pay down the National Park Service's 
maintenance backlog, which the Park Service estimates at 
approximately $13 billion, now, I'd like to be clear right 
away. I don't think that this is an issue that should be solved 
through additional Federal funding.
    We all know around here that we're facing very serious 
fiscal situations, and we've got to be looking at new and, I 
think, alternative ways to find funding for the park system, 
and also to really reassess, reevaluate our current funding 
priorities. One of those areas that I think we need to be 
looking at is, what is happening within the Land and Water 
Conservation Fund and this very significant increases that 
we're seeing there?
    Coming from a State where we've got close to 70 percent of 
our lands that are held by the Federal Government, I always 
approach requests to purchase additional Federal land with some 
skepticism, and particularly during tough economic times. So I 
can't imagine why purchasing more is such a priority. It 
strikes me as almost counterintuitive that we would be adding 
more lands to the maintenance list, when the Government already 
is dealing with such obstacles when it comes to the maintenance 
of the existing park lands.
    I do think that this is an area where we would have 
potential for an agreement that we could update the statute, 
making it more relevant to our current reality, both from a 
public lands policy and a budgetary standpoint. I'd like to 
work with you, Mr. Chairman, Dr. Coburn, Director Jarvis, on 
really reforming the LWCS so that this can be a tool that the 
National Park Service, and other land management agencies, can 
use to fund deferred maintenance before we buy additional lands 
to add to the Federal burden.
    I appreciate that there are at times some sensitive, time-
sensitive acquisitions that need to be made. I'd want to make 
sure that we have a process to include those. But as a general 
matter, I think that there is room here for compromise, and I 
look forward to a discussion on that topic this morning.
    The next area that I'd like to bring up is the potential 
for increased funding and involvement from outside group and 
the friends groups. One of the major complaints that I hear 
from friends groups are these bureaucratic obstacles that many 
of these groups face when they're trying to donate to the 
National Park Service for specific projects. We need to be 
looking at this. We need to figure out a way to streamline the 
process, encourage folks to contribute both their resources and 
dollars.
    Just yesterday, we got a press release from the Park 
Service out in Wrangell--St. Elias. It is an advertisement, 
it's a public advertisement for a cleanup event on August 3rd 
out in the Chitina area. It's basically an invitation to folks 
in the area to come and help clean up. It's going to consist of 
burning scrap wood, recycling and picking up trash that's 
accumulated. Bring your sunglasses, your raincoats, your water 
bottles. The first 100 volunteers get a free T-shirt and a new 
water bottle. Lunch is going to be provided. Great!
    I think it's fabulous. It gives people real ownership in 
their parks. I think that that is huge for us. These are 
exactly the type of volunteer efforts that the Park service 
should be using and expanding upon, not only to save money, but 
again to bring locals into their parks for a very positive 
experience.
    I also hear from private CEO's who want to donate funds to 
the National Park Service and to specific parks, but they feel 
that their donations are not adequately recognized. I would 
hope that Director Jarvis can talk about how we can work 
together to improve the donation and the recognition 
procedures.
    An idea that I'd like to put forward is for donor 
recognition throughout the national park system. For example, 
we should have tasteful recognition of private donors who are 
willing to pay for specific maintenance backlogs projects, 
perhaps the naming of a room in a visitors' center, the naming 
of a bench. There are dollars, I think we can bring into the 
park system, but we need to make it easy. We need to make it 
worthwhile for these donors.
    We just passed through the House and the Senate a measure 
that would allow for recognition of donors to the Vietnam 
Veterans Memorial. I think there are some ideas out there that 
we can look to.
    Another thing that I'd like to raise before we turn to Dr. 
Coburn is, looking at the current recreational fee structure. 
Some national parks charge entrance fees; others don't. I think 
we need to look at this fee plan and ensure that there is some 
equity across the National Park Service. I think it's kind of 
unfair that my constituents in Alaska have to pay to visit some 
of their parks, but that other folks around the country don't 
bear that same burden.
    For the parks that do not charge an entrance fee, maybe we 
should look at the idea of charging for parking within those 
parks. I'm told by the Park Service that if a National Park 
Service started charging for parking on the National Mall, this 
is just one example, they could raise an additional $2 million 
per year. I don't know that I want to pay more parking here in 
Washington, D.C., but it's an idea out there. You could put the 
money back into the maintenance on the Mall.
    So again, Mr. Chairman, I'm pleased that we are at this 
point. I really do hope that this is the beginning of a very 
constructive dialog that allows us to address, in a meaningful 
way, the maintenance backlog of our wonderful national parks.
    The Chairman. Thank you, Senator Murkowski, and I think, as 
usual, you offer up some ideas that certainly ought to be 
explored. We're going to do that together.
    I also want to note, before we go to Dr. Coburn, that we 
have 3 colleagues who have long, long, long histories of being 
advocates for the parks: Chairman Udall, of course, chair of 
our subcommittee, has brought an extraordinary amount of 
passion and expertise to this cause. We thank him. His ranking 
member is here, Senator Portman, who also both in terms of his 
private-sector involvement and service in the Senate, has a 
long record of supporting the parks. Then it would be fair to 
say that Senator Alexander is almost ``Mr. Parks,'' because he 
has consistently advocated for sensible park protection in our 
country.
    So I'm very grateful to colleagues for coming, and I think, 
I know Senator Udall has to leave fairly early. After Dr. 
Coburn has given his testimony, I'll make sure that all 
colleagues who are under the gun will ask questions certainly 
before I do. So, Dr. Coburn, I think it's pretty clear that 
your message is getting through, that people understand that 
this is a very, very serious challenge. You can't pretend to be 
in denial and say it doesn't exist. So we thank you, and on 
this issue, nobody has done more to make the point here about 
how important this challenge is. We welcome your testimony.

          STATEMENT OF HON. TOM COBURN, U.S. SENATOR 
                         FROM OKLAHOMA

    Senator Coburn. Thank you. I appreciate being invited 
before the committee.
    In the next month, we'll release the 2013 Parks Report, 
where we have done an in-depth study on many of our parks, the 
problems they have, the financing of our parks, where the money 
goes, and following it all the way down, and list in there some 
recommendations of things we hope the committee will consider. 
But I appreciate the opportunity to come before you.
    My background, I was born in Wyoming. I love Yellowstone. I 
love Rocky Mountain National Park. I love the Grand Tetons. I 
spend a lot of time in that part of the country when I'm not 
here, and so I'm a critic of what we're doing because I love 
our parks. My oldest 4 grandkids just spent time at the Grand 
Canyon and at Yellowstone, enjoying and taking in those 
magnificent parks.
    You know, the National Park Service has $3 billion, a 
little bit less than $3 billion budget, and 401 units, park 
units, covering 84 million acres of land. But with that budget, 
they also are responsible for 27,000 historic structures, 2,461 
national historic landmarks, 582 natural landmarks, 49 national 
heritage areas, and 84 million acres of land.
    The budget for the parks themselves is only $1.36 billion. 
The remaining annual funds of their budget goes toward a 
multitude of activities, including affiliated areas, grant 
programs, research centers, administrative expenses, and 
additional land acquisition.
    Congress and multiple administrations have recognized the 
deferred maintenance problem for years. As a matter of fact, 
President Bush gave a speech in 2001, and said under his 
administration we were going to correct that. They did, 1 year. 
If you look at the graph over here, the deferred maintenance 
went down, 1 year. Then it has continued to climb ever since.
    I would make the point, and I think most commonsense 
Americans would make the point, before we add additional parks, 
we ought to be taking care of the parks we have. We ought to 
privatize what our jewels are. I mean, we all know. I mean we 
have, Alaska has wonderful jewels. Oregon has. Colorado, the 
Smoky Mountains, we have wonderful jewels. But we ought to take 
care of them.
    The political process to add a park is driven, one, by 
recognition, 2, by commerce, because there's always the hope 
that commerce will follow a park. But I think the mature 
thinking would have us really look at the priorities of what we 
have today and want to invest and keep what we have today 
before we make commitments to lessen what we have today.
    A 1997 National Park Service report, based on identified 
maintenance, rehabilitation, developmental needs, the National 
Park Service does not have and never has had enough funds and 
staff to care for all the resources in its custody. Yet, we 
keep adding things for them to do.
    Contributing to the fundamental problem are unrealistic 
expectations reflected in and furthered by park planning 
documents, an overwhelming deferred maintenance workload, and a 
lack of multidisciplinary focus to set and achieve realistic 
goals in cooperative efforts, recognizing the value of the 
aspects of separate parks. Since 1997, we've added 26 park 
units, since 1997.
    In April 2013, the present administration said the 
following: ``Because of the age of existing NPS assets, the 
capital construction backlog of the service continues to 
rapidly expand beyond the capabilities of the service to keep 
up with known major repair/rehabilitation needs.''
    Within the same month of reconfirming that the Park Service 
doesn't have the resources to take care of what it has, they 
added 3 new parks and 13,000 acres through the Antiquities Act. 
Not through us, but through the Antiquities Act. So we're going 
to make this graph much worse just on what's been done in the 
last year.
    The line item ``construction budget'' for the National Park 
Service was $77 million. That's the lowest level since 1988 in 
25 years, last year. As we climb, but their construction budget 
was at the lowest level in 25 years. Deferred maintenance is 5 
times more costly than routine preventative maintenance. We 
know that. The Park Service can give us that. We know that's 
true in other areas. Yet, when we don't have the resources to 
actually resurface a road, then what happens is we have to 
rebuild the base on the road. The cost is astronomical.
    So all these things are multipliers that are actually 
hurting this number, actually making it grow higher as we pass 
on cheaper maintenance that actually would preserve, and then 
have to go to full replacement.
    The top 10 most visited park units in 2012 had deferred 
maintenance backlog of $2.6 billion. So 20 percent of the 
deferred maintenance backlog is in our top 10 most visited 
parks. In 2012, the 59 national parks representing the crown 
jewels hosted 65,000,000 visitors. They have, those jewels have 
$5 billion of that maintenance.
    I can give you some significant examples of deferred 
maintenance. You'll probably hear that from the director. But 
I'll just give you one example. At Independence National 
Historic Park in Philadelphia, over the last 5 years, tripping 
hazards in the park have resulted in 15 tort claims filed, with 
claims up to $2 million a year paid out. What I would tell you 
is that, had we spent a fourth of that each year on 
maintenance, none of that would have happened. So it's not just 
the deferred maintenance. It's we're spending money in other 
areas on lawsuits because of deferred maintenance.
    I appreciate what Senator Murkowski said. I think the LWCF 
fund ought to be reallocated. It's going to continue to grow as 
our oil and gas offshore continues to grow. Those funds are 
going to increase. I know we're in competition with other 
desires for land acquisition. But it seems to me that if we 
were to take 75 percent of that fund, by changing the 
requirements of that fund, and put it into park maintenance 
over the next 10 years to get us caught back up, that in fact, 
we could meet the obligations that are really expected of the 
American people, without doing anything else, and actually get 
caught back up to a place where we're really protecting these 
national treasures that we have.
    The other point I would make is that over the last decade, 
Congress has appropriate over a half-billion dollars to acquire 
even more land, while the same period, the cost of the NPS 
lands has doubled, of just maintaining the National Park 
Service's situation.
    Why don't I stop there? I'll answer any questions you have. 
I'd make one final point. Of the top 25 most visited national 
parks in 2011, only 8 have been approved since 1970. In 
comparison, of the 25 least visited national parks, 20 have 
been established since 1970. So the priority, not only the fact 
that we're establishing new parks when we don't have the money 
to do so, but the priority of what we're establishing in terms 
of exposure to the American public and visitation is very, very 
low. So what we're doing is sacrificing our desire for new 
parks by putting at risk the crown jewels of our national park 
system.
    With that, I'd stop and take any questions that you have.
    [The prepared statement of Senator Coburn follows:]

   Prepared Statement of Hon. Tom Coburn, U.S. Senator From Oklahoma
    Chairman Wyden, Ranking Member Murkowski, and other members of the 
Committee, thank you for the opportunity to testify this morning on 
addressing the National Park System's deferred maintenance backlog.
    Millions of families from around the world will visit one or more 
of our National Parks this summer. While all will be captivated by the 
jaw-dropping scenery or moved by the historical achievements and 
tragedies of America's past, many will be inconvenienced by the 
closures of campgrounds, reduced hours at visitor centers, and piles of 
trash, unclean restrooms, and delayed repairs at many parks. Such 
unsightly conditions are being blamed on recent budget reductions, but 
these problems have been piling up long before sequestration began.
    For years, instead of addressing the urgent needs of our premier 
parks and memorials, Congress and multiple administrations have instead 
focused on establishing new park units and adding more lands. Every new 
site added to the National Park Service further divides the $3 billion 
park budget, which currently provides for 401 park units covering over 
84 million acres of land.\1\ We have effectively been sequestering our 
National Parks for decades with each new park addition. As a result, 
NPS is now being asked to do more with less.
---------------------------------------------------------------------------
    \1\ ``Budget Justifications and Performance Information Fiscal Year 
2014,'' National Park Service, 2013; http://www.nps.gov/aboutus/upload/
FY__2014__greenbook.pdf
---------------------------------------------------------------------------
    The consequences of the undisciplined expansion of our National 
Park System and low-priority spending can be summarized in a single 
value-the National Park Service's staggering $11.5 billion deferred 
maintenance backlog.\2\ The accumulated investment needs to repair 
National Park assets is the nominal representation of our negligence of 
``America's Best Idea.'' The price tag of this backlog has more than 
doubled over the past decade, not so much due to a lack of funds as 
much as a lack of priorities.
---------------------------------------------------------------------------
    \2\ Email from National Park Service to the Office of Tom Coburn, 
January 15, 2013.
---------------------------------------------------------------------------
    For decades Administrations from both parties have acknowledged the 
underfunding for maintenance of existing assets and the deteriorating 
status of the National Park System. In a 1997 document, Preserving 
Historic Structures in the National Park System: A Report to the 
President, the National Park Service stated, ``Based on identified 
maintenance, rehabilitation, and development needs, the NPS does not 
have and never has had enough funds or staff to care for all resources 
in its custody. Contributing to the fundamental problem are unrealistic 
expectations reflected in and furthered by park planning documents, an 
overwhelming deferred maintenance workload, and a lack of 
multidisciplinary focus to set and achieve realistic goals in 
cooperative efforts recognizing the value of all aspects of park 
operations.''\3\ Since 1997, Congress and multiple administrations have 
compounded this problem, adding 26 more park units despite NPS lacking 
the ability to maintain its current projects.
---------------------------------------------------------------------------
    \3\ ``Preservation Maintenance in the National Parks: A Guide to 
NPS Options and Policies,'' National Parks Conservation Association, 
October 2012; http://www.npca.org/about-us/center-for-park-research/
historic-preservation/Final-HP-report-with-HAVO.pdf
---------------------------------------------------------------------------
    In a 2001 speech at Everglades National Park, President George W. 
Bush declared ``Many parks have lacked the resources they need for 
their basic care and maintenance. My administration will restore and 
renew America's national parks.''\4\ Since that speech, the National 
Park Service's deferred maintenance backlog has more than doubled from 
$5.5 billion to $11.5 billion.
---------------------------------------------------------------------------
    \4\ ``The Burgeoning Backlog: A Report on the Maintenance Backlog 
in America's National Parks,'' National Parks Conservation Association, 
May 2004; http://www.npca.org/assets/pdf/backlog.pdf
---------------------------------------------------------------------------
    In April 2013, the current administration made a similar public 
acknowledgement of the problems facing the National Park System. They 
said: ``Because of the age of existing NPS assets, the capital 
construction backlog of the Service continues to rapidly expand beyond 
the capabilities of the Service to keep up with known major repair or 
rehabilitation needs.''\5\ Within the same month of reconfirming that 
the Park Service does not have the capabilities to handle its current 
obligations, the Administration increased the burden of the backlog by 
adding three new parks units and 13,000 acres to the already taxed 
system.
---------------------------------------------------------------------------
    \5\ ``Budget Justifications and Performance Information Fiscal Year 
2014,'' National Park Service, 2013; http://www.nps.gov/aboutus/upload/
FY__2014__greenbook.pdf.
---------------------------------------------------------------------------
    Despite decades of empty promises to fix our parks, Congress has 
made the steady growth of the deferred maintenance backlog a permanent 
feature of the National Park System. The line-item construction budget 
is responsible for funding some of the most critical rehabilitation and 
replacement of facilities in the National Park System. The funding for 
this account in FY2012 was $77 million, its lowest levels since 
1988.\6\ The National Park Service directs $323 million annually 
towards deferred maintenance work. According to the National Park 
Service, it takes $700 million annually just to hold the current 
backlog steady at $11.5 billion.\7\ Therefore, we have locked in a $377 
million annual growth rate of the deferred maintenance backlog, 
surrendering any chance of restoring our National Park System to the 
quality that the American people deserve.
---------------------------------------------------------------------------
    \6\ Email from National Park Service to the Office of Tom Coburn, 
January 15, 2013.
    \7\ Email from National Park Service to the Office of Tom Coburn, 
January 15, 2013
---------------------------------------------------------------------------
    These numbers are translated into real life consequences in our 
beloved National Parks. For example, Grand Canyon National Park has 
accumulated a $405 million deferred maintenance backlog.\8\ The backlog 
of the trails alone total over $24 million, and ``unless management 
actions are taken in the near future, trails will continue to fall into 
disrepair and deferred maintenance costs will continue to 
increase.''\9\
---------------------------------------------------------------------------
    \8\ Email from National Park Service to the Office of Tom Coburn, 
April 25, 2013
    \9\ ``National Park Service Announces Availability of Environmental 
Assessment for Mule Operations and Stock Use in Grand Canyon National 
Park,'' National Park Service website, accessed July 22, 2012; http://
www.nps.gov/grca/parknews/national-park-service-announces-availability-
of-environmental-assessment-for-mule-operations-and-stock-use-in-grand-
canyon-national-park.htm .
---------------------------------------------------------------------------
    At Independence National Historic Park in Philadelphia, ``the 
majority of the park's walkways were constructed or renovated between 
1950 and 1976'' and contain many tripping hazards. Over the last 5 
years, tripping hazards in the park ``have resulted in 15 tort claims 
filed,'' leading to claims ranging from $200,000 to $2 million per 
year.\10\
---------------------------------------------------------------------------
    \10\ ``Budget Justifications and Performance Information Fiscal 
Year 2014,'' National Park Service, 2013; http://www.nps.gov/aboutus/
upload/FY__2014__greenbook.pdf .
---------------------------------------------------------------------------
    The 60 to 80 year old water system in a portion of Yellowstone 
National Park loses about 50 to 70 percent of the system's water 
through leaks, with reports of leaks as large as ``15,000 gallons per 
day, per joint of pipe.'' The existing lines fail to ``provide adequate 
fire protection to the facilities of the historic district,'' while 
``end lines and cross connections can create contamination or restrict 
disinfection in the drinking water system.''\11\
---------------------------------------------------------------------------
    \11\ ``Budget Justifications and Performance Information Fiscal 
Year 2014,'' National Park Service, 2013; http://www.nps.gov/aboutus/
upload/FY__2014__greenbook.pdf .
---------------------------------------------------------------------------
    Meanwhile, Congress has appropriated $527.4 million to acquire more 
land for the National Park Service over the last decade while during 
that same period the needed repairs on existing property increased by 
$5.4 billion.\12\ The Land, Water, and Conservation Fund (LWCF) can be 
used to acquire additional land for the federal government, but cannot 
be used to maintain or fix existing federal properties. No one builds 
an addition to their house when the roof is caving in. Nor should their 
government.
---------------------------------------------------------------------------
    \12\ Carol Hardy Vincent, ``Land and Water Conservation Fund: 
Overview, Funding History, and Issues,'' Congressional Research 
Service, March 5, 2013;
---------------------------------------------------------------------------
    In December 2012, the National Park Service spent $16 million to 
acquire 86 acres of land in Grand Teton National Park from the state of 
Wyoming at a cost of $186,047 per acre. The National Park Service plans 
to continue to purchase 1280 acres of land in two installments totaling 
$91 million.\13\ The federal government will spend $107 million in 
federal land acquisition to add 1,366 acres to the 310,000 acre Grand 
Teton National Park, expanding the National Park unit by one percent. 
The funding that will be used could have reduced the park's $221.7 
million deferred maintenance backlog by nearly 50 percent.\14\
---------------------------------------------------------------------------
    \13\ ``National Park Service Buys 86 Acres of Wyoming Lands 
Surrounded by Grand Teton National Park,'' National Parks Traveler, 
December 30, 2012; http://www.nationalparkstraveler.com/2012/12/
national-park-service-buys-86-acres-wyoming-lands-surrounded-grand-
teton-national-park22626 .
    \14\ Email from National Park Service to the Office of Tom Coburn, 
April 25, 2013 .
---------------------------------------------------------------------------
    The expansion of commitments to the National Park Service and the 
simultaneous decay of the existing sites is a microcosm of why we are 
quickly approaching a $17 trillion national debt. Congress must make a 
commitment to properly prioritize resources by redirecting funding from 
low-priority projects. Congress should also seek common sense reforms, 
such as utilizing LWCF funding for maintenance, creating a more 
sensible recreational fee policy, and ensuring that federal policies do 
not discourage contributions from outside sources. Finally, Congress 
should reevaluate the current National Park System to ensure that our 
units are held up to the high standard set by the first Director of the 
National Park Service when he stated, ``The national park system as now 
constituted should not be lowered in standard, dignity, and prestige by 
the inclusion of areas which express in less than the highest terms the 
particular class or kind of exhibit which they represent.''
    Until Congress and the administration take action to prioritize the 
maintenance of existing national park obligations, the problem will 
continue to grow worse. I appreciate the opportunity to appear before 
this Committee and look forward to working together to accomplish these 
important tasks.

    The Chairman. Dr. Coburn, thank you.
    Do any colleagues have either questions or want to be 
recognized at this time for a statement on this issue?
    If not----
    Senator Alexander. Mr. Chairman, before, I don't need to go 
ahead of anybody. But if it's appropriate, I don't want to 
question another Senator. But I wouldn't mind having a little 
colloquy with him about what he said.
    The Chairman. Very good.
    Senator Alexander. But I'll be glad, if he's got time to 
stay, but I'll be glad to go after Senator Udall or you or Lisa 
or anybody else.
    The Chairman. Everybody is being so collegial.
    Senator Udall, would you like to start?
    Senator Udall. I agree with Senator Alexander. I'm not 
interested in questioning another Senator. I do think Senator 
Coburn's research is worth considering.
    I do find it interesting that we have not fully funded LWCF 
at the $900 million level for many, many years. It's been 
funded based on what appropriators have wanted to do. So I'm 
certainly open to taking a creative look at all of this, 
Senator Coburn, because the parks that you mentioned are 
America's best idea.
    There have been, and I would like to get this in the record 
in some greater depth, but there have been some cases, for 
example, where LWCF has had a dual or threefold purpose. In 
Colorado, the Great Sand Dunes National Park, which I think 
maybe you visited, maybe you and I can join forces and spend 
some time there on the ground, since I know you love Colorado 
and spend a lot of time there.
    The creation of that national park, which was a national 
monument, but we expanded it to a national park, helped a 
ranching economy in the valley because their water supplies 
were threatened. It's an example of how LWCF was creatively 
focused on protecting a way of life and also these marvelous 
natural landscapes.
    I think on a case-by-case basis, I still think LWCF has a 
very important role when it comes to land acquisition. One 
other comment you and I can visit about this later, as well, is 
a lot of the maintenance needs of buildings, roads, bridges, 
water systems, and the purchase of additional land sometimes 
that are in holdings to make a national park complete, the land 
trades and the like is relatively inexpensive and makes the 
management job of people like Director Jarvis easier. So I may 
have a disagreement as to the utility of the LWCF when it comes 
to additional land acquisition at times and in situations where 
it's merited.
    Senator Coburn. But you wouldn't deny the fact that if we 
don't start catching up, this is going to go into an elliptical 
curve in terms of the cost. But I'd make the point, for 
example, we've had a recent purchase at the Grand Teton 
National Park. The planned purchase, plus the purchase that was 
made, although it may be totally proper, the amount of money 
paid for that small expanse would cut the backlog at Grand 
Teton in half.
    So had you not bought the additional land, the backlog 
maintenance, if you could have used that money for maintenance, 
which is not a given, you would have cut it in half. So all of 
a sudden, you know, when we buy land under good intention to 
expand a park because something is available at a certain time, 
it is a tradeoff against the protection and the maintenance and 
upkeep of that park.
    So I think it has to be balanced. I would just make the 
point, again, is, as we expand Government ownership of private 
lands, and we expand parklands at the same time we're not being 
good stewards of what we already have, the American people 
ought to be questioning what we're doing and how we're doing 
it.
    We all know it's about priorities here. What I would tell 
you, it ought to be a priority to fund the maintenance of our 
parks. It ought to be a priority. Because every year we don't 
do it markedly increases the cost of trying to catch up the 
next year. There's $370 million bucks a year we're falling 
behind.
    Senator Udall. There's no question. Senator Coburn, it is 
frustrating to think about the $900 million allocation, if you 
will, of LWCF moneys. But I think last year, we actually 
appropriated something on the order of $200 million. So you 
could argue we've left $700 million in limbo, or we've left 
those dollars in the hands of the appropriators to be directed 
to other Federal needs.
    Senator Coburn. I agree.
    Senator Udall. So there may be a sweet spot here that we 
all ought to continue discussing.
    Senator Coburn. That fund should grow based on our energy 
production.
    Senator Udall. Most definitely. I think we had a hearing 
just recently in the committee, and there were dueling numbers 
to an extent. But it was somewhere between $6 and $8 billion a 
year generated by offshore royalties.
    I think, is that, Mr. Chairman, ranking member? I think 
that was the number we heard.
    The Chairman. Yes.
    Senator Udall. Yes. So it would be terrific to deploy these 
moneys to the purposes that previous Congresses thought they 
should be deployed to.
    The Chairman. Very good.
    Senator Murkowski, then Senator Alexander, and Senator 
Portman, and Senator Cantwell.
    Senator Murkowski. Senator Coburn, thank you for your 
comments. I for one will look forward, too, to the report that 
you and your staff have prepared, and appreciate the level of 
detail that you have given this issue.
    In your report and analysis, do you look at the issue of 
fees as they are applied across the park system? I mentioned in 
my opening comments that there is a seeming inequity, that in 
certain areas you have fees, and in certain areas that you 
don't have fees. Do you look at that at all? Where do you come 
down on this issue?
    Senator Coburn. We have. We also talked about, in the 
deficit commission, for less than a quarter a visitor, you can 
add about $70 million a year to the maintenance budget. That's 
at 25 cents a visitor. So, you know, there are all sorts of 
ways for us to do it. It ought to be consistent.
    Senator Murkowski. Yes.
    Senator Coburn. You know, I think the Park Service 
struggles with 2 things. One, how do you satisfy the local 
community in terms of this? Then how do you extract enough 
resources to help maintain? There's all sorts of things that we 
can do to bring that up.
    As a matter of fact, we're going to have recommendations in 
this report on how you increase the revenues coming to the 
park. That will be a part of what we're doing. I think the 
other thing is to try to match expenses within the Park Service 
to revenues, rather than, you know, we have a lot of parks that 
cost 100 bucks per visitors per visit. One Hundered dollars. We 
ought to be saying, should we be putting resources there or 
putting resources where we have the highest level of visitors 
and the highest usage?
    Senator Murkowski. I appreciate that. Again, I will look 
forward, too, to the recommendations that you put forward. I do 
think that your proposal, that we need to look to LWCF and how 
we might be able to carve out some of these dollars that are 
directed to this for our parks and maintenance backlog.
    If we're smart, it's not a permanent carve-out. Once we can 
get on top of your curve here, then you should have some 
flexibility. Or I would hope that we would build some 
flexibility to move that elsewhere.
    Senator Coburn. Right. You just sunset it.
    Senator Murkowski. But thanks for your leadership on this, 
and we'll work with you on it. Appreciate it.
    The Chairman. OK. Senator Alexander.
    Senator Alexander. Thanks, Mr. Chairman, and Senator 
Coburn, thanks for coming.
    I'd like to make a comment and get your reaction to it. 
Then if you think there's any sense in it, I'd like to work 
with you and turn it into some specific proposal that we might 
actually try to get done.
    Senator Udall talked about the Land and Water Conservation 
Fund. I was co-chairman of the commission with his father in 
1985 and 1986, under President Reagan, that recommended full 
funding of the Land and Water Conservation Fund, which is $900 
million.
    Now, that's for land acquisition. It's not for maintenance 
of quotes. That's the idea of it, is for Federal and State land 
acquisition. But as Senator Udall said, it only once, I think, 
or you didn't say this, but only once I think has it been fully 
funded.
    The idea was that the money from offshore drilling would--I 
mean, if you impinge on the environment a little bit, you take 
some of that and improve the environment over here. It's a nice 
balance. Except it's never happened. We did get through, with 
Senator Domenici's leadership, a little bit of funding on new 
drilling in the Gulf Coast, and 1/8 of a cent goes to the Land 
and Water Conservation Fund. It's not much money.
    So we've had a lot of bipartisan support for a long time 
for full funding of the Land and Water Conservation Fund at 
$900 million. But it's never happened. Senator Burr, I believe, 
has a bill that would make it mandatory funding. We do have 
this prospect of increased drilling for oil and gas offshore, 
and there's some opportunity there.
    Now, let me localize this problem a little bit and put it 
into perspective. You have said that about half of this $11 
billion is roads.
    Senator Coburn. Yes.
    Senator Alexander. It's roads. Now, in Tennessee, here's 
what we do with roads. We pay for them as we go. In other 
words, in the 1980s, we had 3 big road programs. We said, ``Are 
we going to borrow money to build them?'' We said, ``No. We're 
going to raise the gas tax. We're going to charge the people 
who use the roads to build the roads.'' Every single Republican 
in the legislature voted for that because it was a conservative 
pay-as-you-go policy.
    So we have zero road debt. We have $900 million that we 
collect every year in gas taxes. It's one of the lower gas 
taxes in the country, but it all goes to build roads, and zero 
of it goes for interest on the debt.
    You go to New Jersey, for example, they spend $900 million 
on principal and interest. We're spending it on roads. We have 
the best roads in the country, usually every year 2 or 3 roads. 
So I think it's ridiculous for us to be borrowing money, and 
the Federal Government that is so heavily indebted, to build 
roads in the national parks. We shouldn't be doing that. We 
should be having user fees of some kind to build the roads, it 
seems to me.
    If you want to get at the maintenance, if the deferred 
maintenance is $11 billion and $5 or $6 billion of it is roads, 
why don't we start by figuring out how to develop a way to take 
care of the roads? Maybe the States, through their user fees, 
ought to take a share of that. I mean, Tennesseans drive on the 
Great Smoky Mountains roads, and North Carolinians do, more 
than anybody else. Or maybe we take a combination of what the 2 
of you said and maybe Senator Murkowski said, and maybe in 
exchange for fully funding the Land and Water Conservation Fund 
for 10 years, we do that with a mandatory funding that's 
derived from oil and gas revenues, which is sort of a user fee, 
since a lot of that goes to transportation. For at least 10 
years, we use that to take care of the roads in the national 
park. That knocks off half the backlog. That leaves $5 million 
to go.
    While conservationists might be shocked at the thought 
because that money is supposed to go to acquiring new lands, 
Senator Coburn has made the point we shouldn't be doing that 
when we can't take care of the ones we've got, and you could 
add to that, we haven't been funding the Land and Water 
Conservation Fund anyway.
    So if we were to say that for a period of time, we take 
some of this new money and use it for roads, that helps the 
parks and that gets at your point, and it gets us into a habit 
in this country of fully funding the Land and Water 
Conservation Fund, which we can do, maybe more with a straight 
face when we do a better job of taking care of what we've got 
now.
    So my comment, I'd be interested in your reaction. Do you 
think it's realistic to come up with a proposal that fully 
funds the Land and Water Conservation Fund for a period of 
time, uses some of it for roads and at least get that part of 
it taken care of, and using new revenues to do it that are 
derived some way or another from user fees or from energy 
exploration, rather than borrowing money by a Federal 
Government that's broke?
    Senator Coburn. You know, your committee is the 
jurisdiction on the best way to approach that. But what I would 
say, a couple of things. No. 1, the Federal Government owns 
640,000,000 acres of land right now. If you do $9 billion over 
the next 10 years of land acquisition, what's that going to be? 
In other words, at what point does the LCFW stop? In other 
words, do we buy all the land that's available out there?
    So what happens to land that is taken by the Federal 
Government, in terms of loss on the tax rolls? In other words, 
there's economic benefit, but there's also an economic loss.
    You know, I think one other thing that we ought to look at 
is, how do we endow our parks? I mean, you know, I can imagine 
that the Grand Tetons National Park, with the people that live 
out there and visit that, that if you set up a plan to endow 
its future and created a recognition of those that were 
involved in endowing it, that you could create an endowment in 
the Rocky Mountain National Park, the Grand Teton, and several 
others around this country, to where you would create an 
endowment that could never touch the principal, but would be 
totally dedicated to the maintenance and preservation of those 
parks, to where this wouldn't even become a question anymore.
    Where it would be a question is the parks where people 
really don't want to go, that don't really match the level of 
pristine nature that we see. That's been part of our problem, 
adding parks that don't come to the level of what we intended 
when we started creating parks.
    That's one of the reasons I've been aggressive in trying 
not to add parks until we take care of it because I think, you 
know, I can tell you a lot of places in Oklahoma that we'd love 
to have a park, but it doesn't come up. No, it does not. The 
economic benefit would be great.
    So I'll work with anybody to try to fix this backlog. But I 
want to fix it permanently. I want us to try to endow. I want 
us to create the place where we can have people come in and 
invest in our parks, get some small recognition for it, but 
create an endowment so over the next 20 years, this isn't a 
problem.
    I think there's a lot of Americans that would like to do 
that, to participate in the preservation of what are some of 
our greatest assets in this country.
    So I think there's all sorts of ways you get there. I think 
you ought to use a large portion of appropriated dollars from 
the Land and Water Conservation Fund to help on the backlog, 
rather than buy more land right now.
    Senator Alexander. Mr. Chairman, if I could make just one 
comment, and then I'll----
    The Chairman. Of course.
    Senator Alexander. If there were money in the Land and 
Water Conservation Fund, I think I'd agree with you. I mean, I 
think of the Great Smoky Mountain National Park has 2 or 3 
times as many visitors every year as any Western park, has 
nearly 10 million visitors a year. In 2005, $110 million of the 
$180 million in the Smokies was roads.
    I'm just suggesting that one way to tackle this is to get 
roads out of the picture. I mean, let's pay for roads with user 
fees of one kind or another. Then let's focus on the rest of it 
with appropriated dollars.
    Senator Udall. Mr. Chairman, could I?
    The Chairman. Very good, yes. Senator Udall.
    Senator Udall. I want to thank Senator Alexander for his 
comments. I want to associate myself with his comments. I want 
to thank Senator Coburn again for his interest and passion on 
this question.
    I would point out, and Senator Alexander was there at the 
beginning, you were there at the genesis of this LWCF idea 
that--of course, LWCF has 4 different missions: urban forests, 
Stateside funding, Federal funding, and we have to take all of 
that into account. But I think Senator Alexander is on to an 
approach that really may have utility in it. It would be a 
hallmark of this committee if we could move something forward 
to really get at what we're discussing here today.
    So, thank you, Mr. Chairman.
    The Chairman. Senator Portman was next, Senator Udall's 
partner.
    Senator Portman. Thank you. Thank you, Mr. Chairman. I'm 
not going to hesitate to ask my colleague questions, because he 
answers them so well.
    First of all, I think this was a great discussion. I thank 
the chairman for asking Tom to join us, and then the great 
input from 2 members who have a lot of experience, and the 
ranking member, who has got a lot of experience.
    I think, you know, this is kind of exciting because there's 
an opportunity here for us to do the right thing by our parks. 
I think with Udall as the chair of the subcommittee, having not 
just experience, but some flexibility here in how you look at 
this differently, I think that's really important. I'm the 
ranking member now. We probably don't focus as much as we 
should here in Congress on this issue because the parks are our 
treasure, everybody loves them. But we've got to be sure that, 
as Tom has pointed out, that we deal with this backlog.
    I did serve briefly on this National Commission on the 
Centennial. I got off it when I got into the race for the 
Senate. I was on it, and I was sometimes the skunk at the 
picnic, as some will know who are in the group here, because my 
focus was on this notion of stewardship. I really think we make 
a mistake in focusing too much on acquisition.
    I will tell you, we need to, in my view, have some 
flexibility on this because you all made a good point. Mark 
talked about some of these in-holdings where you can't 
actually, through acquisition, help to make a park more 
efficient. I will give you a good example of that, Cuyahoga 
National Park. It's our only big park in Ohio. It's top 10 in 
the country. It's not the Smokies, where I was on my 
anniversary last weekend, and the roads were fine.
    [Laughter.]
    The Chairman. That's just getting through the park.
    Senator Portman. Yes. That's just getting through it. We 
didn't run into any potholes. We need a few potholes fixed at 
Cuyahoga, however.
    But anyway, it is, I think, one use of the Land and Water 
Conservation Fund. But I do think this idea of using it for 
backlog is really interesting. There is actually some 
precedence. Mark Udall talked about some of the uses of the 
fund. I think the fund also, this historic preservation fund, 
is really for maintenance. So that is some way in which we now 
use the Land and Water Conservation Fund, not for acquisition, 
but for actually maintenance of historic sites. These are non-
Federal historic sites, as I understand it. We'll hear more 
about that later, I think, from National Parks and Conservation 
Association and the National Parks Hospitality Association, as 
they have put together this report for us that we have in our 
material.
    But my question to you is, one, about that flexibility on 
the Land and Water Conservation Fund, if we start to fund it, 
which we should and we will be able to, thanks to the new finds 
offshore and the new technology on oil and gas. But also, how 
do you get the private sector more involved? We'll hear 
something about this later.
    When I was at OMB, as you may remember, Tom, we offered a 
balanced budget in fiscal year 2008, over 5 years, not 10 
years, but 5 years. But we increased funding for the parks. 
There's a little bit of a flat line there when the Congress 
responded to that. It wasn't a reduction, but at least we 
flattened it out for awhile. But Congress, frankly, didn't take 
up the initiative. The initiative was really threefold.
    But the most important one I thought was the challenge and 
the match. So we went to the private sector and said, Why don't 
you put some money in every year, 100 million bucks into the 
parks? Then we'll get Congress to pass legislation to match it 
with 100 million bucks, dollar-for-dollar match.'' That never 
happened.
    The Chairman was just talking about what was done in 
connection with this helium legislation and the $50 million 
challenge in that legislation. I just think, as you indicated 
earlier with regard to the Tetons and all the interest in 
preserving it, and there are friends groups that do a great job 
and philanthropic groups, and in a sense, they provide somewhat 
of an endowment. But it should be more connected to, what are 
the recognized needs of the park on the deferred maintenance, 
which as you said is 5 times more costly than regular 
preventive maintenance?
    So what do you think about that? Does the Federal 
Government have a role to play here in providing an incentive 
for the private sector to step up and maybe with some naming 
rights, done in a tasteful way, as Senator Murkowski has talked 
about, but to tap into this love of the parks, this interest in 
the parks, and frankly, the economic benefits of these parks?
    Senator Coburn. Yes, I think it has a role. What you need 
is a champion. You know, we had a champion for parks, Teddy. 
What you need is a champion that will go out and say, ``Look at 
where we are.'' Most Americans know that we're kind of in the 
grips of some pretty tough financial prospects, going forward, 
in terms of our debt and our long-term obligations. So I can 
say, yeah, I think you could do a challenge-type grant.
    But what you need is a champion, somebody to go out and 
say, to call on those with wealth in this country and say, 
``Come help us endow the parks.'' You know? If we get ahead of 
the curve, which we never do, but if you think about an 
endowment, an endowment is doubly saving. It means that you 
have income coming off the endowment, which you can apply 
today. But it also means you're not borrowing money against the 
future. So you're saving because you're performing proper 
maintenance, one. No. 2 is, you're not paying an interest cost 
on it.
    Senator Portman. All right. Yes.
    Senator Coburn. So it's just smart. So I would say if we 
could develop a champion, a retired Senator, a retired 
Congressman, a retired Vice President, who would go around the 
country and rally for the parks to endow the parks so that we 
could actually put in motion a preservation for what is really 
a tremendous asset for our country.
    But I think the conflict is, everybody wants a park even 
when it doesn't make any economic sense to have a park. But the 
whole argument is about economic benefit, and at a time when we 
can't take care of the very critical resources that we have 
today.
    So like I told Senator Alexander, I'll help do whatever I 
can. But I want us to get caught up and do it in a way--because 
it's going to save us a ton of money if we do it on a timely 
fashion rather than a deferred fashion.
    Senator Portman. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Portman.
    I think we've had something like 10 percent of the Senate 
here now to get into this issue. I want to see what other 
colleagues would like to make comments.
    I think on this side, are there other colleagues that would 
like to comment or ask questions of Dr. Coburn?
    Senator Manchin.
    Senator Manchin. I just applaud Senator Coburn's effort on 
this bringing it to our attention. But the bottom line is that 
he's absolutely correct. I don't have the presence of State 
parks, I mean national parks in my State. But West Virginians 
use national parks over this country. They are so appreciative 
to have that opportunity.
    So we're all in. We're committed. We'll do whatever we have 
to do. I agree with you. Someone needs to go out and beat the 
drum on this.
    But the deferred maintenance, just as relevant, when I was 
Governor, I had every time it was time to build something, you 
just would refer that to everybody wants a new park in their 
district. It's good to go home and say, I got a national 
park.''
    I had the college system. Everybody wanted to build new 
buildings. So before I approved any new buildings to be built, 
I wanted to see what their deferred maintenance was. It was so 
pathetic that they didn't even, they didn't deserve one more 
penny for one new building because they hadn't taken care of 
what they had.
    If we continue down this road and can't take care, you 
can't ask the taxpayers or any of these benefactors, when we're 
not good stewards.
    So I would say, to have a value cap on what our deferred 
maintenance should--and I'm sorry I came in late. You might 
have gone over that, Senator. I don't know. Do we know about 
how much our deferred maintenance is on our national parks? Do 
we have an idea how much?
    Senator Coburn. Yes. It's $12 billion.
    Senator Manchin. $12 billion.
    Senator Coburn. For our backlog.
    Senator Manchin. Just to get----
    Senator Coburn. But remember, this is a compounding, 
growing problem.
    Senator Manchin. Right.
    Senator Coburn. Because every year you don't do 
preventative maintenance, you get behind the curve. Then pretty 
soon now, you're replacing a road rather than resurfacing.
    Senator Manchin. Sure.
    Senator Coburn. So, you know, this has kind of flattened a 
little bit. But it's going to accelerate, especially what we've 
done to the Park Service this year.
    Senator Manchin. The type of money we're putting in for 
maintenance is equal to how much?
    Senator Coburn. It's half of what they need. Now, they're 
running a $377 million deficit on maintenance every year. So 
every year, they get further and further behind. The degree of 
maintenance to catch back up, the cost becomes more complex 
because you're not doing preventative maintenance, you're doing 
structural maintenance.
    I mean, look. At the Grand Canyon, we're dipping water out 
of the river sometimes when the water in there to run the 
toilets, Grand Canyon National Park. Are we proud of that?
    [Pause.]
    Senator Manchin. I'm just, I'm committed. Again, a State 
that doesn't have an awful lot of structure in our State, we 
still benefit, all as Americans. I think we have to look at it 
as a whole, not just as what is good for my State, or do I get 
a park? I'll vote for this is I get something for it.
    This is something that has to be done, and I appreciate and 
applaud you, sir.
    Senator Coburn. Thank you.
    The Chairman. Thank you, Senator Manchin. Certainly, your 
problem-solving approach is going to be very useful as we try 
to take this on.
    Senator Barrasso is next.
    Senator Barrasso. Thank you, Mr. Chairman. I just want to 
thank Senator Coburn for his leadership. I agree completely the 
Land and Water Conservation Fund really should be used for 
maintenance backlog, not new acquisitions.
    You know, we do have the Grand Teton National Park 
Foundation founded in 1997. It was a partnership with the Park 
Service. Actually, it worked to construct the Craig Thomas 
Visitor Center, which opened after and was dedicated to Craig 
after his death. So there are partnerships that exist. But I 
agree, actually, with your comments about the Land and Water 
Conservation Fund. So thank you.
    Thanks, Mr. Chairman.
    The Chairman. Thank you.
    Any other colleagues who would like to make comments or ask 
questions with respect to Dr. Coburn?
    Senator Heinrich, Senator Baldwin, you would like to pass 
at this time?
    [Pause.]
    The Chairman. OK. Very good.
    Dr. Coburn, I think you've seen the really extraordinary 
interest among Senators on both sides. David Brooks is sitting 
behind me and he is a guru on this whole issue of advocating 
for the parks. I asked him, ``When was the last discussion in 
the Senate about these kinds of issues, looking at these kinds 
of questions on how we deal with a very real problem of the 
backlog?''
    Mr. Brooks, who is basically a repository of knowledge 
about parks, basically said he couldn't even remember when 
there was a discussion. So it's pretty obvious now that we have 
this debate underway.
    I want to tell you 2 things with respect to substance. 
First, you and I have talked about this question of trying to 
make sure you get the money where the need is. Particularly, 
being more creative about it. I want you to know I'm going to 
work with you on it particularly with respect to the issue I 
touched on earlier, because the fee revenue expires in December 
2014. So we've got to do it. That would be one place to really 
look very concretely at one of the ideas that you've had in 
there. Apparently, there are efforts already underway. There 
may be more creative ways to do it. So we're going to look at 
that.
    On this endowment issue, you basically had me at hello, 
because this is an area, I'm convinced, where there just won't 
be one champion in the United States. There will be a lot of 
champions. We're going to pursue that very vigorously. I've 
already begun some of that discussion.
    So, thank you. I think you've seen the interest among 
Senators. We're going to be working very closely with you in 
the days ahead. OK.
    Let's bring up the Honorable Jonathan B. Jarvis, Director 
of the Park Service.
    Mr. Jarvis, as you come up, I also would like to express my 
thanks to you for the fact that you've worked so closely with 
the committee. We could not possibly have gotten that Cape 
Hatteras National Seashore legislation out of the committee 
without your very valuable counsel. As you know, that went on 
for years and years. I just want the public to know that I'm 
particularly interested in some of the efforts that you all 
have made to really look at technology to resolve some of these 
conflicts that have just gone on and on.
    As we all know, there have been real questions in Cape 
Hatteras with respect to the turtles and how you could ensure 
protection for them and also be welcoming to visitors. You all 
worked very closely with the private sector, with companies in 
the private sector, to look at approaches, where in effect you 
could put tags, on these nests so that, through sensors, you 
could know when the turtles would hatch. You would be in a 
position to resolve a conflict that had gone on and on. You 
could add an additional measure of protection for the turtles, 
while still do more to welcome visitors to this wonderful 
treasure that the North Carolina Senators felt so strongly 
about.
    So it's those kind of fresh approaches that we need. Let's 
see if we can come up with some on this funding issue. We'll 
put your prepared remarks into the record in their entirety. 
Why don't you just go ahead and make your comments? I know 
you're going to get questions from Senators.

 STATEMENT OF HON. JONATHAN B. JARVIS, DIRECTOR, NATIONAL PARK 
              SERVICE, DEPARTMENT OF THE INTERIOR

    Mr. Jarvis. Thank you, Mr. Chairman, and thanks all of the 
Senators that are here today. I actually really, I come up here 
a lot. But I have to say that I really appreciate this 
discussion, because it is critical to the future of the 
National Park Service.
    Congress has charged the National Park Service with 
protecting America's special places in perpetuity. That is a 
fundamental responsibility of Congress, then, to provide an 
annual appropriation commensurate with the responsibilities 
that it has given us.
    We've embraced opportunities to supplement those funding 
through entrance fees, concession-generated fees, and new 
models of public--private land management. However, annual 
appropriations remain the primary means of addressing our 
deferred maintenance backlog.
    At the end of Fiscal Year 2012, the National Park Service 
faced an $11.5 billion backlog in deferred maintenance. In 
order to merely hold the backlog at a steady level of 11.5, we 
would need to spend nearly $700 million per year on deferred 
maintenance. In Fiscal 12, we had $444 million available for 
that purpose, which falls significantly short of the necessary 
$700 million. So as a result, every park must make very 
difficult decisions about which facilities to repair and which 
ones to defer.
    Managing this large deficiency with limited resources 
requires that we concentrate our efforts on correcting the most 
serious deficiencies in all of our assets. We systematically 
track asset conditions and maintenance activities, which gives 
us the ability to identify the most serious deficiencies. The 
total need to address the high priority non-road facilities is 
$4.2, and for roads, it's $3.3 billion.
    We prioritize repairs that are more critical to protecting 
resources, ensuring the health and safety of our visitors, and 
provide rewarding visitor experiences. We also require that 
each maintenance project pass a financial sustainability test, 
proving that the park will be able to keep the asset in an 
acceptable condition for the lifespan of the replacement 
component.
    There have been occasions when Congress has provided a one-
time boost to the funding of our backlog. The recent example, 
of course, is the $750 million the National Park Service 
received from the American Recovery and Reinvestment Act of 
2009. With those funds, we executed 800 projects at 260 park 
units, the majority of which addressed deferred maintenance.
    We are absolutely open to ideas that supply additional 
funding, and we appreciate the work of the Bipartisan Policy 
Center, MPCA, and the National Park Hospitality Association. 
Some of these ideas raised by the groups have been around for 
some time and have been pursued. We're currently reassessing 
concession fees, promoting the use of leasing authority, 
engaging our volunteers, and investing in energy-saving cost-
cutting technologies.
    The Bipartisan Policy Center White Paper includes 2 
proposals that have identified new revenue sources and have no 
net increase to the Federal budget. One is to increase fee 
revenue, for example, comparative pricing of our annual pass 
with State annual passes, or using peak pricing models for our 
highly seasonal parks. The other is to establish a public--
private partnership matching fund, with revenue offsets.
    Our experience with the $25 million Centennial Challenge 
Fund in Fiscal Year 2008, which was talked about here, makes us 
confident that our donors will respond to a Federal matching 
fund. Already, partners are stepping up to help us prepare for 
our second century. Last November, in partnership with the 
National Park Foundation, we kicked off the first phase of a 
centennial campaign that will culminate in a strategy for 
introducing the National Park Service to the next generation.
    The repairs to the Washington Monument provide a visible 
reminder of the effectiveness of public--private partnerships. 
The NPS received $7.5 million in appropriated funds for the 
earthquake repairs, with the understanding that a 
philanthropist was prepared to match that amount. By working 
with our partners and our friends, we will be able to reopen 
the monument in 2015.
    A number of the proposals from the White Paper we are 
already pursuing have practical, legal, and financial 
limitations. We're exploring them in a manner that is 
consistent with NPS policies, regulations, and laws. In 
addition, we are supporting legislation to authorize a 
commemorative coin celebrating our Centennial in 2016.
    The White Paper also identifies some proposals that face 
significant challenges. One proposal is to increase the Federal 
gas tax by 1 cent and use the revenues. Our roads represent 
$5.7 billion, or 50 percent, of the backlog. Another proposal 
is to establish an endowment, which we support. There are 
proposals to develop a model for managing park concessionaires, 
similar to the model used by the Defense Department in its base 
exchanges and recreation facilities and to pursue bonding and 
revolving loans.
    I would like to mention, finally, the significant impact of 
sequestration from the budgetary cuts to the National Park 
Service and its related bureaus. Sequestration was designed to 
be inflexible, damaging, and indiscriminate, and it is. It is 
undermining the work that we need to do on our many fronts. 
It's increasing our backlogs, eroding our work force, and 
deferring important work.
    To conclude, the National Park Service will continue to 
pursue new and creative ways to address its funding needs. I 
want to thank our many partners who are here who have come to 
us with these ideas. I appreciate the support of Congress to 
resolve this extraordinary challenge. Thank you.
    [The prepared statement of Mr. Jarvis follows:]

   Prepared Statement of Jonathan B. Jarvis, Director, National Park 
                  Service, Department of the Interior
    Mr. Chairman and members of the Committee, thank you for the 
opportunity to appear before you today at this oversight hearing to 
consider supplemental funding options to support the National Park 
Service's efforts to address deferred maintenance and operational 
needs.
    Today's hearing comes three years and one month to the day before 
the National Park Service's one hundredth anniversary. I think it is 
appropriate then that we should look back at the words that Congress 
used when it decided that certain places were so important-so essential 
to our national character-that they should be protected not for five, 
or ten, or even one hundred years, but for all time.
    The National Park Service's Organic Act, signed into law on August 
25, 1916, states: ``The service thus established shall promote and 
regulate the use of Federal areas known as National Parks, monuments, 
and reservations.by such means and measures conform to [their] 
fundamental purpose.to conserve the scenery and the natural and 
historic objects and the wild life therein and to provide for the 
enjoyment of the same in such a manner as will leave them unimpaired 
for the enjoyment of future generations.''
    These were bold and inspirational words when they were written, and 
they define the broad mission of the National Park Service. The 
maintenance of our facilities and roads is an essential part of meeting 
our mission, but it is only one part among many. Our focus and 
attention must be directed not only to our existing facilities, but 
also to visitor education and safety, resource protection, and wildlife 
management.
    Congress charged the National Park Service with protecting these 
special places in perpetuity, and it is the fundamental responsibility 
of Congress to provide annual appropriations commensurate with the 
responsibilities it has given us to manage these special places. We 
have embraced a number of opportunities to supplement funding through 
entrance fees, concession generated franchise fees, and new models of 
public-private land management. However, annual appropriations remain 
far and away the heart of our operation and are the primary solution 
for addressing our maintenance backlog. History does not stop, and we 
must continue to find a way to protect those areas that have already 
been designated without excluding those stories and places that matter 
to this and future generations.
    A variety of ideas have been proposed regarding ways the National 
Park Service could raise additional funds. Some of these ideas are 
realistic, but others are not. Except for the call for large infusions 
of federal funds via Federal Lands Transportation Program or Outer 
Continental Shelf (OCS) receipts, many proposals do not come close to 
stabilizing, let alone paying down the National Park Service 
maintenance backlog. Additionally, many of these proposals require 
legislative action or inter-agency coordination, and cannot be 
implemented by internal NPS policy changes or initiatives alone. In 
other words, these proposals are not the answer to the maintenance 
backlog.
    Resolving the backlog is the fundamental responsibility of the 
Federal government. The potential to raise additional funds should not 
be viewed as a way to supplant federal funding. Appropriated dollars 
should continue to serve as the primary means of addressing the 
deferred maintenance backlog. Understanding the backlog, its scope, and 
its various components is critical to identifying possible ways to 
address it.
The Deferred Maintenance Backlog
    At the end of Fiscal Year 2012, the National Park Service faced an 
$11.5 billion backlog of deferred maintenance. This amount grows 
annually at a far greater rate than the Service is able to pay down. In 
order to merely hold the backlog at a steady level of $11.5 billion, 
the NPS would have to spend nearly $700 million per year on deferred 
maintenance projects. To place this figure in perspective, the annual 
operating budget of the entire National Park Service in Fiscal Year 
2012 was $2.2 billion.
    The National Park Service has endured successive years of reduced 
appropriations, and by necessity, non-operating accounts have borne the 
biggest brunt of the reductions. In Fiscal Year 2012, the NPS had $444 
million available to address deferred maintenance projects: $71 million 
from our repair and rehabilitation account, $74 million and $3 million 
from our construction and housing accounts respectively, $168 million 
from the Federal Highways Appropriation for park roads, $75 million 
from NPS-collected recreation fees, and $53 million from park 
concession franchise fees. Even at $444 million, the NPS falls far 
short of the $700 million needed to keep the deferred maintenance 
backlog from growing. At these reduced funding levels, every park unit 
must make difficult decisions to prioritize which facilities are 
repaired and which projects are deferred.
    Managing this large of a deficiency with limited resources requires 
that we concentrate our efforts on correcting the most serious 
deficiencies in the most important assets of the NPS. Through the 
Facility Management Software System (FMSS), the NPS tracks asset 
conditions and maintenance activities, giving us improved visibility 
into Service-wide maintenance needs and the ability to identify the 
most serious deficiencies. The total needed to address the highest 
priority non-road facilities is $4.2 billion and for roads is $3.3 
billion. The NPS prioritizes repairs that are most critical to meeting 
our mission of protecting resources, ensuring the health and safety of 
our visitors, and providing rewarding visitor experiences. We also 
require that each maintenance project pass a financial sustainability 
test to prove that the park will be able to keep the asset in 
acceptable condition for the lifespan of the replacement component.
    There have been occasions when Congress has provided a one-time 
boost in funding directed towards reducing the backlog. One recent 
example is the $750 million NPS received through the American Recovery 
and Reinvestment Act of 2009. With those funds, the NPS executed over 
800 projects at 260 park units located in 48 states and the District of 
Columbia, and the majority of these projects addressed deferred 
maintenance needs. The NPS obligated all of the funds within 18 months 
and completed all projects within 4 years of receiving the 
appropriation. These projects restored or extended the life of roads, 
popular trails, and critical facilities.
Supplemental Funding Proposals
    The National Park Service is open, of course, to ideas that could 
supply added funding and appreciates the work of the Bipartisan Policy 
Center, the National Park Conservation Association, and the National 
Park Hospitality Association to help identify and promote a wide range 
of ideas. Some of these ideas have been around for some time and have 
been pursued. For example, the Centennial Challenge was a successful 
matching fund through which the National Park Service was able to 
utilize the Fiscal Year 2008 appropriations request to help us 
incentivize private donations with a Federal match. We are currently 
reassessing concession services for the 21st century, promoting the use 
of leasing authority, engaging our volunteers, and continuing to invest 
in energy-saving, cost-cutting technologies.
    The Bipartisan Policy Center white paper includes two proposals 
that identify new revenue sources and would have no net increase in the 
Federal budget deficit:

  <bullet> Increase fee revenue--There are many ideas presented in the 
        fee proposal, some of which make a lot of sense, such as 
        competitively pricing the NPS annual pass with state park 
        annual passes (i.e., California's annual state park pass is 
        $125, while the America the Beautiful pass is only $80) and 
        looking into peak pricing models for our highly seasonal parks. 
        The NPS collected $177.7 million in entrance fees in Fiscal 
        Year 2012 and already focuses much of its annual fee revenue on 
        deferred maintenance projects. Of the funds available for 
        projects, the NPS spent, on average, two thirds of its annual 
        fee revenue on deferred maintenance projects from 2010 to 2012.
  <bullet> Establish a Public-Private Partnership matching fund with 
        revenue offsets--As noted above, the experience with the $25 
        million Centennial Challenge fund in Fiscal Year 2008 makes us 
        confident that our donors will respond to a Federal matching 
        fund. Already, partners are stepping up to help us prepare for 
        our second century. This past November, the NPS, in partnership 
        with the congressionally-chartered National Park Foundation, 
        kicked off the first phase of a centennial campaign that will 
        culminate in a strategy for introducing the National Park 
        Service to the next generation of Americans. This work is 
        entirely funded by the National Park Foundation through its 
        development efforts.

    The repairs currently underway on the Washington Monument provide a 
visible reminder of the importance and effectiveness of this kind of 
public-private partnerships. The NPS received $7.5 million in 
appropriated funds for earthquake repairs with the understanding that a 
private philanthropist was prepared to match the figure with a donation 
made through one of our partners. By working with our partners and 
friends, we will be able to reopen the monument to visitors by 2015.
    The white paper includes a number of other proposals that we are 
already pursuing. Many of these proposals have practical, legal, and 
financial limitations, and we are exploring them in a manner that is 
consistent with existing National Park Service policies, regulations, 
and laws. In addition, we are supporting legislation proposed in the 
white paper to authorize commemorative coins celebrating the NPS 
centennial.
    Finally, the white paper identifies some proposals that face 
significant practical hurdles or would require major legislative 
efforts and changes. Such proposals include:

  <bullet> Penny for the Parks--This proposal would increase the 
        federal gas tax by one cent and use the revenues for park 
        transportation infrastructure. Our roads, highways and bridges 
        represent some $5.7 billion, or nearly 50% of the maintenance 
        backlog. These transportation infrastructure needs are 
        addressed through Federal Highway Trust Fund allocations to the 
        Federal Lands Transportation Program. Any decision on park 
        roads funding would have to be addressed when the Highway bill 
        comes up for reauthorization.
  <bullet> NPS Endowment--We support the idea of an endowment. Funding 
        an endowment with non-Federal resources could be done now 
        through our private partners. Funding an endowment with Federal 
        funds would raise a number of issues, including a determination 
        of the appropriate source of funds and related costs.
  <bullet> Non-Appropriated Fund Instrumentality (NAFI)--The NPS could 
        develop a NAFI-based model for managing concession operations, 
        similar to the model used by the Department of Defense to 
        operate its base exchanges and recreational facilities. NAFIs 
        are organizational and fiscal entities that perform a 
        government function utilizing a base of non-appropriated funds 
        from concession-related revenue. The proposed NAFI would 
        function as a governmental organization that would enjoy 
        greater operating flexibility and access to broader financing 
        options. The concept is interesting, and the NPS is working 
        with subject matter experts to better understand the potential 
        operating structure and legislative requirements this idea 
        would entail.
  <bullet> Bonds, revolving loans, etc.--The National Park Service 
        cannot issue or guarantee bonds, but if states or local 
        municipalities choose to issue bonds to support NPS-related 
        projects, we would obviously welcome and encourage that 
        support.

    Finally, let me mention the significant impact that sequestration 
and other budgetary cuts are having on the Department of the Interior 
and its bureaus, from impacts on water, to protection of species, to 
energy development, to the management of our federal lands and 
resources. The sequester was designed to be inflexible, damaging, and 
indiscriminate, and it is. The process put in place by the 
sequestration undermines the work we need to do on many fronts, and 
increases infrastructure and other backlogs across all Department of 
the Interior bureaus. The bureaus are facing funding cuts that were 
imposed mid-year through such measures as freezing hiring, eliminating 
seasonal positions, and cutting back on our programs and services. 
These steps are not sustainable, however, as these actions which are 
eroding our workforce, shrinking our summer field season, and deferring 
important work cannot be continued in future years without further 
severe consequences to our mission.
Conclusion
    The NPS will continue to pursue new and creative ways to address 
its funding needs, and I want to thank those partners who have come to 
us with ideas on ways we can do things better. We will always remain 
open to new ideas when they provide us with an opportunity to better 
meet our mission. I hope that Congress, in turn, will remain committed 
to providing us the resources to meet this extraordinary mission.

    The Chairman. Director Jarvis, thank you very much.
    Because of the number of Senators here, I'm just going to 
ask one question of Director Jarvis to get us started, and then 
recognize colleagues.
    Director Jarvis, for decades, the Park Service has 
recommended expanding the Oregon Caves National Monument. One 
of the primary reasons has been because the existing site is 
not large enough to protect the site, given the volume of 
visitors. So in the case of Oregon Caves, not expanding the 
site could actually increase the cost of maintaining a very 
unique resource.
    My point is that park acquisition and maintenance costs are 
not always in conflict. Certainly, the Oregon Caves raises that 
issue. Adding to the monument might actually hold down the cost 
of maintaining the site.
    So my question to you, Dr. Jarvis, is isn't this part of 
the thinking that ought to go into this debate? In other words, 
we're going to explore plenty of ideas. You saw that with a big 
chunk of the Senate. But wouldn't you say, philosophically, 
that we ought to try to find ways to intertwine this theory 
that park maintenance and acquisition, together, can be part of 
an effective and a cost-effective approach to stewardship?
    Mr. Jarvis. I would agree completely with that, Chairman. 
Oregon Caves is a perfect example where the boundary addition 
that we have proposed would protect the watershed to the cave 
itself.
    As you know, and as I know, having been responsible for 
that great park, is that it's an active wet cave. There is a 
stream that runs through the middle of it. The water for that 
stream comes from the surrounding lands. We have always been 
concerned about the water quality that was resulting from the 
activities on those lands. So by protecting that, adding it to 
the park, we would actually reduce our concerns for maintaining 
that water quality that runs through the cave and then through 
the chateau, as a matter.
    Yes, buying lands can save money, particularly in-holdings 
within our national park, which is predominantly what we're 
restricted to with the Land and Water Conservation Fund. It 
significantly can reduce our administrative costs in terms of 
providing access and maintaining critical resources.
    The Chairman. Very good.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman, and Director 
Jarvis, thank you for being here, your leadership of the parks.
    I think it is important to recognize that we have seen some 
innovative things coming out of our parks. I mention what 
they're doing out in Wrangell-St. Elias just getting the 
neighbors involved to clean up. I think we need to see more of 
that. I think that that helps us, again, not only in addressing 
some of the issues within our parks, but again bringing the 
local people in and giving them ownership, giving them pride in 
their parks. That's a good thing.
    Another thing that we've got good in Alaska right now, as 
you know, we have some very huge parks that are very 
inaccessible. If you happen to have the luxury of owning a 
floatplane or you can pay to fly into a place like Lake Clark, 
you've got beautiful opportunities within these parks. But they 
are very remote and very hard to get to. What you're doing out 
in Katmai with the webcams that are stationed right at the 
falls there, so right now, as we speak--and I'll do a little 
promo for you. But you can go to, I think it's katmaipark.com, 
and you can watch dozens of bears munching on salmon. It's 
better than reality TV. I'm telling you.
    [Laughter.]
    Senator Murkowski. This is the real thing. So it's good, 
because it brings the parks to people, when we know that far 
too many of our parks, as wonderful as they are, are very 
remote. So how we can do that, I think, is good.
    You heard the dialog going back and forth between 
colleagues here and Senator Coburn, and my concern that the 
Park Service seems to be prioritizing acquisition of land over 
the maintenance backlog issues. Can you address really that 
issue? Why we're seeing the level of land acquisition that we 
are? I think Senator Coburn's statistics were really quite 
straightforward and, I think, very compelling. Why we're 
putting the priority on land acquisition ahead of the 
maintenance and backlog?
    Then at the same time that you address that, the 
terminology that you used, I think, was ``financial 
sustainability test.'' Because one of the things that I need to 
understand is, what evaluation the Park Service goes through as 
you look to specific land acquisition to make sure that we are 
not unnecessarily adding to this maintenance backlog, that 
there is a process that you go through in the evaluation of 
what these acquisitions might mean.
    I fully understand what the Chairman has noted, that there 
are land acquisitions, specific in-holdings that truly do make 
it more efficient. But I can't imagine that the bulk of what 
you're doing with these land acquisitions is these smaller in-
holdings. So if you can speak to the priority as opposed to 
maintenance backlog, and then what analysis goes into a review 
prior to these land acquisitions?
    Mr. Jarvis. OK. Let me just clarify that, you know, the 
Land and Water Conservation Fund is available to the 4 Federal 
land management agencies. The National Park Service, amongst 
those 4, is the only one that is restricted from buying lands 
outside of our park boundaries. We can do very minor boundary 
adjustments on the edges, but without your direct authority, we 
cannot buy lands outside of the park boundaries.
    Senator Murkowski. With LWCF?
    Mr. Jarvis. With LWCF.
    Senator Murkowski. But within your existing budget you use, 
you use funds to proceed with land acquisition?
    Mr. Jarvis. Only LWCF. That's the only money that we use 
for land acquisition, is the Land and Water Conservation Fund. 
We do not use any--so we basically had got our funding in 
specific pockets, and we use the Land and Water Conservation 
Fund for land acquisition. Then we use our maintenance accounts 
for maintenance. We're not allowed to move money between those 
2. That's basically up to you to have to grant us that kind of 
authority. We do not have that.
    In terms of acquisitions, because we don't get very much 
money in the Land and Water Conservation Fund, we have a very 
robust priority-setting process that are predominantly toward 
the, you know, key critical issues like threats to the 
resource, opportunities for visitor enhancement, hardship 
cases. We have had one in Montana recently, where an individual 
was on their deathbed, and they really wanted the park to 
acquire their property as well. So we go through a very 
rigorous process to determine what our priorities are.
    Right now, we are in the 150th anniversary of the Civil 
War, and we've had a priority on protecting some key components 
of our Civil War battlefields. So there's been a strong portion 
of that as well. The Park Service also allocates the State side 
of the Land and Water Conservation Fund, which goes out to the 
States to protect habitat and provide visitor enjoyment as 
well.
    Now, we also see on our maintenance side, we have an 
incredibly robust program and in determining our priorities and 
asset conditions. So you basically take every asset, every 
building, every road, every trail, every restroom. You go in, 
you determine its existing condition and its asset priorities. 
So, how important is this to the visitor experience? Or is 
this, you know, a Presidential home?
    Senator Murkowski. Is that based on the number of visitors? 
Is that how you place a priority?
    Mr. Jarvis. That's part of it, yes. Absolutely that's part 
of it. But it also might be, you know, Independence Hall is a 
very important building. So that would be its core to your 
purpose of the park, as opposed to an old barn in Rocky 
Mountain National Park.
    Senator Murkowski. My time has expired. But you haven't 
addressed this financial sustainability test that you 
referenced. How does that work?
    Mr. Jarvis. So that means that once we elevate a building, 
let's say, from a poor condition to a good condition, then we 
require that the park put the annual maintenance into that 
building to keep it at that condition. So they have to 
demonstrate that they're going to make that a priority, make 
that investment to retain it. Because we do not want to fix a 
building up, raise its condition to a new level, and then watch 
it decline.
    So what that means is they have to make very, very hard 
choices about some other buildings that they're going to have 
to defer the maintenance on. But we just do not want to lose 
the investment we've made in improving the condition of the 
facilities we have the money for.
    Senator Murkowski. Yet, as we noted from Dr. Coburn's 
chart, we're clearly seeing that erode.
    Mr. Jarvis. Yes.
    Senator Murkowski. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman, and thanks for 
having this hearing. I got here a little bit late, so I'm not 
sure I'm correct on this next statement. But I'm not sure I've 
heard the word ``sequester.'' So while we're having this big 
discussion, and I think it's an important discussion, I look at 
this as an immediate impact that my constituents are feeling 
and our economy is feeling because of the sequester.
    So while I'm glad to have this discussion, I look at and 
say, we have 13 national parks, 3 of them crown jewels. We have 
visitors producing $261 million and thousands of jobs across 
our State. If the sequester continues, it's something like $153 
million impact across the country. We've already had over $1 
million of impacts that we've had to absorb from Mount Rainier 
since 2010 that are affecting visitor impacts.
    When I look at some of these gateway towns that are part of 
this operation, everything from Port Angeles to Eatonville to 
the North Cascades, I keep thinking, What's the economic impact 
of this going to be? Because we don't get a budget deal. I look 
at the something like 227,000 jobs in Washington State that are 
related to the outdoor recreation industry.
    So for some of my colleagues, this conversation about the 
future and road maintenance and whatever is one economic 
question, and certainly one I certainly have a disagreement 
point on. I'll come to it in a second. But my immediate 
question is, What is the economic impact of all of the 
sequestration having on the economy of a State where national 
parks and outdoor recreation is a key part of our economy?
    So I don't want to lose sight of that, and I hope you would 
enlighten us on what sequestration is doing now, and what will 
it do in the future to lessen really an economic impact that 
will be, is being felt and will continue to be felt? What do 
you think we can do to help get our colleagues to understand 
this issue?
    The second point is, my colleague, Senator Alexander, and I 
have been sponsors of the creation of a new park. It's called 
the B Reactor Park. It's celebrating the achievements of 
scientific excellence that our country achieved, and preserving 
that is something between DOE and the Department in creating 
this. Do I think we should stop creating national parks because 
somebody thinks the maintenance backlog? No. I want to 
commemorate what happened at Hanford and various parts of what 
we've done across the country.
    So I'm certainly not going to--oh, sorry. My colleague from 
New Mexico is here. I certainly am not going to have the 
attitude that we're not going to do any new park until, you 
know, the maintenance backlog is caught up.
    You know, so I guess I'm just one that believes that our 
generation's challenge is to be good stewards. These aren't our 
decisions forever and ever. These are our decisions to be good 
stewards for the next generation. So I would just hope you 
would comment on, one, the continuation of the B Reactor Park, 
and 2, the economic impact that we are seeing from 
sequestration on our national parks, and what else we can do to 
help our colleagues illuminate that it really will impact jobs 
and impact small-town economies across our country.
    Thank you, Mr. Chairman.
    Mr. Jarvis. Thank you, Senator Cantwell.
    So, let's start with sequestration. The 5 percent cut that 
we took in March this fiscal year resulted in $130 million cut 
to the operations and responsibilities of the National Park 
Service halfway through the fiscal year, and just as the summer 
season was beginning in most of our national parks.
    So the net result of that on the ground, we had a hiring 
freeze. We withheld the hiring of 900 permanent positions and 
1,000 seasonals. So there was a direct effect. Every park in 
the system had to take a 5 percent cut. I was not given the 
authority to take that off the top or take it out of LWCF or 
any other account. Every account took a 5 percent hit. As you 
know, every park in the system is lined in the budget.
    So there were direct effects. There were late season 
openings. There were reduced operation hours, fewer rangers, 
fewer rangers to fight fire, fewer rangers for search and 
rescue. I was in the Tetons this week, talked directly to the 
rangers. Their visitation is up. Rescues are up. Numbers of 
seasonals and rangers are down.
    In maintenance, specifically, so I gave you the number of 
$444 million that is currently available in our operating 
budget for maintenance. I didn't mention that that was actually 
reduced to $416 million by sequestration. So all of our 
operating accounts that would be applied to deferred 
maintenance actually were hit at the 5 percent level as well. 
So it was about a $27 million direct hit from sequestration.
    You know, my theory on new units are that, you know, 
history doesn't stop just because you have an economic 
challenge. The National Park Service has been challenged by and 
charged by this body for almost 100 years to take care of not 
only the extraordinary crown jewels, which is the Grand Canyon 
and the Grand Teton and Yosemite, but historical sites that are 
representative of the full American experience.
    That story is incomplete. The B Reactor is the perfect 
example of that, that it tells an incredibly important story 
about this country and its leadership in the development of the 
atomic bomb and its role in ending World War II. It is the same 
thing with Harriet Tubman or the story of Fort Monroe in 
Virginia. Now, what's different about these new sites is, the 
National Park Service goes into them knowing we have 
extraordinary economic challenges. So we look for partners.
    Certainly with the B Reactor, we have the Department of 
Energy. We have the communities and others to work with us. We 
do in and attempt to minimize the direct responsibilities of 
the National Park Service that would add to our maintenance 
backlog, but recognize we also want to be a part of these 
stories that tell the American experience.
    Senator Cantwell. Mr. Chairman, my time has expired. But is 
that annual? Is that annual? I want to just point out, last 
time I visited the Grand Teton, I was so surprised walking down 
the street how little English in heard being spoken. That this 
is, we think of these as our crown jewels. But this is an 
international tourist area that supposedly generates $436 
million benefit to the local economy.
    So these are huge economic resources. So I hope that we 
will track, as a committee, these gateway communities, the 
local economic impact as well, of what sequestration is doing. 
Because I think we have to be very, very smart about getting--
you know, not saying we can't live within our means. But as 
just you pointed out, again, sequestration's impact is across 
the board and is not giving you the flexibility to do something 
that might have less impact on those local communities.
    So I thank the Chairman. I thank Director Jarvis.
    The Chairman. Thank you, Senator Cantwell. You are making a 
number of exceptionally important points. I think we all recall 
when another Washington resident, Sally Jewell, was here at the 
committee. She pointed out that recreation now is a $646 
billion annually boost to the American economy. This is outdoor 
recreation, close to $650 billion a year. This is everything 
from guides to equipment to clothing, the list goes on and on.
    So your points are well taken. One of the reasons that I 
asked about the Oregon Caves is that I think you also touch on 
another very important point that it's not correct to say that 
maintenance and acquisition are always mutually exclusive. That 
in a number of instances, they go hand and hand, and that 
acquisition may, in fact, actually lower some of the 
maintenance costs.
    Senator Cantwell. I don't want to----
    The Chairman. So, as usual, you make a number of important 
points.
    Senator Cantwell. I don't want to delay my colleagues. But 
I think Director Jarvis will remember this one correctly. A 
land acquisition on the Carbon River basically allowed us to 
expand Mount Rainier. But why did we do it? Because it kept 
getting washed out. So the access and entry point kept getting 
washed out. We kept coming to Congress, asking for about 
$230,000 every 4 or 5 years.
    So by doing that land acquisition, we were able to move the 
entry point to a higher level and solve the problem. So I 
certainly agree with your point.
    The Chairman. I would also note, by way of doing a little 
bit of advertising, as well, that Senator Cantwell's bill on 
the B Reactor is right now part of the hotline underway. It is 
Senator Cantwell's bill and Chairman Doc Hastings and Senator 
Alexander and Senator Heinrich. So urge all colleagues on both 
sides of the aisle to clear this very fine piece of 
legislation.
    All right. Senator Alexander, you're next.
    Senator Alexander. Thanks for the plug for the fine piece 
of legislation.
    I'd like to move the discussion from the West to the 
Eastern United States, where we have--and I'd like to get the 
director's comments on the 2 areas that we've been talking 
about. One is the appropriateness of even thinking about the 
Land and Water Conservation Fund in terms of your backlog, 
whether that's appropriate or not.
    But first, I'd like to talk about roads in the parks. Now, 
I've always thought, and this goes back a long time, we don't 
have any business using appropriated dollars to build roads, 
that roads are to be paid for by user fees. So, what you just 
told us that $3.3 billion of your critical backlog is roads, 
right? $4.2 of it is other things.
    What's your annual budget for roads within the parks?
    Mr. Jarvis. We get our roads money from the transportation 
bill
    Senator Alexander. So all your roads money comes through 
the transportation bill?
    Mr. Jarvis. Federal highways, Federal Land Highway Program. 
So the roads inside national parks, most of them, are Federal 
highways. So there is a separate appropriation at about $168 
million a year, map 21 out of the transportation bill, that 
comes to the National Park Service.
    Senator Alexander. So you're not using other appropriated 
dollars to build or maintain roads in the park?
    Mr. Jarvis. That's correct.
    Senator Alexander. You're just using the Federal 
transportation dollars?
    Mr. Jarvis. That's right.
    Senator Alexander. Good. That would be correct. So I guess 
there's not enough, you don't get enough every year through the 
Federal Transportation Fund in order to maintain your roads 
properly? That's what you're telling us?
    Mr. Jarvis. Exactly.
    Senator Alexander. So, take another $3.3 billion, and you 
get $158 million a year?
    Mr. Jarvis. 168.
    Senator Alexander. $168 million a year. So that will take 
about 20 years.
    Mr. Jarvis. We won't catch up at that rate. It's true.
    Senator Alexander. So, how rapidly do you need to catch up? 
You wouldn't do all that in 1 or 2 years. You would do it over, 
if you had the money, you'd do it over a period of time, right?
    Mr. Jarvis. Yes, we would. But we would like to see a 
significant increase to that amount of money coming to us.
    Senator Alexander. Yes. But one way to approach this 
backlog that we talk about is to get rid of the roads part of 
the problem, right? I mean, I know in the Smokies in 2005, that 
was 110 of the $180 million critical deferred maintenance were 
roads.
    Mr. Jarvis. Roads are a critical visitor access asset that 
need to be maintained.
    Senator Alexander. Yes. It would be true in the Great Smoky 
Mountains that a disproportionate number of the visitors to the 
park are North Carolina and Tennessee residents. Is that also 
true in other parks? What I'm getting at, is it appropriate to 
expect the States to help pay for part of these roads through 
their road programs?
    Mr. Jarvis. I really can't speak to whether or not that's a 
State responsibility. I know throughout the country, our 
infrastructure is challenged. The drop of the Skagit River 
bridge was a perfect example of the many eroding bridges and 
roads across our country. I really don't know whether we could 
saddle the States with this additional responsibility.
    I believe, frankly, that the roads inside national parks 
are a Federal responsibility and should be appropriately funded 
through the Federal transportation program.
    Senator Alexander. OK. Now, let me ask you about the 
discussion we had here, you heard some of it, about the Land 
and Water Conservation Fund. As I hear you and as I remember 
the law, the Land and Water Conservation Fund doesn't have much 
of anything to do with maintenance of national parks today. 
Right?
    Mr. Jarvis. That's correct.
    Senator Alexander. So if we were to try to put the two 
together, that would be a new way of thinking for a lot of 
people in the conservation movement and other places, right?
    Mr. Jarvis. It would.
    Senator Alexander. However, it's also true that the 
conservation community for a long time has wanted to find a way 
to have fully funded Land and Water Conservation Fund. If the 
Congress were to decide that a priority for us nationally were 
to fully fund that, and for a shorter period of time use the 
money to catch up on maintenance in national parks, what would 
be your comment on that?
    Mr. Jarvis. If I may, for a moment, the Land and Water 
Conservation Fund is a revenue source. I mean, it's from the 
Outer Continental Shelf, oil leasing. So, and there are many, 
many billions of dollars----
    Senator Alexander. Except it's not really, because it goes 
into the general pot and it's not, it never goes directly into 
the Land and Water Conservation Fund, except for that----
    Mr. Jarvis. That's correct. It has to be reappropriated.
    Senator Alexander. Except for that 1/8 of a cent that 
Senator Domenici got.
    Mr. Jarvis. But the point is, though, and you were one of 
the principals in the early days with the LWCF, but I want to 
make the point, though, it is not a tax on the American people. 
It's a revenue source from the Outer Continental Shelf. Oil 
goes into the Treasury and then needs to be reappropriated.
    I want to also make a pitch here for the Historic 
Preservation Fund, which is another component that comes from 
that same source. The concept behind this was that you were 
taking a public asset, and you wanted to give something back to 
the American people for that. That's the fundamental purpose, 
concept behind the LWCF and HPF.
    Senator Alexander. Right.
    Mr. Jarvis. I think that this would have to be well debated 
if you're going to switch that concept that this funding that 
has been traditionally used for either historic preservation 
funding or land acquisition to suddenly go to maintenance.
    Senator Alexander. Fair point.
    I do think, Mr. Chairman, and Senator Murkowski, that 
there's something there that we can discuss. Senator, I was 
going to say I think there's something there. The Land and 
Water Conservation Fund and national park maintenance have 
never really been in the same caboose. Those are 2 different 
thoughts.
    But I do think it's worth thinking about that we haven't 
had a way to fund the Land and Water Conservation Fund, and 
we've been trying for 40 years. We've got it on the books that 
it's supposed to come out of the oil and gas drilling, but it 
doesn't. It goes right into the general pot, and then we 
appropriate some money.
    So, maybe listening to Senator Coburn's call for a focus on 
deferred maintenance and Senator Udall's and yours that 
traditional support for Land and Water Conservation Fund and 
the upcoming celebration of the park, maybe there's some way to 
do 2 things at once here.
    I would just urge today that we think about it. We keep in 
mind that such a big part of this is road funding. We ought not 
to be breaking out backs to find other appropriated dollars to 
pay to build roads in parks. I mean, that ought to be part of 
the roads system.
    So those are my thoughts about it. I very much thank you 
for having this hearing. It's very helpful.
    The Chairman. Thank you, Senator Alexander. Consistently, 
because of your interest in the parks, we get these issues up 
for debate. That's exactly the point of this morning's 
exercise. I very much appreciate all the time you've spent 
today.
    Senator Heinrich is next.
    Senator Heinrich. Mr. Chairman, I want to thank Senator 
Alexander for kind of making clear what the issues are here and 
understanding the problem and the relevance between the problem 
and what I've heard as some proposed solution. Because I don't 
think a moratorium on the Land and Water Conservation Fund is 
going to do anything to get at the biggest driver of the 
backlog at the National Park Service in terms of maintenance 
when you have 50 percent of that backlog tied up in 
transportation needs.
    We're inadequately funding our transportation needs through 
the appropriate method of basically user fees and the gas tax. 
We're not meeting that need every year, not just in the Park 
Service. We're not meeting that infrastructure need nationwide 
when it comes to our roads and bridges and our interstate 
highways.
    That seems to me to be a very relevant part of this 
conversation. So I certainly don't support a moratorium on the 
Land and Water Conservation Fund. But it does seem to me that 
we need to begin to address this issue of the backlog at our 
national parks in terms of maintenance. I think we need to 
attack that head-on where the biggest drivers of that are.
    I do want to ask Director Jarvis, I think it's very 
important that we're now seeing our visitor fees plowed back 
into Park Service budget itself. That's something that could 
expire, I think, next year. That's a critical way that we can 
address some of the challenges at the Park Service. I think 
it's important that we reauthorize that.
    I want to just ask your general views on how we make sure 
that our parks, which are one of the most affordable recreation 
and vacation opportunities for American families. Most of us 
grew up on our summer vacations going to some of those parks. 
How do we make sure that, in trying to address these 
challenges, we don't price that park experience outside of the 
reach of working families?
    Mr. Jarvis. Thank you for that question, Senator. I agree 
with you 100 percent.
    We currently collect about $170 million in recreation fees, 
that's insurance, campground, and special-use fees, and about 
another $60 to $70 million in concession franchise fees. So 
you're looking at about $250 million annual fees coming into 
the National Park Service.
    Frankly, we have always tried to keep the fees as a 
component of our overarching budget program. But we never 
wanted to get to the point where we were pricing our national 
parks to the point that you are excluding any component of the 
American public. There is an expectation, I want to be clear 
about that, by the American public that their tax dollars are 
the principal source for maintaining the national parks.
    We do have the great advantage from the fee legislation 
that we do retain 100 percent of the fees, and they are your 
fee dollars at work directly back in the parks. We make that 
very, very visible to the American public. The vast majority of 
it goes into maintenance backlog. It pays for everything from 
upgrading water treatment plants to improving trails and 
restrooms and facilities.
    So it is a delicate balance between how much you charge to 
gain entrance to the national parks and making sure the public 
understands that their dollars are coming right back to serve 
them.
    Senator Heinrich. Mr. Chairman, I also want to thank 
Senator Cantwell for bringing up the Manhattan proposed park. I 
think that's something that I've heard consistently over and 
over again from the community of Los Alamos and the surrounding 
communities, how important that is to their history. I think 
that Director Jarvis will find a very willing partner in those 
communities to make sure that we do a good job of stewarding 
that resource and making sure it has, make sure the Park 
Service has the resources they need and the support in the 
community to create that new park unit.
    I want to thank Senator Cantwell, who's left, but, for 
bringing up the issue of just how important these recreation 
jobs are. In New Mexico, it is not inconsequential to have 
68,000 jobs tied directly to outdoor recreation. Certainly, the 
impact of Carlsbad Caverns National Park, the Petroglyph 
National Monument in Albuquerque, places like Bandolier, next 
to Bandolier National Monument next to Los Alamos. These are 
major draws to people from across the country and around the 
world that come to New Mexico and drive our local economy.
    The Chairman. We're very glad you're on the committee, 
Senator Heinrich. One of the areas that we're going to focus on 
is this question of the economic multiplier associated with 
outdoor recreation.
    I talked about the numbers in terms of trying to offer a 
big figure. When you're talking about $646 billion, you tend to 
get people's attention. But when you're out in the rural West, 
in particular, and you see what this means in everything from, 
you know, gas stations to motels to people who sell equipment, 
and guides and the like, it really is extraordinary.
    So we're glad you're on this committee, and to have you 
particularly hammering away at the value of outdoor recreation 
is especially important. We thank you.
    Senator Baldwin.
    Senator Baldwin. Thank you, Mr. Chairman. I'll accept that 
invitation to continue on that same theme for a moment. We talk 
about the economic impact and the impact on jobs of some of the 
larger and premiere parks. I represent a State with 2 national 
park units and a scenic trail. St. Croix National Scenic 
Riverway is a park unit, and the Apostle Islands National 
Lakeshore is a park unit.
    The economic impact of St. Croix National Scenic Riverway 
is estimated to be a little over $4 million, in excess of $12 
million added economic value for the Apostle Islands, where I 
vacation every August if I can.
    The Chairman. You're going to get that vacation in this 
August.
    Senator Baldwin. I have it marked on the calendar when I 
arrive in the Apostle Islands.
    Throughout Wisconsin, we also value the Ice Age Trail. I've 
hiked quite a few of those stretches. I actually want to 
actually focus in on that Ice Age National Scenic Trail. We've 
talked a little bit about how to create incentives for private 
investment to help with our maintenance backlog. But it was 
mostly focused on private investment of dollars. I'd like to 
dig a little deeper into private investment of volunteer hours.
    Let me just tell you a little bit about the experience of 
the Ice Age Trail. My constituents put in about 70,000 hours of 
volunteer work maintaining the Ice Age National Scenic Trail in 
calendar year 2012. It didn't go unnoticed. The Ice Age Trail 
Alliance was the recipient of the Director's Service Award last 
year.
    But in speaking with volunteers and staff on the trail, 
they mentioned that sequestration has really constrained the 
ability of the Trail Alliance to provide even some of the most 
basic tools that one would use, as a volunteer, to maintain and 
expand the trails, axe handles, shovels, work gloves, trail 
markers, basic things like that.
    Now, we know that sequestration was never intended to 
occur; it has. But it seems to me that in this environment, we 
have to think creatively and increase the efficiency of these 
Federal funds. When you can leverage this type of volunteer 
activity, you know, we want to do everything we can to incent 
that and not erect barriers to that.
    How can we leverage our public investments to continue this 
type of incredible volunteer effort and expand it beyond the 
example of the Ice Age Trail in Wisconsin?
    Mr. Jarvis. Thank you for that question, Senator. The 
National Park Service could not do what it does without the 
extraordinary support of our volunteers. The latest numbers I 
have from Fiscal 2011 is, we had 229,000 volunteers in the 
national park system, working with us. They contributed 
6,000,800 work hours. If you calculate that against, you know, 
standard pay rates, that's $145 million contribution to the 
work of the national park system.
    Now, volunteers require supervision. They require care and 
feeding and supply. That comes from the appropriated side of 
our organization, in order to really allow our volunteers to be 
the most effective as they can be. So it's critical that we 
have the base funding for our volunteer program.
    We have volunteer coordinators. In some cases, the 
volunteer coordinators are volunteers. But it's best done when 
the work can be organized by career staff. There are 
maintenance employees that help design the trail work and can 
supervise a crew on the ground, ensure that they are working 
with proper safety equipment. They get orientation. They drink 
their water and take care of themselves and, you know, the 
Band-aids are available for them, all of those things.
    So that, the base funding for our maintenance trail work, 
particularly our long-distance trails like Ice Age, is critical 
to effect the ability of our volunteer work force to go out and 
get this work done.
    Senator Baldwin. I'd just make 2 other quick comments and 
observations about this one. I think it's especially important, 
especially during tough economic times, that we pay close 
attention to these outdoor recreational opportunities that our, 
again, not necessarily just the big crown jewels in the park 
system, but with those that are close by. Families that are 
strapped can't afford the long-distance vacations that they 
might at other times economically. Yet the capacity to go and 
enjoy with family these opportunities locally are crucial.
    Then, the other comment I would make, especially given the 
fact that I've picked on the example of the Ice Age National 
Scenic Trail, is how important continuing with the land 
acquisition is, even in tough times. Because it's a trail 
that's not finished yet. You can't start at one end and, you 
know, yet hike all the way through it. It's in different 
strips.
    We need to complete it and have a commitment to doing so. 
That has to be ongoing before some of those lands are developed 
in other ways and we can't get them back.
    Mr. Jarvis. If I may make a comment?
    The Chairman. Of course.
    Mr. Jarvis. I want to echo the Senator's comment about 
local assets for families and communities. Almost across the 
land, every one of those local assets was somehow enhanced 
through the State side of the Land and Water Conservation Fund. 
We often forget about that, that generally running at about $40 
million or so to $50 million, this is a direct grant program to 
local parks, to State parks, to city parks, to State fish and 
game agencies to provide access, to provide boat docks for boat 
launching, to provide swimming areas and outdoor 
recreationsites.
    It's critical to the overarching American infrastructure of 
parks that provide opportunities. So we should never forget 
about that side of the LWCF.
    The Chairman. All right. Does that complete your question, 
Senator Baldwin? OK. Thank you.
    Just one question on the endowment front, Director Jarvis. 
I think you could see that a number of Senators are very 
interested in this. Dr. Coburn talked about the idea that there 
be a champion for the cause of parks. I think you can see there 
are going to be multiple champions of this kind of cause, and 
they are going to be on both sides of the aisle.
    I've been especially interested in following the work that 
you're doing on endowments. I've talked, as you know, with 
David Rubenstein, who's been working with you on the Washington 
Monument. One of the witnesses on the next panel, David 
MacDonald, from the Friends of Acadia, is also, I believe, 
going to talk a bit about the endowment that they manage and 
coordinate with you all at the Park Service to fund maintenance 
of the historic carriage roads at Acadia National Park.
    My question to you is, as we get into this, what id your 
take on how to generate the most appeal with respect to 
endowments? From the seat of my pants, it makes more sense to 
look perhaps at maintenance projects at individual parks, 
rather than to try to establish a large nationwide endowment. 
But that may well not be the way, you know, to proceed. Do you 
have a judgment on that?
    Mr. Jarvis. Yes, sir, I do. Let me talk about this for a 
moment. You know, the National Park Service is an institution 
with a perpetuity mission, but we live on an annual 
appropriation. If you look at other organizations around this 
country that have a perpetuity mission, whether it's a major 
university or a major museum, Smithsonian, they all have 
endowments. The National Park Service does not. So, I 
identified as one of my centennial goals was to develop an 
endowment for the national park system.
    The Second Century Commission, which Senator Portman 
mentioned and served on, at the close of that group, and that 
was Sandra Day O'Connor, Howard Baker, Bennett Johnston, 
extraordinary individuals, all citizens who volunteered their 
time to think about the second century of the national park 
system, said if there was one thing of all of their 
recommendations that they felt that would make the greatest 
impact over the long term, it was an endowment. That would be 
benefiting this agency and its mission 100 years from now, 
because it would grow.
    So, how do we do that? We have engaged our partners such as 
the Friends of Acadia, but more largely, the National Park 
Foundation, to figure this out. How can we do this? So there 
are 2 components. One was, on Monday of this week, the National 
Park Foundation Board and I interviewed 3 organizations that 
could develop a capital campaign with an endowment component to 
that. So we will, through the foundation, not appropriated 
dollars, the foundation through philanthropic dollars, be 
hiring a company, a firm to provide counseling services for the 
development of a major capital campaign for the centennial for 
2016.
    We are also in the next 2 months, I will be meeting with 
the foundation with 10 corporate sectors to look for large 
corporate sponsorship for the National Park Service, the 
automobile industry, the travel industry, the hotel industry, 
looking for relationships with us for the centennial campaign 
as well, to build public awareness, to build philanthropy.
    I think that the American public, they may only pay 80 
bucks for an annual pass, and they could have 10--20 national 
park experiences, but they want to give back. Right now, we 
have not created that opportunity for them to make a donation 
specifically to an endowment to the national parks.
    Now, I also agree that at the individual park level, an 
endowment can be created as well. I think that there are people 
that love the National Park Service, but they really love 
Yosemite or Acadia. They want to give directly to that. So, as 
we have been developing these public--private relationships and 
potential donations, we are also seeking to include an 
endowment for a specific thing, such as the Carriage Trails or 
one of the major developments at Yosemite through the Yosemite 
Fund. So we're now including that in each of our donation 
agreements as we build this.
    I do believe, though, that it would be enhanced if there 
were some Federal matching component that would--the work we 
have done indicates that there would be more willingness, as we 
did with the Washington Monument, if there's a Federal 
component to this endowment. We would love to work with you to 
figure out how that can be built.
    The Chairman. Thank you very much, Director. As you heard 
earlier in the discussion of the Helium Bill, we're trying to 
start, philosophically, this kind of challenge approach. I 
think that there will always be questions of sort of how you 
get started and, in effect, I guess the technical lingo would 
be sort of funding the corpus.
    But suffice it to say the basic proposition, I think that 
you're advancing in terms of trying to use this challenge 
concept and attracting others makes a lot of sense.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. Tying in with 
the concept of the endowment, recognizing that people do want 
to give back, not only with a direct donation to the parks or 
their own particular park, but also recognizing that some would 
be willing to donate land. You mentioned in your response to 
some of my questions that when you are looking at land 
acquisition, one of the things that is part of the 
prioritization is an issue of hardship, if you have somebody 
dying and they want to provide their land to the parks.
    As we think about land acquisition, perhaps in terms of 
mandating, and I don't know if we want to mandate, but have a 
process where you could certainly provide for land donations. 
But also, for future exchanges, for future land acquisitions, 
to provide for some form of an exchange. So as we are thinking 
about those ideas and how we can reduce costs and yet still 
continue to add to the treasures that we have, I think we need 
to recognize that there are other ways to acquire land rather 
than just the Federal dollars coming from the Treasury. I think 
we need to look to that.
    Director Jarvis, we do have one more panel, and I know that 
the Chairman has a hard stop here in about a half an hour. I 
wanted to ask you about the situation in Gustavus with the 
expiring concession contract there with Aramark. We've been 
working to try to find a resolve to this. Their contract runs 
out at the end of this year. The prospectus that you put out 
didn't attract anybody. We're hoping to find some kind of 
temporary extension. In the meantime, the people of Gustavus 
are notably anxious and stressed. If the concession doesn't 
move forward, you really do have a situation where the town's 
economy is threatened. It kind of speaks a little bit to what 
Senator Cantwell mentioned with her smaller communities.
    But I'd like to talk to you about where we are with this. I 
don't know. I think we need to look at whether or not this 
might be a situation where facilities need to be sold by the 
Park Service. If you can't make it work through these 
concession contracts, if we're not getting anybody that is 
interested, it does make you wonder whether or not the best 
option here might be to sell the lodge there in Glacier Bay 
National Park to a private entity.
    We see that up in Denali with the private lodges, up there 
in Kantishna. In terms of visitor experience and based on the 
quality of the facility, I think there is clear and marked 
difference there.
    So I would like to talk to you about that. I would also 
like the opportunity to discuss in more detail with you a 
situation that has recently arisen. Mr. Chairman, this is a 
little bit outside the scope of today's hearing. But it is a 
critically important issue to us in my State.
    As you know, I sent a letter to you dated July 12th about 
the Park Service's new policy requiring that seafood that is 
sold by its vendors and concessionaires have to be certified by 
this non-governmental third party. They have to be certified as 
sustainable. Everything that I can tell is that this policy was 
developed without consultation, with NOAA, which is the Federal 
agency that is tasked with the responsibility of managing our 
nation's fisheries sustainably. The NGO's that you're relying 
on here, in my view, have a troubling record of meddling with 
at least Alaska fishermen's fisheries management. We've got 
some real concerns about this.
    So I read yesterday, I thought it was pretty good news, 
that this was in a seafood online site. I read that the Park 
Service is going to be pulling back on this and meeting with 
NOAA. So then when we called your offices to confirm whether or 
not this was true, we're told that, no, not necessarily, in 
fact, that they may be an inaccurate statement that the 
National Park Service spokesman made yesterday. So I'm trying 
to figure out what's really going on here. But you need to 
understand that the implications for not only the State of 
Alaska, that has a very strong, well-managed sustainable 
fisheries, is really quite concerned about the implications of 
this policy.
    It is something that I have asked to speak with you 
directly on. We can save ourselves both from that conversation 
is you just give me the assurance that you've pulled back and 
the Park Service is not going to go down this road. So if you 
care to comment on that, I would certainly appreciate it.
    Mr. Jarvis. don't know how much time you want to take in 
this hearing. But I'd be glad to come by your office and talk 
in detail about this.
    I'm not pulling our national healthy food sustainability 
standards over this issue, because this is implying and was 
developed over a year-long consultation process.
    Senator Murkowski. With who?
    Mr. Jarvis. With the concessionaires, with every one of the 
concessionaires, the food service providers----
    Senator Murkowski. Was NOAA involved with this?
    Mr. Jarvis. I do not know whether NOAA was involved. But 
let me just clarify.
    Senator Murkowski. NOAA is the agency that makes the 
determination in terms of what's sustainable within the 
contract from--
    Mr. Jarvis. These are guidelines.
    Senator Murkowski. I understand that.
    Mr. Jarvis. That's not a policy. That's not a law. It's not 
a regulation. It's a guideline. It's a recommendation to our 
concessionaires that they use sustainable. Now----
    Senator Murkowski. But you're saying that they need to have 
a certain label that is applied by some NGO's from based out of 
London that says that this--this is the label that you have to 
have on your fish. If you don't have this, then, 
concessionaires, you shouldn't be using it.
    Mr. Jarvis. It's a guideline.
    Senator Murkowski. What kind of a message do you think that 
that sends?
    Mr. Jarvis. We drew from the industry standards for 
guidelines for sustainable foods.
    Senator Murkowski. What industry standards?
    Mr. Jarvis. As I said, I'd be glad to come by to your 
office and get into this.
    Senator Murkowski. OK. We need to have a further discussion 
about this, because you're giving me the very clear impression 
that, in fact, your spokesman--
    Mr. Jarvis. He was incorrect.
    Senator Murkowski. Kathy Cupper, spokesperson for the 
National Park Service, was incorrect?
    Mr. Jarvis. That's correct.
    Senator Murkowski. That you're not pulling back on this?
    Mr. Jarvis. What I am willing to do is to change the 
guideline so it includes Alaska wild-caught fish. I think 
that's the simple fix here.
    The guidelines were drawn broadly to give some guidance to 
our concessionaires to--we want a park visit to be a healthy 
experience. The food was the key component.
    Senator Murkowski. I agree. I don't have a problem with 
that.
    Mr. Jarvis. You have extraordinary food in Alaska. I mean, 
I lived up there; I know.
    Senator Murkowski. Yes. Yes.
    Mr. Jarvis.I lived on the Copper River.Senator Murkowski: 
Yes. We want that Copper River seafood sold in your parks.
    Mr. Jarvis. So I want that Copper River salmon in those 
concessions. So this is a simple change to the guideline. It's 
not a withdrawal of our guideline, to include this.
    Senator Murkowski. I think we need to have further 
discussion about this, because what I'm concerned about is that 
the Park Service and HHS doesn't understand that when you go 
with one certification, again a certification by an NGO that is 
an internationally based entity coming in and saying that this 
is the label that you have to have, what that does to the 
Alaska fisheries, as you well know, is limits their ability to 
market the healthiest, best and--oh, by the way--most 
sustainable fishery that is out there.
    Mr. Jarvis. Agreed.
    Senator Murkowski. So, we need to make sure that we're not 
cross purposes on this, because it's too important to my State 
and, quite honestly, when we're talking about healthy 
sustainable fisheries, I will take second fiddle to nobody on 
this issue. So I want to make sure that we're not locking 
ourselves in to a standard here that is simply not the right 
standard.
    Mr. Jarvis. Right.
    Senator Murkowski. So if we can set aside some time, 
hopefully before we go on break next recess, in August, I would 
appreciate it.
    Mr. Jarvis. You had a second question. That was Gustavus?
    Senator Murkowski. Gustavus, yes. We'll visit it at that, 
too.
    Mr. Jarvis. All right.
    Senator Murkowski. I thank you.
    The Chairman. Very good. Director, you've been very 
patient, as always. Again, thank you for your past cooperation. 
I think you could see there are a lot of Senators; this doesn't 
often happen on a busy day when everybody is looking toward the 
wrap-up for the summer work period. I think it shows the level 
of interest among colleagues, and also the bipartisanship. So 
we thank you.
    Mr. Jarvis. Thank you.
    The Chairman. All right. Our next panel, Mr. Gerard Gabrys, 
President and Chief Executive Officer, Guest Services, Inc., 
Fairfax, Virginia; Mr. David MacDonald, President, Friends of 
Acadia, Bar Harbor, Maine; Mr. Craig D. Obey, Vice President of 
Government Affairs for the National Park Conservation Service; 
and Mr. Dan Puskar, Executive Director of the Association of 
Partners for Public Lands in Wheaton, Maryland.
    Thank you all very much. As you could tell, there's been 
really an extraordinary level of interest among Senators. So we 
are very much behind at this point. We'd like to get some 
questions in.
    We will make your prepared remarks a part of the hearing 
record in their entirety. I know that there is a near 
biological compulsion to just read every single word on the 
piece of paper. If you all can somehow resist all that and just 
speak to us for about 5 minutes or so, that would be great, and 
we will have some questions.
    So let's begin with you, Mr. Gabrys.

  STATEMENT OF GERARD GABRYS, CHIEF EXECUTIVE OFFICER, GUEST 
   SERVICES INC., THE NATIONAL PARK HOSPITALITY ASSOCIATION, 
                          FAIRFAX, VA

    Mr. Gabrys. Mr. Chairman and committee members, I'm Gerry 
Gabrys. I'm here on behalf of the National Park Hospitality 
Association, whose members collectively have about 25,000 
employees throughout National Park Service facilities, and who 
make franchise fee payments to the National Park Service of 
about $100 million annually.
    I'm also Chief Executive Officer of Guest Services, 
Incorporated, who operates a variety of hospitality businesses 
around the country, including beautiful Mount Rainier National 
Park and the national parks of the National Capital Region here 
in Washington, DC.
    We've been in business for about 100 years, and we're proud 
to have been partners with the National Park Service for about 
50 of those years. We applaud the action of this committee. Mr. 
Chairman, you indicated that it's been a long time since 
there's been a debate about this subject. We want to pledge our 
support in any way that we can help.
    As you indicated, there's a lot of information in my 
written report that I won't talk about here regarding the 
deferred maintenance backlog, the importance and benefits of 
increasing visitation to our national parks, and the marketing 
and outreach efforts that NPHA has joined in in connection with 
the 2016 National Park Service Centennial.
    The message I do want to emphasize today, though, is 
concessionaires can play a significantly increased role in 
addressing this search for supplemental funding that the 
National Park Service is engaged in. The amount that 
concessionaires invest in facilities and pay in franchise fees 
could be significantly increased. We could do a few things to 
accomplish that. We need to increase the length of contract 
terms. We need to look at expanding services available to our 
visitors. We need to look at expanding the hours of operation 
in facilities, where appropriate.
    Longer contract terms give concessionaires the ability to 
have an opportunity to recover their investment and to make 
more payments toward decreasing that big backlog of deferred 
maintenance that we've heard about. It wasn't long ago that 
national park contracts were typically 25 or 30 years in 
length. Forest Service contracts with concessionaires normally 
run 40-plus years. Yet the most recent contracts issued by the 
National Park Service are only about 15 years.
    In addition to helping increase investment and franchise 
fees, extending the length of contracts would help reduce the 
millions of dollars spent annually by both concessionaires in 
the National Park Service in preparing bids, reviewing bids, 
and going through that whole process. We just went through that 
with Mount Rainier. We spent over a half-a-million dollars 
preparing a bid. I'm sure all the other 4 or 5 or 6 
concessionaires spent a similar amount. Park Service spent a 
significant amount. We could really devote that money toward 
this backlog.
    We also need to recognize that times are changing, and we 
have to do everything we can to get visitors into our parks. We 
need to look at providing wi-fi and cell phone service in 
developed park areas, to provide ample parking, even if there 
needs to be a payment for it, as was suggested earlier. We need 
additional campgrounds and a wide array of recreational 
activities.
    Increasing activities, as opposed to decreasing them, as 
proposed in the Merced River Plan, would significantly go a 
long way in terms of extending the amount that concessionaires 
could pay in investment and franchise fees, as would extending 
the hours, where appropriate. Places that come to mind are the 
Statue of Liberty and Alcatraz.
    We can also look at ways that concessionaires can help the 
National Park Service pay some of their expenses. We could help 
with taking over some of the responsibilities for collection of 
entrance fees and maybe providing some of the interpretive 
services. Certainly, improvements could be made in the current 
guest donation program. I agree with your comments earlier, 
Senator Murkowski, about it's so important to recognize 
contributions from people. People want to support this program. 
But we need to recognize their efforts.
    In my written report, there's a lot of detailed information 
on all of these topics. So I would say, although we're faced 
with a daunting task, we have a great opportunity. We have a 
tremendous leader of the National Park Service in Jon Jarvis, 
and he and his team should be commended for looking at ways to 
explore new financial models.
    I've been around the Park Service and concession industry 
for a long time, and I can tell you that the spirit of 
cooperation and partnership is at the highest level it has ever 
been in recent times. Concessionaires do what they do at 
national parks because of our love of parks, and we want to 
help protect parks for this generation and all future 
generations.
    We always look to support adopting healthy food standards 
and strict sustainability standards, an example of which is the 
2 facilities built by Guest Services on the Mall, which include 
geothermal heating and cooling systems.
    In closing, I'd simply say, as you look for ways to solve 
this problem, don't overlook the concessionaires. We want to 
stand there shoulder to shoulder with the Park Service and 
other friends groups in helping us solve this deferred 
maintenance backlog. Thank you very much.
    [The prepared statement of Mr. Gabrys follows:]

  Prepared Statement of Gerard Gabrys, Chief Executive Officer, Guest 
 Services Inc., The National Park Hospitality Association, Fairfax, VA
    Mr. Chairman and Members, I am Gerry Gabrys and I appear today on 
behalf of the National Park Hospitality Association (NPHA). NPHA is the 
national trade association of businesses that provide lodging, food 
services, gifts and souvenirs, equipment rentals, transportation and 
other visitor services in national parks. I serve on the NPHA Board of 
Directors and its Executive Committee. NPHA members deliver great park 
experiences to tens of millions annually. Our staffs drive the jammer 
buses on the Going to the Sun Highway in Glacier-and add stories about 
the construction of that amazing road. They bake the famed popovers at 
Jordan Pond House in Acadia. They operate the High Sierra Camps in 
Yosemite and Phantom Ranch at the bottom of the Grand Canyon. And our 
waiters and waitresses always find time to help families take treasured 
pictures while dining at the edge of the Grand Canyon or on the banks 
of the Potomac River. The first Director of the National Park Service, 
Stephen T. Mather, was a strong proponent of our industry, explaining, 
``Scenery is a hollow enjoyment to the tourist who sets out in the 
morning after an indigestible breakfast and a fitful night's sleep on 
an impossible bed.''
    I am also the CEO of Guest Services Inc., which operates a variety 
of hospitality businesses across the nation, including food, retail and 
recreation services in the National Park Service's National Capital 
Region, and food and lodging in Mount Rainier National Park and at the 
North Cascades Lodge at Stehekin.
    NPHA applauds the action of this Committee to consider ways to 
provide adequate funding for park protection and visitor programs of 
the National Park Service. Our national parks are a wonderful shared 
legacy. They should provide outstanding memories and experiences for 
all Americans long into the future, as they have for many of us, but 
today's federal budgetary travails make new financial strategies 
essential to achieving that goal.
    Concessioners have played a key role in making park visits 
memorable since the 1870's. We now serve some 100 million park visitors 
annually in approximately 160 park units. NPHA members have a combined 
workforce of nearly 25,000 persons-mostly front-line, visitor contact 
jobs, and provide in excess of $1 billion in goods and services to 
visitors annually. Franchise payments from concessioners to NPS now 
approach $100 million annually; that is about equal to the funds raised 
annually by the National Park Foundation and all members of the Friends 
Alliance combined. In addition, annual concessioner marketing and 
promotion efforts total more than $10 million, and are coordinated with 
the marketing and promotion efforts of state and park gateway 
communities that equal that amount.
    Concessioners are committed to meeting America's needs - needs for 
healthier lifestyles, for better and lifelong educational 
opportunities, for strong local and regional economies that can sustain 
and protect our parks and for connecting all Americans across 
differences in regions, ages, income and ethnicity.
    Unfortunately, the portion of Americans visiting national parks has 
been declining for several decades. Even as the US population has grown 
by 30% since the late 1980's, and the number of park units has grown to 
401, the number of park visitors has declined-a decline actually masked 
in part by increases in international visitors.
    Especially disconcerting is a decline in visits by younger 
Americans who are choosing video screens over time enjoying active 
outdoor fun in America's treasured landscapes. A recent study by the 
Kaiser Family Foundation indicated that, on average, America's youth 
now spend 7.5 hours each day watching a screen or monitor. No wonder 
the nation's youth are increasingly obese and at risk of Type II 
diabetes due to poor nutrition and a lack of exercise!
    Connecting all Americans to their parks is an important goal with 
numerous benefits - including improved health, more widespread public 
appreciation for the environment, economic stability for many gateway 
communities and a better understanding of our nation's history. To 
achieve this connection, the National Park Service and its partners-
including concessioner-need to undertake new outreach and marketing 
efforts.
    Recently, NPHA joined with other leading park community 
organizations to host the first-ever America's Summit on National 
Parks-a remarkable gathering of conservation, recreation, tourism, 
health, education and historic preservation interests. We then joined 
in a survey of Americans to better understand sentiments of the public 
toward parks-and found remarkable consistency in support for our parks 
across political, geographic, demographic and age groupings-and an 
equally remarkable willingness to make personal commitments to support 
our parks. Information on our findings is attached to my testimony.
    We have continued to work with organizations to address long-term 
needs of our national parks, including co-sponsorship of a very 
important gathering in March of this year hosted by the Bipartisan 
Policy Center and featuring prominent national leaders associated with 
both political parties. Most importantly, we led the development of a 
collection of white papers, compiled into a document entitled 
Sustainable Supplementary Funding for America's National Parks, for 
that meeting. The white papers covered these topics:

Enhancing Park Experiences Through Fees
Penny for Parks and the Great Outdoors
Park Legacy Partnership Fund: A Public Private Partnership
Expanded Visitor Services Through Concessioners
National Park Endowment
Expanding Use of Historic Tax Credits
Expansion of Guest Donation Efforts
Expanded Cooperation with Destination Marketing Organizations
Conservation Service Corps
Non-Appropriated Fund Instrumentalities
Park Zone Taxes
Energy Savings and Utilities
Bonds, Revolving Loans and More
Increases in Volunteerism
Commemorative Coins/Stamps
Special Fundraising Events

    A copy of our paper is submitted as an attachment* to this 
testimony.
---------------------------------------------------------------------------
    * All attachments have been retained in committee files.
---------------------------------------------------------------------------
    This Committee has already begun action on one of the topics 
addressed at that session by identifying a possible source of matching 
funds for what we labeled the Park Legacy Partnership Fund and we 
express our appreciation for this.
    We must address the long list of restoration and maintenance needs 
affecting virtually every NPS unit and totaling an estimated $11 
billion-a problem that has persisted for years and is growing. The 
agency centennial in 2016 should be a catalyst for action.
    NPHA wishes to commend Director Jon Jarvis and other NPS leaders 
for encouraging and exploring new financial models for the National 
Park Service. In addition to participating actively in the Summit and 
the Bipartisan Policy Center program in March, the Director has 
assembled an internal team to review our ideas and others. The Director 
has also clearly indicated that developed portions of national parks 
can and should allow visitors to utilize cell phones and to connect to 
the Internet - services which concessioners anticipate providing in 
ways that will generate revenues to cover all costs and produce 
additional franchise fees paid to the NPS. The agency has also 
established a working group to look at possible additional visitor 
services to be provided in parks, and to overcome some barriers to 
introducing appropriate new services.
    We support action on many of the topics raised, but I would like to 
address one of the papers from the Bipartisan Policy Center's March 
session of special relevance to the concessions community: Expanded 
Visitor Services Through Concessioners.
    The visitor services we provide in national parks are often 
inhibited by NPS policies which limit visitor experiences and reduce 
our payments, called franchise fees, to the agency. The buildings we 
operate, including lodges, are federally-owned-even though most were 
originally built with private capital. They are historic in almost 
every case, and expensive to maintain and operate. They constitute a 
significant portion of the backlog of deferred maintenance reported by 
the National Park Service-in excess of a billion dollars. For example, 
the Ahwahnee Hotel in Yosemite needs some $60 million in investment 
immediately according to the agency. Private capital can be attracted 
to reduce the need for federal appropriations-but doing so would 
require adequate contract terms and use of the Leasehold Surrender 
Interest provisions of the 1998 park concessions act. Until very 
recently, NPS declined to utilize the 20-year contract terms authorized 
by that statute.
    By contrast, 60% of our nation's downhill skiing activity is 
provided at largely world-class facilities under agreements between 
business partners and the Forest Service that extend 40 years or more. 
All investments are made by the private sector. Similar-length terms 
for park concessions contracts would produce the needed investment in 
our lodges and other structures and open the door to another tool: 
historic investment tax credits.
    We would also note the leading role this Committee played in 
passage of legislation urging the Forest Service to facilitate the 
addition of non-winter recreational opportunities at ski areas - and 
urge consideration of similar encouragement for expanding appropriate 
in-park services. Parks should not add activities that are 
inappropriate or unrelated to parks. We do urge expansion of bike and 
kayak rentals and tours, of guided wildlife photo trips, of rentable 
tents and cabins in park campgrounds. These services would make park 
visits more memorable and enjoyable - and help fund park operations. 
And we certainly feel it is vital to not eliminate current, valued 
visitor services, as a recent draft plan for Yosemite operations in the 
Merced River corridor suggested. Our comments on that plan are 
attached.
    We are confident that increases in visitor services, including 
lengthening operating hours at units like Alcatraz and Statue of 
Liberty, adding appropriate services and allowing dynamic pricing of 
services, could increase franchise fees to the NPS by 50% within three 
years.
    Let me share an example of the opportunities which exist to benefit 
both visitors and NPS. Dry Tortugas National Park in Florida adopted a 
General Management Plan (GMP) in 2001 that establishes a daily 
visitation cap of 330 persons. The park is in mid-ocean, 90 miles from 
Key West, and visitors can only arrive in one of three ways: by the 
high-speed ferry operated by the park concessioner; by seaplane; or by 
private vessel. The General Management Plan (GMP) specifies limits for 
each mode, including 150 via the high speed ferry. For a variety of 
reasons, visitor arrivals via seaplanes and private vessels are 
dramatically under quota and the park now hosts far fewer than the 
authorized 330 guests per day. Yet the concessioner must turn away 50 
or more potential ferry passengers per day, despite having a vessel 
rated by the Coast Guard to safely transport 250. Thousands of 
potential visitors lose the chance to see this marvelous park, and the 
park is losing revenues in entrance fees and franchise fees roughly 
equal to the funding drop due to sequestration this year.
    Conversion of certain NPS functions to concessioner operations, 
including entrance fee collection in some parks, could further reduce 
NPS expenses. More campground operations by concessioners can add new, 
net revenue of more than $50 million annually, again also within three 
years.
    There has been a significant drop in overnight stays in national 
park campgrounds, and especially in RV-associated stays which have 
declined from more than 4 million overnights in the 1980s to about 2 
million overnights currently. RV ownership during this period has grown 
dramatically, now reaching 8.5% of all US households and 11% of the 
households headed by 35-50 year-olds, prime years for families with 
children. Private sector campground use has grown appreciably during 
this period-and private campgrounds have adapted to today's campers. 
NPS campgrounds need to be upgraded to include sites with utility hook-
ups, WiFi, dumpstations and other features that will better serve 21st 
Century campground users.
    There are other important opportunities for concessioner support of 
national parks. We now invite guests staying in national park lodges to 
contribute a dollar per night under the Guest Donation Program. This 
program will generate approximately $1 million in donations in 2013 at 
approximately 12 park units. It can be rapidly restructured and 
expanded with a goal of collecting at least $10 million annually by 
2016, sustained indefinitely, while at the same time better connecting 
visitors to the national parks, the National Park Foundation and local 
friends and advocacy organizations.
    In order for the Guest Donation Program to flourish, however, 
concessioners need more information about the benefits from the 
donations to pass on to visitors. Guests are required to be offered the 
chance to ``opt out'' of the contribution, and with little information 
to pass on to guests by concessioner employees about how their visits 
were aided by prior contributions or how their donations will be used, 
the incentive for donations drops and ``opting out'' increases. The 
status of concessioners as ``prohibited sources'' for direct project 
support under Director's Order 21 has an adverse impact on 
concessioners, since they cannot directly aid park projects receiving 
guest contributions. Once a visitor has made a contribution under the 
program, they should be thanked and invited to connect with parks in a 
more robust fashion as a volunteer, advocate and philanthropist. Yet 
NPS concerns about privacy have limited these efforts. And proposals to 
solicit a national sponsor offering to match guest contributions have 
run into concerns over conflicts with provisions of Director's Order 
21.
    Concessioners are committed to the long-term future of our national 
parks and are excited by the focus on this future created by the 
upcoming centennial of the National Park Service in 2016. In addition 
to feeling a deep connection to the parks in which we operate, without 
parks, we are out of business. We are proud to develop and implement 
state-of-the-art environmental practices that reduce energy and water 
use and generation of waste and support sustainable agriculture. We are 
delighted to partner with NPS on Healthy Parks and Healthy People, 
including providing and promoting good food choices. We assume risks 
that many in the hospitality industry feel are too large-from fires to 
government shutdowns to falling rocks and more-because we see our work 
not just as a business but as a commitment to what some call our 
Nation's best idea. We feel the challenges facing the national parks 
and the National Park Service are great, but solvable through 
partnership efforts of NPS, the National Park Foundation, friends and 
cooperating organizations and concessioners.
    We thank you for the attention you are giving to this important 
issue and pledge our active engagement and support.

    The Chairman. First rule in the Senate. Never pass up 
people who want to stand shoulder to shoulder with you.
    [Laughter.]
    The Chairman. Mr. Obey, welcome.

     STATEMENT OF CRAIG D. OBEY, SENIOR VICE PRESIDENT FOR 
  GOVERNMENT AFFAIRS, NATIONAL PARKS CONSERVATION ASSOCIATION

    Mr. Obey. Thank you, Chairman Wyden, Senator Murkowski. I'm 
Craig Obey. I'm Senior Vice President for Government Affairs 
with the National Parks Conservation Association.
    [Pause.]
    Mr. Obey. It's a privilege to be here today. We're just 
thrilled that you're holding this hearing on this important 
topic. I also want to acknowledge the leadership of Director 
Jarvis and thank Senator Coburn for his interest in these 
issues. I think it's going to take all of us working to really 
solve what is a problem that we didn't get into overnight.
    The NPCA has been around since 1919. We are the leading 
independent private-citizen voice for protecting our national 
parks.
    I just want to say a few things. You have my written 
remarks for the record. First, we know that the national parks 
are tremendous economic assets; that's been discussed here 
today. For every dollar invested in them, they return 10. 
That's, on average sum, vastly more than that. 240,000 private-
sector jobs every year. We are not taking care of the 
investment we have in our national parks.
    I do want to thank you for your leadership on the Helium 
Stewardship Act. That's an important step, obviously a small 
one. But we're going to need to take many different kinds of 
steps here to deal with this issue. So, thank you for that.
    It's clear that appropriated funding isn't doing the job. 
That's why NCPA partnered with the National Park Hospitality 
Association and the Bipartisan Policy Center to explore a 
series of potential ideas for how to address the park funding 
challenges for the Park Service.
    That was not about finding any silver bullet solution. It 
was about getting the conversation started, looking for 
creative ways to fix this issue. It's something that has been 
talked about for many, many years, GAO reports going back to 
the 1990s. But nothing has ever really been done. So, we're 
grateful for the attention here.
    Just a few things I will highlight. Senator Portman 
referenced the centennial challenge effort by the Bush 
administration. That was something that NPCA strongly 
supported. We thought that the partnership idea was absolutely 
right on, and coupled with a commitment to dealing with the 
core operating needs of the Park System. The 3 legs to the 
stool that the Senator referenced were, No. 1, restoring park 
operations funding, which is even more critical in the 
aftermath of the sequester; 2, the commitment of $100 million 
per year that was anticipated, and then to be matched.
    We have developed a proposal based on the lessons learned 
from that endeavor. There were some appropriated funds that 
essentially served as a pilot project, in a sense, and taught 
us a lot about what might work and what won't. That's something 
that we think holds some promise.
    I would say that what we're suggesting, there's been a lot 
of talk about the Land and Water Conservation Fund here this 
morning. The fact is there are many receipts from OCS and on-
shore that are not assigned, if you will. We also talked about 
the fact that, the committee talked about the fact that there 
is--the money for the Land and Water Conservation Fund has not 
been appropriated. In fact, there's $18 billion on paper in a 
Treasury account that's never been appropriated.
    So we think we should look to those kinds of sources to 
augment the funds for the parks.
    You've talked about the Federal Lands Recreation 
Enhancement Act, the fee authority which we desperately need to 
reauthorize or we're looking at a second sequester, in effect, 
for the parks.
    Then there is the transportation bill. As Senator Alexander 
rightly observed, there's a user fee related to that that 
people pay into nationally. Parks are a Federal responsibility. 
They don't have independent taxing authority like the States. 
So it's solely the responsibility of the Federal Government to 
be funding those. Right now, it's $240 million per year total. 
Not all that goes for roads; some goes for transit and the 
like.
    But the Park Service says they need $500 million per year 
to deal with the problem and get the roads to where they need 
to be in order to keep maintaining them as they should.
    So those are a few items that we're focused on, as well as 
the endowment idea that the commission talked about that you 
spoke about with Senator Coburn.
    Finally, I just want to reiterate what you already know, 
which is the tremendous support that the national parks have 
across the country. These are some of the most amazing places, 
tremendous natural cathedrals, tremendously important 
historical sites that we preserve as a nation. What we preserve 
tells a lot about who we are as a nation.
    So we thank you for your attention on this. We're 
confident, based on the polling that we've done with people 
like Geoff Garin and Whit Ayers and others that the American 
people will strongly support thoughtful action by this 
committee and by this Congress to address these issues. So 
thank you very much for the opportunity today and for focusing 
on this issue, and I look forward to any questions if there is 
time.
    [The prepared statement of Mr. Obey follows:]

    Prepared Statement of Craig D. Obey, Senior Vice President for 
      Government Affairs, National Parks Conservation Association
    Chairman Wyden, Ranking Member Murkowski and members of the 
committee, I am Craig Obey, Senior Vice President for Government 
Affairs for the National Parks Conservation Association (NPCA). On 
behalf of our approximately 800,000 members and supporters across the 
country, I thank you for inviting me to testify today at this important 
hearing. Founded in 1919, NPCA is the leading, independent, private 
citizen voice in support of promoting, protecting and enhancing 
America's national parks for present and future generations.
    We appreciate your attention to the fiscal needs of our national 
parks, including your focus on the National Park Service's deferred 
maintenance backlog, which is now $11.5 billion and growing; half of 
this is roads and bridges. Approximately $4.5 billion of that is needed 
to address systems the National Park Service defines as critical in 
both the roads and facilities categories. These are projects critical 
to health and safety and to essential resource protection. Examples are 
roof repair, replacing pavement to improve safety, and bridge repair. 
The Park Service has indicated that the gap between what it receives 
and needs in order to keep the backlog from growing is between $250 
million and $350 million. Actually reducing the backlog would require 
even more.
    There is a parallel and related operations problem, with the 
National Park Service receiving an estimated $600 million less than it 
needs to most effectively operate the parks every year. As the parks 
are bled of essential operating funds, they are less able to serve the 
public and provide the cyclic maintenance and other basic protection 
necessary to maintain park resources.
    Years of underinvestment in maintaining and replacing important 
assets, which continues today, have compounded a situation that is 
unsustainable. As the Centennial of the National Park Service and 
System approaches in 2016, now is the time to reinvest in our national 
parks, through both traditional and creative new approaches.
    We were pleased in March of this year to partner with the National 
Park Hospitality Association (NPHA) and the Bipartisan Policy Center to 
explore 16 concepts that could provide additional non-appropriated 
funding to support the park service. These concepts, which represent 
the ideas of white paper authors and not necessarily the institutional 
positions of the sponsoring organizations, have been provided for the 
record. They are attempts to foster creative dialog about ways to 
create a multi-faceted approach to addressing the parks' fiscal woes.
    NPCA is particularly interested in those options that have the 
potential to provide significant additional resources for our national 
parks, especially those that leverage expenditures of federal dollars 
in order to maximize the potential for partnerships with non-federal 
sources of funds. The examples I explore in my testimony include a Park 
Legacy Partnership that matches private and public dollars, providing a 
``Penny for Parks'' from any enhanced investment in the nation's 
transportation infrastructure, establishing a national parks endowment, 
enhancing the use of volunteer service and stipend-supported community 
service work in the parks, and reauthorizing and improving entrance and 
recreational fee authorities.
Our National Investment in National Parks
    It is worth taking a moment to consider why the subject of today's 
hearing is so important. Starting with Yellowstone and then, nearly 100 
years ago with the creation of the National Park Service, our nation 
has invested in a National Park System that is beloved here at home and 
the envy of many throughout the world. Our National Park System 
encompasses magnificent natural cathedrals like Denali, Zion and Crater 
Lake; hallowed ground like Gettysburg and Fort Sumter; tremendous 
scientific accomplishments by innovators like Thomas Edison; triumphs, 
tragedies and moral challenges we have faced as a nation, from Fort 
Monroe to Minidoka to the Trail of Tears; and tremendous urban 
recreational assets across the nation, from Gateway to Cuyahoga Valley 
to Golden Gate.
    These are all places judged, with almost universal public support, 
to be nationally significant and important to protect for our children 
and grandchildren-as well as ourselves. Collectively, after a century 
of investment, our parks have become economic assets and job producers 
for local communities, many of them in rural locations, and for our 
national recreation and tourism economies. For example, in 2011, 
visitors spent over $50.2 million in the towns of Grand Junction and 
Montrose surrounding Black Canyon of the Gunnison National Park and 
Curecanti National Recreation Area in Colorado, which support almost 
700 area jobs. These places are educational assets, provide extensive 
opportunities for outdoor recreation, contribute to public health, and 
support basic community infrastructure. Our national parks are 
investments worth preserving.
    Yet, for decades now, successive congresses and administrations 
have put park resources at risk through underinvestment. Any homeowner 
knows that failing to maintain the roof or replace it in a timely 
manner has a cumulative effect, putting the entire structure in 
jeopardy. When needed investments are not made in roads or bridges, 
they deteriorate or collapse. Our national parks, representing a 
century of commitment and investment by this nation, are no different. 
Whether the subject is funding to maintain trails or visitor centers, 
to replace sewage treatment plants, or to maintain or replace roads or 
bridges, the problem is compounded with every year of insufficient 
investment.
    Although our current level of national investments is not 
sufficient, the national investments we have made in our parks over a 
century are significant, and have come in times of war and peace as 
well as economic prosperity and challenge. The achievements and 
investments during the Great Depression through the Civilian 
Conservation Corps are well known: millions of trees planted, roads, 
bridges, trails and other facilities constructed; hundreds of national 
and state parks created; and a legacy left that continues to benefit 
millions of visitors and hundreds of communities. More than 50 years 
ago, the Eisenhower administration launched Mission 66, its commitment 
of $1 billion in preparation for the 50th anniversary of the National 
Park System, as part of a vision influenced by the development of the 
interstate highway system. The $1 billion initiative that President 
Eisenhower launched and Presidents Kennedy and Johnson continued is 
worth more than $7 billion in today's dollars.
    Those cumulative investments have produced assets with enormous 
value-both psychic and economic. Collectively, our National Park System 
comprises assets worth nearly $200 billion. That figure shows the 
enormous financial investment that we have made over the years, which 
we should be protecting. The Blue Ridge Parkway alone has a total asset 
value estimated at more than $5 billion. When basic preventive 
maintenance is not conducted, that asset and local economies are put at 
risk. The park's backlog exceeds $400 million, about 75% of which is 
road-related. The staff available for maintenance activities has been 
reduced to 40 from 80. The lack of sufficient maintenance staff makes 
it increasingly difficult for the parkway to maintain the drainages, 
road shoulders, and other structures necessary to prevent landslides 
from occurring and keep the parkway and its trails in good repair. 
Recently, a landslide occurred north of Asheville, North Carolina that 
likely will close that portion of the parkway for months, at 
significant cost to nearby communities, and with a repair cost that is 
likely to amount to millions of dollars.
    And, of course, despite their economic benefits, we preserve our 
national parks because they have value far beyond economics. Polling 
NPCA and NPHA jointly commissioned with Hart Research Associates and 
Northstar Opinion Research indicates that public attitudes about our 
national parks are unique as compared to virtually any other topic. 
Ninety-five percent of voters-including 98% of Democrats, 91% of 
Republications, and 93% of Independents- believe the protection of our 
national parks is an appropriate role for the federal government. And 
when provided with context about the National Park Service budget, 92 
percent indicate park funding should not be cut. The polling experts 
indicated that national parks are unique in their bipartisan support 
and in the potential for public support for bipartisan action. In 
addition, the National Association of Counties and the US Conference of 
Mayors have both recently passed resolutions in support of national 
park funding.
Partnership Opportunities
    The 2016 Centennial of the National Park Service is an opportunity 
for Congress to come together to help reverse the declining funding for 
our national parks. In an era when the electorate and Congress are 
divided on so many issues, we are hopeful that when it comes to our 
nation's treasures-so deeply loved by the American people across the 
political spectrum-Congress can find a way to work together in a 
bipartisan fashion to support ``America's best idea.''
    Preserving our national parks for future generations and protecting 
our national investment in them requires a new dedication to the parks' 
core funding as well as creative additions to the mix that can leverage 
federal investments. National park operations funding is down 13% in 
today's dollars from where it was only three years ago, and the 
construction budget has declined by nearly 70% over the last decade in 
today's dollars. Current budget rules, unless changed, likely will 
result in further reductions. The annual appropriations process, 
although an important part of the solution, should be complemented with 
some new sources of revenue. These innovations could augment the 
traditional funding our parks receive and preserve our long-term 
investment in them.
    Action this committee has already taken in the aftermath of the 
damaging budget sequester buoys our hopes. We greatly appreciate 
Chairman Wyden's and Ranking Member Murkowski's recent agreement to 
include national park partnership funding in the Helium Stewardship 
Act, which would direct $50 million in revenue generated in that bill 
towards the needs of our national parks, to be matched from non-federal 
sources. As Chairman Wyden acknowledged, these funds are a small first 
step in addressing the need. However, this type of partnership holds 
promise as part of a diverse, multi-faced approach to address park 
funding needs in partnership with the American people.
    Varieties of potential partnerships exist and should be explored. 
NPCA strongly supported one such partnership when it was proposed by 
the George W. Bush administration, which recognized the extraordinary 
opportunity and imperative presented by the upcoming centennial. The 
Bush administration came to recognize the fundamental need to provide 
the core operating resources the parks needed and proposed an 
additional $100 million per hear. It also saw the opportunity for 
partnerships and proposed a Centennial Challenge-an anticipated 10-year 
effort to leverage private dollars with federal investments. The 
Department of the Interior received pledges exceeding $300 million from 
non-federal parties when it announced the program, demonstrating the 
significant public interest in such a partnership. The downpayment on 
the program, which stalled upon the change in administration, yielded 
approximately $79 million-including $35 million in federal commitments 
that leveraged $44 million from nonfederal sources. This investment-far 
short of the proposed $2 billion, 10-year partnership-supported 
projects in the areas of stewardship, environmental leadership, 
recreational experience, education and professional excellence. 
Examples of completed projects under the Challenge include:

          a. Point Reyes National Seashore, California: Improved trail 
        and extended access to the Abbotts Lagoon and North Beach areas 
        to reduce trail impacts to surrounding wetland and endangered 
        native Sonoma shortawn foxtail plant habitat while 
        accommodating better visitor access to reduce erosion. Total 
        cost: $100,000; partner pledge: 50%.
          b. Boston National Historical Park, Massachusetts: Completed 
        critically-needed restoration of wooden cupola section of the 
        Old State House, replaced outdated heating, ventilation, and 
        air conditioning system, and provided handicap accessibility to 
        the building. Total cost: $1,409,200; partner pledge 50%.
          c. Hagerman Fossil Beds National Monument, Idaho: Install a 
        colorized cement walkway and amphitheater area at the Oregon 
        Trail Overlook to accommodate visitors. Total cost: $39,627; 
        partner pledge 51%.

    During its brief existence, the Challenge effectively served as a 
pilot project that yielded lessons for what could be strong new 
partnership opportunities leading up to and beyond the centennial.
    Matching federal and non-federal dollars.--As one possible new 
partnership approach, Peter Kiefhaber and I drafted a white paper for 
the Bipartisan Policy Center symposium proposing a new Park Legacy 
Partnership Fund that would provide for both core infrastructure needs 
where matching might be difficult, and for matching to leverage 
significant non-federal funds with a federal investment. Our paper 
builds on the lessons learned from the Centennial Challenge and 
proposes a modified partnership construct going forward. If one's goal 
is to address the backlog, a matching partnership can provide a 
partial, not complete, solution. The ongoing restoration of the 
National Mall and the Washington Monument provides examples of how 
private money can be leveraged. At the same time, however, repairs to 
the sewage treatment infrastructure at Yellowstone are less likely to 
yield significant matching and will likely require a stronger federal 
commitment. We suggest that the Legacy Partnership be designed to 
accommodate both scenarios.
    Fee authorities.--Another partnership approach involves fees. The 
Federal Lands Recreation Enhancement Act (FLREA), which allows national 
parks to retain the fees they collect in order to fund maintenance and 
other needed projects, yields nearly $200 million per year across the 
National Park System. It is scheduled to expire effective December 
2014.
    Unless FLREA is reauthorized soon, our national parks stand to lose 
every penny they collect in entrance and recreation fees. This amount 
is roughly equivalent to the size of the damaging sequester and more 
than the park service's annual construction budget in recent years. We 
are pleased that the House Natural Resources Committee has begun 
hearings on this issue, and encourage this committee to do the same. We 
also support the administration's request for a short- term extension 
of FLREA while the authorizing committees work to enact a 
reauthorization bill. In addition to preserving this critical source of 
revenue by reauthorizing or replacing FLREA, there are a variety of 
ways that fee revenue might be enhanced, from fees charged for group 
tours to adjustments to the senior pass or differential charges for 
international visitors.
    Long-term endowment.--An endowment for our national parks is 
another long- discussed partnership concept recommended by the National 
Parks Second Century Commission. We would like to see an endowment 
authorized before the centennial so it can benefit from the attention 
the centennial brings and grow to provide meaningful support for parks 
within the decade. However, we also recognize that the endowment issue 
is complicated and that it will likely take some time to build the 
corpus of the endowment to a level required to make it effective.
    An endowment should be created for the long-term, not necessarily 
as a solution to the backlog. We believe there are other solutions with 
more short-term impact on the backlog, while an endowment could be 
particularly well-suited to address other traditionally underfunded 
needs, such as critically-needed investments in science, education and 
interpretation, and resource protection. We suggest that the Congress 
direct the National Park Service to design an endowment, including an 
assessment of its feasibility, with the goal of launching the endowment 
by January 2016.
    A Penny for Parks Transportation.--Approximately half of the 
National Park Service's backlog is attributable to transportation 
infrastructure, some of which is an integral part of the basic national 
highway infrastructure system. While the Park Service provides for some 
transportation needs through its operations account, the most 
significant source of relevant revenue is the $240 million our parks 
receive every year from the transportation bill. "Penny for Parks" 
would be a partnership with the American people to dedicate one cent 
from any adjustment to the federal gas tax index towards addressing the 
transportation infrastructure in national parks and other public lands.
    The Park Service estimates that approximately 40 percent of its 
9,450 miles of park roads are in poor to fair condition, based upon 
Federal Highway Administration standards. This is a vast improvement 
over the truly sorry state of park roads in 2008 when 90 percent were 
rated in poor to fair condition. Thanks to an infusion of $318 million 
from the American Reinvestment and Recovery Act, the NPS was able to 
make some short-term fixes to preserve pavement. More intensive and 
costly rehabilitation, however, will be required in the near future.
    Forty-two national park bridges have been rated as structurally 
deficient by Federal Highway Administration engineers using National 
Bridge Inventory standards. This includes the Memorial Bridge between 
Virginia and Washington, DC, that serves as a major commuter artery for 
thousands daily. The cost to rehabilitate the bridge is estimated to be 
between $125 million and $240 million, depending on if it is reduced to 
a basic bridge or if its current grand architectural design is 
preserved.
    Using the Federal Highway Administration's Sound Asset Management 
Analysis System, the NPS has estimated that it will need $770 million 
annually over six years to bring its roads, bridges and transit systems 
into optimal condition that minimizes maintenance costs. As Congress 
begins its work to reauthorize MAP- 21, now scheduled to expire in 
October 2014, it should stop treating national parks and public lands 
as incidental or secondary assets, but rather as the core federal 
assets that they are, including significant transportation systems that 
serve states, communities, and park visitors. How Congress and the 
Administration will choose to fund a reauthorization is an open 
question. But NPCA believes Congress should devote a user fee 
equivalent to a penny per gallon from the gas tax for our national 
parks. The park transportation infrastructure backlog could be reduced 
within approximately six years to a level that can be addressed through 
annual DOT surface transportation appropriations and NPS cyclical 
maintenance.
    Service work.--We support the Veterans Conservation Corps Act of 
2013, which would help our veterans transition to civilian life by 
employing them in a variety of sectors, including conservation, 
resource management, and historic preservation projects on public 
lands. This bill, which proposes $600 million for FY14 to FY18, could 
contribute to addressing the backlog of projects in national parks and 
other public lands, while providing important opportunities for 
veterans. Unemployment for post-9/11 veterans remains high at nearly 
7.2% overall, and approaching nearly 9 percent for female vets. At the 
same time, unemployment for young Americans under the age of 25 remains 
at about 16 percent. The National Park Service has seen significant 
savings from the use of conservation corps for various tasks. Given the 
ability of such strategies to stretch scarce dollars, we believe that 
more should be done to foster them among veterans, young Americans, and 
the many older Americans who are interested in deploying the skills 
they learned through a lifetime of work on behalf of our national 
parks.
    Historic leasing.--Although the subject was not examined in depth 
in the white papers used for the Bipartisan Policy Center discussion, 
historic leasing is another area worth greater attention. In instances 
where the National Park Service determines that it does not need to use 
particular historic buildings for interpretive programs, exhibits, or 
administrative means, historic leasing can provide a means to assure 
the long term care of historic structures while also taking their 
required maintenance off of the backlog.
Park Service Backlog Investments
    A part of the growth in the deferred maintenance backlog has 
resulted from the sharp decline in the park service construction 
budget, with that account declining in today's dollars by nearly 70% 
over the last decade. An account that in FY03 had $406 million in 
today's dollars offers only $120 million in FY13, an amount that is 
insufficient to support the highest priority projects. Because this is 
a central account in addressing the $687 million per year needed to 
keep the backlog from growing, the impact of these reductions is 
substantial.
    The cuts in FY13 went deeper than the sequester, with deep cuts to 
the construction budget as well as a damaging cut to park operations. 
The park operating budget is critical to ensure the protection of our 
national treasures and the enjoyment of the visiting public, providing 
for the seasonal rangers and maintenance staff critical to the day-to-
day maintenance of our parks. With 1,900 fewer staff in parks this 
summer as a result of the sequester, we expect even greater challenges 
in keeping up with the deferred maintenance backlog. The Repair and 
Rehabilitation Program directs funds to high priority mission critical 
and mission-dependent assets but requires an investment in park 
operations including the staff to do the work.
    The Cyclic Maintenance Program allows for preventative maintenance 
work that ensures resources can be maintained in good or fair 
condition. Absent funding to maintain resources, degradation occurs, 
and problems are compounded. Investments in cyclic maintenance are 
fiscally responsible by preventing the long- term cost increases that 
can accompany substantial disrepair. It has not been helpful that the 
administration has been requesting decreases in the Facility Operations 
and Maintenance budget subactivity that funds these important programs.
    The impact of natural disasters is also adversely affecting the 
maintenance backlog. For example, two years ago, parks absorbed $37 
million in damages stemming from Hurricane Irene and other natural 
disasters. Road and other facility closures from these events 
compromise local commerce when people are unable to visit areas of 
parks, and requiring parks to absorb such costs strains already 
stretched budgets.. We were deeply grateful for the investment Congress 
ultimately provided after Hurricane Sandy, which among other things 
recently led to the reopening of the Statue of Liberty on Independence 
Day. But disasters will continue to occur, and as was the case with 
Sandy and Irene, the National Park Service will need assistance to 
address resulting damage or will otherwise have to forego even more 
maintenance and operational activity. One particularly important issue 
for this committee is how to address funding for wildland fires, which 
over the last four years, have averaged $700 million in the Wildland 
Fire Account and $76 million in the FLAME Wildfire Suppression Reserve 
Fund. This has the potential to further reduce other accounts in the 
Interior appropriations bill.
    The National Park Service has been working to do ``more with less'' 
for some time. Consequently, they continue to enhance efficiencies 
wherever possible, in order to use their funds wisely. We therefore 
found it appropriate for them to include in their Call to Action 
centennial planning document an action item calling for correcting 
deferred maintenance deficiencies in the top 25% of facilities most 
important to the visitor experience and resource protection. We were 
also pleased to see the focus in A Call to Action on ensuring that NPS 
employees receive the training they need to run efficient, effective 
national parks and on improving the cooperative agreements process. 
Additionally, since FY11, the park service has saved more than $46 
million through management efficiencies and administrative cost savings 
including savings in supplies and materials, travel reductions, 
consolidation of IT services, strategic sourcing reductions and 
implementation of energy efficiency retrofits.
Federal Budget Considerations
    The continuing budget impasse within Congress and with the 
administration is leading to death-by-a-thousand-cuts for our national 
parks. This must be resolved if our nation's nationally-significant 
natural, historic and cultural places are to recover and serve the 
public for the next hundred years and beyond. Sequester cuts affecting 
maintenance have, for example, postponed maintenance on trails and 
roads at Golden Gate, delayed boat repairs at Assateague, eliminated 
maintenance positions at Olympic and other parks, and produced other 
impacts that threaten the visiting experience and the economies of 
gateway communities. Without a significant deal on the budget, it is 
difficult to see how either the everyday operational or long-term 
backlog-related needs of the parks get sufficiently addressed.
    Today, the National Park Service budget is 1/15th of one percent of 
the federal budget. In 1981, it was 1/7th of one percent. In that 
interval we have halved the share of federal revenue spent on National 
Parks. Our national parks are not causing our deficits. Rather, they 
are investments in our future. We cannot meaningfully address the 
deficit by cutting funds for national parks or the other nondefense 
domestic funding that comprises only 16% of the federal budget pie.
    As Congress and the Administration work to address these very 
important fiscal issues, they should be investing in things that 
produce jobs and help our economy, and enhance our quality of life. 
National parks are such investments. The national parks are core 
contributors to a $646 billion outdoor recreation economy and provide 
more than $30 billion in direct economic benefit annually, as well as 
more than a quarter of a million jobs. They are also magnets that 
attract tourists from the rest of the world. The Administration's 2012 
National Travel and Tourism Strategy notes that: ``Park rangers are 
among America's most recognizable and beloved public figures.'' The 
strategy also observes that: ``Overseas travelers to the United States 
who visit national parks or tribal lands tend to stay longer in the 
United States, to visit more destinations within the country, and are 
more likely to be repeat visitors to the United States. As the manager 
of many of these destinations, the Federal government is in a unique 
position to reach these high-value customers.''
    National Park Service sites accounted for a third of the top 25 
domestic travel destinations listed by Forbes. As this nation strives 
to restore jobs, great opportunities lie in marketing our national 
parks to attract more international visitors to invest in our 
recovering economy. This system of popular and inspiring lands defines 
America and is a proven economic generator. The $30 billion in annual 
spending our parks produce compares to the annual revenue of some of 
the top hundred Fortune 500 companies including Google and American 
Express. Our national parks are clearly economic assets to communities 
around the country.
    This economic benefit is coming with a comparably small investment 
that is nowhere close to commensurate with what Second Century 
Commissioner Linda Bilmes has called the parks' footprint on the 
American mind. Yet, we know there are ten dollars generated in economic 
activity for each dollar invested in the National Park System.
    We look forward to working with you to identify funding concepts 
that can augment-but do not replace-appropriated funding. We urge 
Congress and the Administration to identify ways to work together to 
support supplemental funding that can have purchase in a divided 
government and provide meaningful financial reform. And we want to be 
sure that the federal government provides its share of the investments 
so that private philanthropists and other national park constituents 
can be motivated by our government doing its share.

    The Chairman. Thank you.
    Mr. MacDonald, welcome, and I've commented to Senator 
Collins and Senator Snowe over the years in the past, and 
Senator King, of course, is new, how similar in many respects 
Bar Harbor is to parts of Oregon. So we welcome you.

STATEMENT OF DAVID MACDONALD, PRESIDENT, FRIENDS OF ACADIA, BAR 
                           HARBOR, ME

    Mr. MacDonald. I appreciate it. I appreciate the chance to 
be here. I did come down from Bar Harbor last night. It felt 
like everyone else in the world was coming to Acadia and I was 
going the other way.
    The Chairman. But most of them are still going to Oregon.
    Mr. MacDonald. It's an honor to be here. My name is David 
MacDonald. I'm President of Friends of Acadia, which is a 
private non-for-profit friends group that works in support of 
the park. We were founded by just a handful of volunteers 26 
years ago, and we've grown to now have 3,600 members all over 
the country and all over the world. The intent really was to 
create an opportunity for folks to give back to the park they 
love. That's Acadia.
    So the message that I bring to you today from our 
membership is that Acadia is a natural gem. It's an economic 
powerhouse in Bar Harbor and the surrounding communities. We 
must work together to find the appropriate balance between 
public and private funding for parks.
    I also want to convey I recognize the pressures you are 
under in this Congress and the next. The choices that you have 
to make, you hear thousands of petitions every month, and you 
probably can satisfy very few of them. But we speak here, as 
Craig said, with the American people behind us. Ninety-two 
percent of folks polled last year support funding for the 
national parks. They do not want Congress to reduce the 
operating funding in any way. So in addition to considering 
these supplementary strategies, we do petition Congress to come 
up with short-term and long-term strategies to restore that 
operating funding that Director Jarvis was talking about.
    At the same time, we want to step forward and help you 
realize those goals that the American people want. Acadia was 
the first national park created out of private donations of 
land. It wasn't a designation of existing Federal land. These 
were donations from families that created the national park. 
That spirit of private philanthropy continues today through 
Friends of Acadia.
    So, examples from the past you've referenced earlier were 
the carriage roads campaign. Congress appropriate $6 million; 
Friends of Acadia raised $4 million. We put that money into an 
endowment in order to spin off the annual income needed to keep 
up that asset that was restored. That endowment has grown today 
to over $5 million, and in the meantime, we've made $5 million 
in grants for the upkeep of the roads. So that's a sound 
strategy.
    A decade later, we did it with the hiking trails in Acadia, 
where this time, the Federal Government put in about $3 million 
to $4 million; the Friends group raised $90 million. So I can 
tell that neither one of those efforts would have been 
successful unless the Government had been coming to the table 
with real skin in the game, so to speak, a real investment in 
the project.
    Our donors are not inspired to invest if the Government is 
disinvesting. That fundamental balance must be maintained. We 
can talk all we want about endowments or the private role, and 
people are anxious to give. But I call tell you the latest 
example through the sequester, when those kind of cuts are 
being made at Acadia, people are not inspired to invest in the 
park. So there's that balance that really needs to be 
maintained.
    They also wouldn't have contributed, I believe, if the 
funds had to be donated to the U.S. Treasury. People enjoy the 
option to give to a private organization that they know and 
that they trust as a steward of the funds. So having the 
ability, as we look at the kind of legacy fund or partnerships 
that Craig is talking about, to have gifts not have to go to 
the Treasury to be counted to get the Federal, match, I think 
that's incredibly important to consider as you come up with 
those ideas.
    I also want to speak to the importance of the Federal Lands 
Recreation Act, the fee collection, FLREA. It must be 
reauthorized next year. At Acadia, we depend heavily on those 
entrance fees for the roads, the trails, the buildings. When we 
talk to people, they are thrilled to pay the fee, believe it or 
not, because they know that 80 percent of it is staying in 
Acadia. They're told that, and that makes them feel better 
about it.
    We really think that that needs to be reauthorized and that 
the Park Service is given authority to experiment with 
adjusting the fees in parks in locally appropriate ways. I 
think they need authority to consider raising aspects of that. 
But I'd like the Park Service to have that flexibility to do 
it.
    So, as you think about private Friends groups, I think they 
are an incredibly powerful example. We're only one of about 200 
around the country, and I think we all believe we should be 
called on. We're willing to be called on as a partner as you 
try to tackle these challenges.
    I also want to make sure that all of you feel welcome to 
come up and visit Acadia. It is one of the most heavily visited 
parks in the country. It's a very small park compared to the 
Western parks. But visitors per acre, we're right up there. But 
it's a terrific place to come in the summer. Friends of Acadia 
would be glad to give you or your staff a firsthand visit, 
because 5 minutes of testimony here doesn't do it justice. But 
I hope--I know time is short, but if you have any questions, 
I'd be glad to answer them.
    [The prepared statement of Mr. MacDonald follows:]

 Prepared Statement of David MacDonald, President, Friends of Acadia, 
                             Bar Harbor, ME
    Chairman Wyden, Ranking Member Murkowski, and other honorable 
members of this committee, thank you for the opportunity to join you 
here this morning to discuss a topic that is critically important to me 
and many other residents in the state of Maine: the future of our 
National Parks.
    My name is David MacDonald and I have lived most of my life on 
Mount Desert Island, Maine, home to Acadia National Park. I currently 
serve as President and CEO of Friends of Acadia, a private, not-for-
profit organization with 3,600 members that has worked in close 
partnership with the National Park Service since our founding in 1986. 
Our members love Acadia and are proud to give back to the park through 
our organization with philanthropic donations, thousands of hours of 
volunteer work on the trails, and as advocates for Acadia.
    Friends of Acadia is one of nearly 200 philanthropies helping the 
National Park system and we are also an active member in a coalition of 
similar national park friends groups from around the nation, known as 
the Friends Alliance. We benefit greatly from the exchange of 
information and experience with dozens of other friends groups, and as 
a member of the Friends Alliance steering committee, I hope that my 
remarks will also reflect the perspective and wisdom of other peers 
working in partnership with parks around the U.S.
    My respectful message to your committee here today-coming from the 
front lines of the first national park established east of the 
Mississippi that operates at peak capacity on a beautiful July day like 
today on the Maine coast-is that Acadia is a conservation gem and 
economic powerhouse that we must work together to conserve. We must 
find the appropriate balance between public and private funding so that 
this park and others around our nation provide inspiration to all 
Americans in the years and generations to come.
    I also want to convey that I certainly do recognize the very 
challenging decisions that you must make in this Congress and the next, 
and I appreciate the conflicting pressures on legislation and 
appropriation that come before you every day. Senator Susan Collins and 
Senator Angus King are terrific champions of Acadia and our national 
parks, but also have made all of us at Friends of Acadia aware of the 
context within which the deliberations and decisions are made in 
Washington.
    You hear thousands of worthy petitions every month. You must decide 
much-but can satisfy few. With respect, I am here to petition with 
pride and confidence, because I have a mighty ally: the American 
people.
    Across every geographic, demographic, and political cross-section, 
Americans want Congress to strongly support our national parks. In a 
robust, bipartisan survey done last year, 92% of all respondents 
opposed any reduction in support for our national parks, and 45% called 
for increased funding. Some 88% of Republican voters supported level or 
increased funding for national parks. Americans want their national 
park heritage conserved for their children and grandchildren. On their 
behalf, we petition Congress to make no more cuts to federal funding 
for our parks and that you develop a longer-term plan to restore full 
federal funding for our parks.
    As we petition, we also step forward as partners prepared to help 
achieve what the American people desire. As we approach the centennial 
of the National Park Service, you and your colleagues in the House 
should be able to depend on park friends groups and the broader 
American conservation community as a resourceful, creative and 
cooperative force.
    I am honored to serve a glorious American treasure - Acadia 
National Park-that provides benefit and enjoyment to millions of 
residents and visitors each year. Relatively small in size, at only 
35,000 acres, Acadia is within a day's drive of major cities of the 
northeast and therefore is one of the most heavily used parks in the 
nation, with more than 2.3 million visitors each year. Acadia was also 
the first national park created entirely through private donations of 
land from neighboring landowners, when visionaries such as George B. 
Dorr and John D. Rockefeller Jr. and dozens of others assembled 
strategic tracts of land with bold Atlantic coastline, mountain-tops, 
remote ponds, and pristine woodlands and granted them to the federal 
government nearly 100 years ago. These founders, other public-spirited 
volunteers, skilled local workers, and 3,000 poor boys from Maine in 
the Civilian Conservation Corps all worked tirelessly over the years to 
create a magnificent network of hiking trails, carriage roads, and 
motor roads that enrich the park as an historic and cultural treasure. 
I share this brief Acadia history so you know that there is a very long 
history of private initiative, philanthropy, community pride and 
investment, and volunteerism in our park-as these very principles will 
be essential to our ability to prepare the park for its second century.
    They are also the principles upon which Friends of Acadia has based 
our first twenty five years of partnership with the federal government. 
In the early 1990's we undertook a public-private partnership to 
restore Acadia's 45-mile network of gravel carriage roads following 
decades of government neglect. We worked with Congress to commit $6 
million of federal appropriations while agreeing to raise $4 million in 
private contributions that would serve as a permanent endowment held at 
Friends of Acadia to ensure continued maintenance of the roads over the 
long-term. Friends of Acadia annually grants funds to Acadia under the 
terms of a memorandum of understanding regarding the endowment, which 
has helped spin off a total of nearly $5 million since its 
establishment. Since their renovation, Acadia's carriage roads have 
served as the heart of the park's recreational infrastructure; use by 
an ever-growing population of walkers, bikers, equestrians, and cross-
country skiers has taken off.
    More recently, the same public-private partnership has been brought 
to bear on efforts to address vehicular congestion, air quality, and 
visitor experience by launching a low-emissions, fare free bus service 
linking Acadia to the surrounding communities. Friends of Acadia 
provided the original seed money to pilot the project, and later 
secured a significant sponsorship agreement with L.L.Bean that has 
brought more than $3 million to the operations of the successful bus 
service that has now carried more than 4 million passengers and removed 
millions of cars from our area roads.
    We have applied the same successful mix of federal and private 
funds to our work with neighboring landowners and our partners at Maine 
Coast Heritage Trust in helping Acadia secure key tracts of land to 
complete its acquisition boundary. Acadia's irregular boundary weaves 
in and out of nearly a dozen surrounding villages and hundreds of 
abutting owners. We are often called upon to use FOA funds to pre-
acquire properties when Congress and the Park Service are not able to 
move quickly enough to meet a seller's time-frame. Completing Acadia's 
boundary has been the top priority of current Superintendent Sheridan 
Steele, and Friends of Acadia has been willing to assume some risk in 
these transactions, but as with infrastructure and operations, our 
donors believe that the federal government has a critical role to play 
in funding these acquisitions, particularly given the dedicated revenue 
source in place through the Land and Water Conservation Fund. We urge 
Congress to support full and reliable funding for the LWCF as a 
fiscally-sound strategy for conserving national parks like Acadia.
    All of us at Friends of Acadia are proud of our long history and 
strong partnership with the Park Service, however we are also firm in 
our conviction that we, the people of the United States, through our 
federal government, have a perpetual responsibility to assure the 
conservation of Acadia unimpaired for the enjoyment of future 
generations. Private philanthropy has a critical role to play in the 
future of our parks, but there are limits to that role. Friends of 
Acadia works hard to add value to our national parks rather than fund 
core operations, which are ultimately the responsibility of Congress.
     In recent months, the federally mandated 5% cut to Acadia's 
operating budget meant that park motor roads opened a month later than 
usual, visitor center hours have been shortened, and free ranger led 
interpretive programs for families have been cut in half this summer. 
Acadia now has 23 out of 110 permanent staff positions left unfilled, 
and the park has nearly $1.4 million less to operate in FY 13 than it 
did in FY 10. The reality that park operating funds are decreasing now 
under the sequester creates a disincentive for private donors to 
contribute to park projects. These cuts do serious damage to the 
fundamental assets and heritage that our national parks represent. The 
cuts in federal funds also create a negative ripple effect in the 
economy of our surrounding communities. The park is estimated to 
generate $186 million in economic activity in our region, supporting 
approximately 2,970 jobs.
    Friends of Acadia is already working with partners at the local, 
state and federal level to explore options for sustainable, 
supplementary funding for America's national parks. In March, I 
participated in a leadership conference convened by the National Parks 
Conservation Association and the National Park Hospitality Association 
that put forward sixteen specific proposals for such efforts.
    Confident that my colleagues from those leadership associations 
will give you a full account, I will speak briefly to two key proposals 
which my team at Friends of Acadia believe hold great promise, and 
which require Congressional action to advance further.

          1. The first proposal is to enhance the park visitor 
        experience through improvements enabled through a stronger fee 
        system. The Federal Lands Recreation Act (FLREA) must be 
        reauthorized, preserving parks' ability to retain a high 
        majority of the fees they collect. People feel a sense of 
        investment when they pay for an experience, and park entrance 
        fees have been a very important source of funds for Acadia to 
        maintain buildings, roads, trails, and more. The Federal Lands 
        Recreation Enhancement Act (FLREA-Title VIII of P.L. 108-447) 
        enables national parks to retain up to 80% of the fees 
        collected and use them for maintenance, interpretation, law 
        enforcement, and to cover the costs of fee collection. At $20 
        for seven days or $40 for a year, the entrance fee at Acadia is 
        a better bargain than taking one's family to the movies. 
        Visitors pay the fees willingly and are pleased to hear that 
        80% of them are retained at Acadia. It is critical that FLREA 
        be renewed by 2014 with the authorization for the National Park 
        Service to experiment with the fee structure to maximize 
        revenues based on locally-appropriate solutions. Continuation 
        of fee collection is also very important for the future of 
        Acadia's award-winning Island Explorer bus system. Acadia 
        National Park adds a transit fee, seamless to the visitor, 
        during the bus system's operation. This fee generates more than 
        half of the funding needed for bus system operations, so if 
        Acadia's authority to charge an entrance fee were to disappear, 
        the Island Explorer would shrink significantly. At Acadia, 
        nearly 21% of the park's annual budget comes from fee revenue.
          2. The second proposal is for a Park Legacy Partnership 
        enabled by public-private cooperation. Versions of this noble 
        concept have been discussed since at least 2007. Now is the 
        time to build upon lessons learned from the past efforts and to 
        create an opportunity for Congress and private partners to 
        design a fund that will inspire private donors to look toward 
        the 2016 Park Service Centennial. In particular, we encourage a 
        program that would be inclusive of a wide array of possible 
        ways to give, and not require that private gifts be made to the 
        Federal Treasury in order to qualify for the federal match. In 
        my conservation career, I have been privileged to receive the 
        wise counsel of some of America's great philanthropic families 
        with a deep commitment to our natural heritage. Under their 
        guidance as volunteer board members or donors, Friends of 
        Acadia has demonstrated that private, non-profit partners 
        should not replace the role of the federal government, but we 
        can provide critical flexibility, innovation, cost 
        effectiveness, and a trusted broker for donors wanting to add 
        to our national parks legacy.

    I will close with a final specific example from Acadia that 
illustrates the power and potential of both the fee collection and the 
proposed Park Legacy Partnership. In the year 2000, Friends of Acadia 
successfully completed the Acadia Trails Forever Campaign. Our 
organization raised $9 million in private funding to restore and 
permanently endow the maintenance of Acadia's historic trail system. 
This was matched by $4 million in public funds-primarily from revenue 
collected at Acadia through visitor entrance fees. This campaign went 
on to be a model for other parks and friends groups around the country. 
Yet I don't believe that it would have been possible if we had not been 
able to tell our private donors that the federal government was coming 
to the table with a significant investment in the project; nor would it 
have worked if we had told our private donors that their contributions 
would need to be made directly to the U.S. Treasury. Instead, Friends 
of Acadia holds the endowment and makes yearly grants to the park for 
intended uses on the trails under the terms of a memorandum of 
agreement signed by both parties.
    As we approach 2016, it is important to note that Acadia National 
Park shares that same centennial date with the broader National Park 
Service. We are certainly prepared and motivated to bring our best 
thinking and resources to bear to ensure that Acadia's second century 
is launched with the same level of inspiration and leadership exhibited 
by the park's founders one hundred years ago.
    I greatly appreciate the opportunity to share testimony with your 
committee today, and hope that you will not hesitate to let me know if 
I can assist with follow up questions or suggestions. And in 
conclusion, I invite each of you to pay us a visit at Acadia along the 
Maine coast this summer or in the future - my words here today pale in 
comparison with a first-hand visit, and it would be our pleasure to 
help you or your staff come on up and enjoy the Acadian experience with 
us. Thank you.

    The Chairman. Thank you. Five hours of testimony probably 
wouldn't do justice----
    Mr. MacDonald. That's correct.
    The Chairman [continuing]. To the good work you're doing. 
We thank you. Very helpful.
    Mr. Puskar.

  STATEMENT OF DAN PUSKAR, EXECUTIVE DIRECTOR, ASSOCIATION OF 
             PARTNERS FOR PUBLIC LANDS, WHEATON, MD

    Mr. Puskar. Good morning and thank you. I'm honored to be 
here as well. My name is Dan Puskar, and I'm the Executive 
Director of the Association of Partners for Public Lands. The 
association is made up of 85 member organizations, many of 
which are the largest friends groups, cooperating associations, 
foundations, and educational partners of not only the national 
park system, but also other public lands.
    83 percent of our members, however, serve National Park 
Service sites and are doing a lot of the operational partnering 
that provides visitor services, that does interpretive 
programs, that creates educational opportunities. That really 
does a lot of the work of helping to steward our park visitors.
    In fact, many of our member organizations are the ones 
running the volunteer programs that engage people in the ways 
that, Senator Murkowski, you so appreciate happening in Alaska 
right now.
    I want to really, in the interest of time, say that I will 
echo many of the things that my colleagues have said, and 
instead spend a moment of maybe wrapping together a couple of 
the things I've been hearing today around how we can really 
increase funding and services for the national parks through 
the work of nonprofits. There is a baseline opportunity for 
creating a legislative framework for really unleashing what 
friends groups, cooperating associations, and others are doing 
today. As we think to have more sustainable funding, providing 
more of a ground floor for them would be helpful.
    A few thoughts along those lines. First, there really isn't 
today legislative recognition of partnerships of the central 
piece of how the Park Service does it mission, particularly 
with nonprofits, something that would be valuable, I think. The 
opportunity for our nonprofits to be able to noncompetitively 
enter into agreements, long-term lasting agreements with the 
National Park Service would be incredibly valuable. Member 
organizations of ours, like the Yosemite Conservancy, which was 
founded in 1923, have certainly made a mark in improving that 
park and allowing them to have agreements that regularly last 
more than 5 years at a time, not only will allow them to make 
the investments they need, but to attract the kinds of donors 
that they need to do the wonderful programming that they do.
    The National Park Service is given cooperative agreement 
and challenge cost-share authorities to date. But there are 
ways in which those can be strengthened to make sure that we do 
extend the value of Federal dollars that come to nonprofits to 
do great public benefits. To that end, thinking about or 
perhaps rethinking what a public benefit in a park looks like, 
which may be different than what the Federal Cooperative 
Agreement and Grants Act envisioned back in 1977, since so much 
of what happens in parks is truly benefiting the Nation might 
be worthy of consideration.
    I want to echo the sentiments expressed earlier today that 
there are things we can do to help our nonprofits when it comes 
to things like donor recognition. We want to take the already-
inspired American people and organizations and corporations 
that want to do more and create the opportunities for them to 
feel valued by the value they impart.
    Certainly, we want to applaud and commend what this 
committee has already done in creating targeted opportunities 
to take what these kinds of authorities can do and propel them 
further. What you've done with the Helium Bill this summer is 
just one example. But certainly, as we talk about an endowment 
and the potential for Federal matching funds, the Park Legacy 
Partnership Fund that has been suggested, all of these would 
benefit a great deal if we have improved the rules of the road 
for nonprofits to work with the National Park Service and 
really unleash what that philanthropy and what those in-kind 
services can be.
    The great thing about the National Park Service and its 
mission is that there are a lot of nonprofits out there with 
shared missions that are really engaged in making sure these 
are the premiere places that all Americans, and our 
international visitors, can enjoy. So, the Association of 
Partners for Public Lands would be pleased to work with you to 
make sure that we can improve those rules of the road, invest 
in the kinds of strategies that have been already mentioned 
here, like the reauthorization of FLREA, the championing of 
certain bills like a commemorative coin, which, while it may 
seem small, is one further example of what this Congress can do 
to create those public--private matching opportunities and 
build awareness of our great national parks. Thank you very 
much.
    [The prepared statement of Mr. Puskar follows:]

 Prepared Statement of Dan Puskar, Executive Director, Association of 
                 Partners for Public Lands, Wheaton, MD
    Chairman Wyden, Ranking Member Murkowski and members of the 
Committee, thank you for the opportunity to testify today alongside my 
distinguished colleagues. I serve as executive director of the 
Association of Partners for Public Lands (APPL), which has a history 
since 1977 of cooperation with the National Park Service (NPS). Through 
its vital network of partnerships, APPL works for the day when all 
Americans share the joy and inspiration of our natural world and 
collective heritage.
    APPL represents 85 nonprofit member organizations, 83% of which are 
cooperating associations, friends groups, foundations and educational 
institutions that have formal partnerships with the national park 
system. Our members range in scale from the newly created, all 
volunteer Friends of De Soto National Memorial to Eastern National, a 
cooperating association partnering with over 150 national parks. 
Although we support the full breadth of the NPS, our members are 
primarily ``operational partners'' with an on-the-ground presence in 
335 of the 401 national park units. Our members staff most visitor 
centers, provide interpretive materials, offer educational programs and 
give back through grants and other partnerships. Not only do APPL 
members save federal funds by providing these services, but in 2011 
they provided more than $134 million in aid to the NPS through major 
projects, grants, programs and services that respond to the agency's 
priorities.
    Our member organizations epitomize the durability and strength of 
public-private partnerships. The Yosemite Conservancy, for example, was 
founded in 1923, and the average length of our public lands 
partnerships is 48 years. Perhaps this is not surprising as 
philanthropy and partnership have been essential to the creation and 
resiliency of many national parks, from the land donation of William 
and Elizabeth Kent to establish Muir Woods National Monument in 1906 to 
the recent gift by David Rubenstein to help restore the Washington 
Monument. Examples of the ongoing contributions of our member 
organizations and allies to the NPS include:

  <bullet> Alaska Geographic has donated over $22 million to the NPS 
        and other federal lands since 1959. Alaska Geographic engages 
        youth in science through programs like the Yellow-Billed Loon 
        Media Project, in which Native youth survey breeding sites 
        alongside NPS biologists and share their results with 
        communities affected by a potential endangered species list 
        change.
  <bullet> The Conservancy for Cuyahoga Valley National Park in Ohio 
        annually provides financial support for over 1,000 children 
        from low income families to participate in its residential 
        education and summer camp programs. The Conservancy also 
        provides funding and staff support for key outreach programs 
        that bring urban children to experience the park.
  <bullet> Discover Your Northwest, a cooperating association serving 
        NPS units in three states, partnered with Polaris to provide a 
        brand new electric vehicle for park rangers patrolling the 
        Painted Hills area of John Day Fossil Beds National Monument in 
        Oregon. The actions of this nonprofit partner helped the NPS 
        fulfill its goal to make Painted Hills carbon neutral and 
        energy self sufficient in housing, administration and 
        transportation.
  <bullet> Golden Gate National Parks Conservancy has provided over 
        $300 million in support to NPS projects and programs for over 
        30 years, manages all park visitor centers and directly serves 
        over five million visitors per year. The Conservancy has helped 
        develop a corps of 35,000 annual volunteers providing 500,000 
        hours of service each year-the largest national park volunteer 
        program in the nation.
  <bullet> Grand Teton Association is a strong financial supporter of 
        the National Park Service Academy, a program to help recruit 
        and grow future public land employees. Since 2011, this program 
        hosted at Grand Teton National Park in Wyoming has introduced 
        diverse undergraduate and graduate students from across the 
        country to career opportunities in NPS.
  <bullet> Great Smoky Mountains Association and Friends of the 
        Smokies, both APPL member organizations, collectively provide 
        approximately 8% of their park's annual operating budget to 
        support all aspects of the visitor experience in North Carolina 
        and Tennessee.
  <bullet> Mount Rushmore Society will fund $500,000 in grants over the 
        next five years for preservation and maintenance of the iconic 
        South Dakota sculpture. These necessary activities will not be 
        met by current NPS budgets.
  <bullet> NatureBridge, a non-profit education provider operating in 
        multiple national parks, raises and spends $12.5 million each 
        year to provide residential environmental science programs to 
        over 30,000 students. These multi-day programs translate to 
        over 100,000 student days of hands-on science learning in 
        national parks.
  <bullet> Rocky Mountain Nature Association provides approximately 
        $500,000 annually to the education programs of Rocky Mountain 
        National Park in Colorado, including opportunities for over 50 
        interns and student trail crewmembers to work in the park every 
        year.
  <bullet> Western National Parks Association (WNPA) has provided over 
        $86 million to support NPS projects and programs for 75 years. 
        WNPA operates in 66 NPS units in 12 Western states, many of 
        which have little budget capacity for programming, let alone 
        staffing. WNPA's presence at sites like Brown v. Board of 
        Education National Historic Site and Port Chicago Naval 
        Magazine National Memorial is essential. WNPA staff is often 
        the only personnel encountered by the public, and its aid truly 
        provides the basic interpretation of park resources and meets 
        the needs of visitors.

    A vital role of APPL is to represent the interests of our members 
in working with federal agencies and Congress to ensure that all 
nonprofit park partners are provided the greatest opportunities to help 
expand visitor services, educate and inspire the next generation, 
create jobs and engage all people in public lands stewardship. My 
comments today represent the experiences of APPL and its member 
organizations, and I hope will reflect the insights of the National 
Park Friends Alliance and the contributions of key educational field 
institutes across the nation.
A Strong Federal Funding Commitment Invigorates Partnerships
    While recognizing the fiscal challenges facing our nation, APPL and 
its member organizations believe that funding for the operations of the 
national parks, the protection of their resources and the safety of 
their visitors are the responsibilities of the federal government. 
Public-private partnership, however, should be a core strategy to 
address the need for additive funding that provides a margin of 
excellence in parks. Recognizing the complementary roles of public and 
private leadership is particularly important at this time when NPS 
seeks to reach broader and more diverse audiences with more scarce 
federal funds.
    In the presence of a strong federal funding commitment to the NPS, 
APPL member organizations are ready, willing and able to mobilize their 
donors, retail customers, volunteers, educational resources, gateway 
communities and business partners to help the NPS achieve its important 
mission to preserve and protect America's national parks for the 
enjoyment of future generations.
            INCREASING NATIONAL PARK SYSTEM FUNDING AND SERVICES 
                    THROUGH NONPROFIT PARTNERS
    APPL trusts that our already vibrant and rewarding relationships 
with the NPS will add greater resources and save more federal funds if 
our partnerships were fully embraced and facilitated by law, policy and 
procedure. With the goal of unleashing the nonprofit sector to enhance 
parks and achieve more results with tax dollars, I offer a few 
perspectives and recommendations:
Expand Public-Nonprofit Partnership Authorities
    NPS Director Jarvis and his leadership team have been tremendous 
advocates for park partners, although the tools provided to them have 
not kept up with the NPS and its growing desire to engage meaningfully 
in partnerships. Additional or clarifying legislation will help the NPS 
to simplify and streamline its partnership policies and practices, and 
to meet the goals that Director Jarvis has articulated.

  <bullet> Encouraging Long Lasting Partnerships--The NPS currently 
        does not have legislation specifically endorsing the value and 
        necessity of partnerships as a central tenet of fulfilling its 
        mission. This gap in authorities can often lead to the NPS, as 
        well as other federal agencies, relying on familiar regulatory 
        or transactional frameworks like contracting and procurement 
        law to practice the art of partnerships. Partnerships, like 
        most good relationships, work best when founded on trust and 
        communication, and are open to the creative risk inherent in 
        entrepreneurial activity and private sector ingenuity.
          New authorities that recognize the centrality of partnership 
        in the NPS and provide the agency with the ability to enter 
        into agreements noncompetitively with nonprofit partners would 
        give greater clarity to all parties and strengthen the ability 
        of our member organizations to engage the American people to 
        support the parks.

  <bullet> Strengthening the Leverage of Public-Private Funding-- The 
        tools provided to the NPS for maximizing the efficiencies of 
        public and private dollars are limited. Cooperative agreement 
        authority, one of the few instruments available, was not 
        conceived as a framework for longstanding partnerships and has 
        presented problematic complications as parks and partners work 
        to achieve shared goals. In the past, APPL members have been 
        told by the Department of the Interior that general federal law 
        preempts the full use of some specific NPS agreement 
        authorities.

          Another core partnership tool, the Challenge Cost-Share 
        Agreement Authority, has been recognized by this Committee as a 
        valuable tool to stimulate private investment and confront 
        looming obstacles, most recently in its advancement of S. 783, 
        the Helium Stewardship Act of 2013. The Congressional Budget 
        Office reports that S.783 would provide $50 million in federal 
        dollars, matched with an additional $50 million in private 
        funding, to the NPS for maintenance and infrastructure projects 
        within national parks. APPL congratulates the Committee on 
        shepherding this initiative.
          These authorities would be strengthened by identifying the 
        unique role that nonprofit partners have in the history and 
        mission of the NPS and recognizing the variety and value of 
        public purposes inherent in preserving our parks and welcoming 
        all generations of Americans to experience them. Modest changes 
        to these agreement authorities would help ensure that the 
        energy and expertise of nonprofit partners, especially those 
        operating in an increasingly competitive philanthropic arena, 
        will be maximized.

Improve and Streamline Partnership Policies, Agreements and Approvals
    In A Call to Action: Preparing for a Second Century of Stewardship 
and Engagement, the NPS has expressed its desire to work with partners 
to help strategically focus its many efforts and align its existing 
resources on powerful actions that advance the NPS mission. APPL 
applauds Director Jarvis for his commitment to revise the NPS policy on 
donations and fundraising, known as Director's Order 21, in order to 
meet the dynamic landscape of 21st century philanthropy. Additionally, 
APPL is encouraged by the agency's intention to create a workable 
Reference Manual for Director's Order 32, which governs NPS activities 
with cooperating associations, and for Director's Order 6, which 
applies to educational programs.
    APPL is eager to assist Director Jarvis and his leadership team in 
revisiting these policies, and the agreements which tier from them, to 
focus and align the best elements of the public and private sector and 
unleash their combined potential.
            SUSTAINABLE SUPPLEMENTARY FUNDING FOR AMERICA'S NATIONAL 
                    PARKS
    Earlier this year, the National Parks Conservation Association, an 
APPL member organization, and the National Park Hospitality Association 
developed a series of white papers to outline 16 strategies that could 
be employed to increase non-appropriated funding for the national 
parks. Several of these papers identify programs and opportunities 
central to the viability and strength of nonprofit partnership and 
funding.
Enhancing Park Experiences Through Fees
    APPL supports the reauthorization of the Federal Lands Recreation 
Enhancement Act (FLREA) and the continuation of its current 
authorization wherein the NPS retains the recreational and associated 
fees it collects.
    National park visitors intuitively expect that their fee dollars 
will support the places they experienced and enjoyed. APPL members are 
committed to creating great visitor experiences and are concerned that 
the loss of support for NPS interpretation, maintenance and protection 
funds will significantly decrease the agency's ability to provide basic 
services. Additionally, several APPL member organizations and allies 
leverage these fees to create exemplary resources for park visitors 
including.

  <bullet> Like many cooperating associations, the Mesa Verde Museum 
        Association and the NPS combine nonprofit aid with FLREA funds 
        to print and distribute the park visitor guide which includes 
        recreational, educational and safety information, which is 
        annually distributed to over 400,000 Mesa Verde National Park 
        visitors in Colorado.
  <bullet> The Schoodic Education and Research Center Institute and the 
        NPS completed a $2.7 million renovation of the historic 
        Rockefeller Hall in Acadia National Park earlier this month. 
        The Center supports research for Acadia that is linked directly 
        to STEM education opportunities for youth and to lifelong 
        learning for all in the sciences and arts. The project cost was 
        shared equally by philanthropic contributions and FLREA fees.

    APPL urges the Committee to reauthorize this valuable authority not 
only for the NPS, but for all federal land management agencies. We also 
believe this program would be strengthened with the inclusion of U.S. 
Army Corps of Engineers recreation areas. APPL encourages this 
Committee's collaboration with the appropriate committee of 
jurisdiction to help invest these fees in the visitor's enjoyment of 
all public lands.
Park Legacy Partnership Fund
    APPL strongly supports the establishment of a long term public-
private philanthropic opportunity wherein federal dollars are matched 
one-to-one by private dollars. This model has several similarities to 
the National Park Service Centennial Challenge which was activated for 
one year in 2008 and provided over $50 million to critical NPS 
projects. The combination of $24.6 million in federal funds matched by 
nearly $27 million in philanthropic contributions resulted in many 
projects including:

  <bullet> The Friends of Big Bend leveraged a $100,000 Centennial 
        Challenge grant to make something that its remote park, which 
        encompasses 13% of the U.S. southern border, had never had in 
        75 years: a visitor center film to enhance public safety and 
        encourage stewardship. Raising $177,000 in private funds, the 
        Friends not only created the film but upgraded the audiovisual 
        assets of the park auditorium necessary to view it.
  <bullet> Lewis and Clark National Park Association leveraged a 
        $30,000 Centennial Challenge grant to complete a formal 
        education plan for the Lewis and Clark National Historical Park 
        in Oregon and Washington State. The plan expanded what had been 
        a curriculum focused on 4th graders to a portfolio of placed-
        based activities for school groups from 4th to 12th grades.
  <bullet> The Zion Natural History Association and the NPS created an 
        initiative to significantly enhance youth education and 
        outreach in the park by matching a $54,000 Centennial Challenge 
        grant with $54,000 in private funds. This modest initiative 
        increased the number of children attending programs by nearly 
        300% in the first year, and today tens of thousands of young 
        people have been connected to the unique natural and cultural 
        resources of Zion National Park as a result.

    The value of a long term federal matching program would dwarf the 
success of the one-year Centennial Challenge effort. Nonprofit partners 
who can share the guarantee of a future federal match with their donors 
and constituents will be better positioned to attract greater 
philanthropy and aid-especially smaller organizations that may not have 
high cash reserves or friends groups that lack sizeable philanthropic 
bases in their gateway communities.
Commemorative Coins
    Legislation has been introduced in Congress to create a series of 
commemorative coins that will celebrate the National Park Service 
Centennial in 2016. Sale of the coins includes surcharges that provide 
up to $12.25 million in funds that may be matched by the National Park 
Foundation, an APPL member. This is an opportunity for the Congress to 
help deliver $24.5 million "for projects and programs that help 
preserve and protect resources under the stewardship of the National 
Park Service and promote public enjoyment and appreciation of those 
resources" without adding to the deficit or finding offsets. (In the 
interest of full transparency, I authored this white paper when I was a 
member of the National Park Foundation staff.)
    APPL encourages Senators to co-sponsor S.1158, National Park 
Service 100th Anniversary Commemorative Coin Act, as several members of 
the Committee have previously done, and thus add resources to and 
improve public awareness of the NPS Centennial in 2016.
            THE FUTURE OF PARK PARTNERSHIPS
    All APPL member organizations are honored to be official partners 
of America's most treasured landscapes. Our national parks have 
traditionally been supported by both the public and private sectors, 
and APPL hopes that these perspectives and recommendations open 
opportunities to expand our partnerships to greater effect and impact.
    In summary, APPL strongly encourages the Committee to:

  <bullet> Encourage the increase of national park system funding and 
        services through partnerships. This may be accomplished by 
        adopting partnerships authorities to help the NPS to simplify 
        and streamline its policies and practices and spur ever greater 
        nonprofit contributions and aid.
  <bullet> Renew the Federal Lands Recreation Enhancement Act in a 
        manner that will meet park visitor expectations and improve 
        their experience and enjoyment of these treasured places.
  <bullet> Strongly consider new proposals, including the Park Legacy 
        Partnership Fund and a commemorative coin series, which provide 
        the leverage nonprofits need to further extend scarce federal 
        dollars.

    I enthusiastically offer our services to the Committee in 
developing new partnership authorities and in continuing to serve as a 
voice for nonprofit park partners. Thank you for your strong interest 
in helping to galvanize nonprofit partnerships with the NPS and thereby 
expand the funding of national parks in the next century.

    The Chairman. You all have been very helpful, and I 
apologize for the bad manners. Senator Murkowski and I are also 
working on another bipartisan effort at this time on natural 
gas, and I am trying to be there as well.
    So let me just ask one quick question, and then Senator 
Murkowski has been kind enough to say she's going to step in. 
Many of the concerns she'll be asking about are exactly mine.
    Mr. Gabrys, concessionaires obviously play a key role in 
maintaining park buildings. It's an essential part of your 
operation. So you know a lot about this issue. Are there 
policies, in your view, Federal policies in particular, that 
ought to be changed or modified or removed so as to let 
concessionaires do more to adequately maintain their 
facilities?
    In other words, pretend you're in our shoes, and you're 
looking for ways to move the machinery in the Federal 
Government around so that you all can get more, in effect, for 
your maintenance dollar, and do more in the cause that we're 
all talking about here, which is to deal with the backlog? Are 
there policies in that area that could be changed or altered?
    Mr. Gabrys. Mr. Chairman, I think in terms of the general 
ongoing maintenance that we're involved with, things are 
working just fine. Part of the concessionaires responsibility, 
as you indicate, is providing that maintenance.
    Each national park has a maintenance plan developed by the 
Park Service that delineates what's the responsibility of the 
Park Service, what's the responsibility of the concessionaire. 
In recent years, more of that has moved toward the 
concessionaire, which I think is a good thing.
    I think where the focus needs to be, though, is on these 
big--deferred maintenance is almost a misnomer because it's 
really these big costs. You look at the old structures that 
exist such as Ahwahnee, at our park in Mount Rainier, the 
beautiful Paradise Lodge. No matter how much ongoing 
maintenance you're doing, the lodge is old. Every year, it gets 
buried in snow over the winter season. After awhile it just 
wears out, and all of a sudden it needs some major reshoring of 
the facility, and 10s of millions of dollars need to be spent.
    That's where we need to find the money to do those things. 
So the things that I mentioned in my remarks, to provide 
additional sources of revenue at parks, would provide 
additional money for concessionaires. I would have 
concessionaires put some of that money into a fund so that when 
those items are required, there's money there to pay for them.
    The Chairman. All right. Senator Murkowski, and again, my 
thanks that you'll wrap this up.
    Senator Murkowski [presiding]. Thank you, Mr. Chairman.
    Gentlemen, thank you for your testimony that you've 
provided today. I think it's been very helpful for all of us. 
Know that we will be taking your suggestions as we evaluate how 
we might be a little bit more creative in how we're dealing 
with our maintenance and backlog.
    Mr. Gabrys, you've given some very specific examples of 
where on the concessions side we can work to either create and 
gain efficiencies through extent and making sure that the 
concession contracts are longer. But again, very concrete 
examples, which I appreciate.
    Most of you have mentioned the FLREA and note that it is 
due to be reauthorized within this next year. Recognizing that 
that is in front of us, what suggestions might you have that we 
would tweak or enhance or pull back on, as we look to this 
reauthorization? I've mentioned that there is an inequity, if 
you will, between fees that we see within different parks. Is 
that an issue that needs to be addressed?
    If I could just have your thoughts on what we might be 
looking specifically to address when we have this 
reauthorization come before us. I throw it out to any of you. 
Mr. Obey?
    Mr. Obey. Senator, thank you for the question. There are, I 
think, a number of opportunities with the fee authorization. I 
would agree with you that one of the questions that we should 
be looking at is how to share the wealth, if you will, 
throughout the park system? Right now, 80 percent of the fees 
are retained in the park where they're collected. But half the 
fees that the Park Service collects are collected in about 10 
parks. So, there's a wide disparity.
    Now, as we heard earlier today, a lot of those parks have 
very significant maintenance needs as well. So there's a 
balance. But I think it is very legitimate to look at how to 
spread that out a bit more, maybe a higher percentage that 
would go throughout the system.
    There are some other things I think that are worth looking 
at, too. Right now in FLREA in the statute, it sets the senior 
pass at $10 for a lifetime. That's a great deal. If it's still 
there when I'm 62, I'm going to buy one.
    [Laughter.]
    Mr. Obey. But I think that we might be able to look at some 
adjustments to things like that to get a little bit more 
revenue. They sell about 500,000 of those passes every year.
    Senator Murkowski. Of the senior passes?
    Mr. Obey. Of the senior passes. So there's potentially 
revenue there.
    Now, I'm sure they're reselling some of those, because 
people lose them and it's only 10 bucks, so why not get another 
one? But I think that that's one area where we might look.
    Senator Murkowski. Any other suggestions? Mr. MacDonald?
    Mr. MacDonald. Yes, if I may. Again, the feedback we get is 
that they're not charging enough. It costs less to come to 
Acadia for a week than it does to take your family out, you 
know, to one movie. However, what's been most interesting to 
me, someone mentioned earlier the business community and 
striking the balance. The business community, up in Bar Harbor 
very concerned by the cuts of the sequester, wants the park to 
sell more passes. So they're offering to help sell passes at 
their hotels. They're on board.
    I initially felt that they might resist trying to collect 
more fees or raising the fees; they don't. They recognize that 
this is a key source of revenue, and they're standing right by 
our side at the chamber of commerce, trying to promote more 
compliance with it. Acadia has a very irregular boundary, so 
people can often enter without paying. The business community 
is a huge supporter of enhancing the collection of fees, at 
least up in Acadia. So I just wanted you to know that.
    Senator Murkowski. OK. Mr. Puskar.
    Mr. Puskar. I would just add that several of our members 
who have fee recovery within their parks are able to really 
take advantage of being able to match those funds to achieve 
ends with the National Park Service that improve the visitor 
experience. So to echo an earlier comment, finding greater ways 
to share those resources across the system would allow more of 
our nonprofit members to do more with that work as well.
    Senator Murkowski. Good. A lot of discussion about what we 
can do to encourage greater private donation, participation 
that way. We all recognize that when you are thanked, it goes a 
long way to feeling good about what you have done. Some people 
like the anonymity. But I think it's fair to say that more 
people enjoy the acknowledgement that comes with some sort of 
formal recognition.
    So I think it is fair to talk about ways that we might be 
able to tastefully recognize our donors. I don't want to see 
the new Denali Visitors Center named the Verizon Center, and 
nothing wrong with Verizon. But I think we expect a little bit 
more from our national parks.
    How do we do this? Mr. MacDonald, I'd appreciate your 
insights there because, as you know, Friends of Acadia have 
kind of led the way here with the volunteers and the donors. 
How do we give that appropriate recognition without really 
commercializing this?
    Mr. MacDonald. It's a great point. Honestly, in my work, 
when most of the individuals give to Friends of Acadia, naming 
rights are not as high on the list as I would have expected. 
Having said that, having a trail or a bench or, you know, a 
room would be a terrific option to have. As you know, the 
private philanthropies that work with the Park Service operate 
under director's order 21, which gives guidelines for how 
private individuals can donate to an agency like the Park 
Service.
    Stepping back, even before we get to the thank-you, some 
elements of that order make it very challenging for the person 
to even consider making a gift. They have to get vetted and 
reviewed and, you know, put on hold before a gift could even 
consider being made. So we're really pleased that----
    Senator Murkowski. How difficult is that?
    Mr. MacDonald. I don't do--
    Senator Murkowski. I mean, if I just want, out of the 
generosity of my heart, or my relative who's got no kids and is 
getting old, he wants to just be able to give you 50 grand. How 
difficult is it?
    Mr. MacDonald. Fifty grand, it probably isn't too 
difficult.
    Senator Murkowski. OK. Let's go higher.
    Mr. MacDonald. At a higher level----
    Senator Murkowski. Let's go to a million.
    Mr. MacDonald. I mean, the Park Service, for good reason, 
has steps in place to assure that there is no conflict of 
interest or there's no other motive behind that gift. So they 
want to review it. They review the person who's offering it and 
make sure that it's a true gift, with no quid pro quo, or no 
strings attached.
    So I understand the reasons behind that. But I'm pleased 
that the Park Service has agreed to review that order and look 
for ways to make it more donor-friendly, more efficient, allow 
groups like ours not to miss out on opportunities; I guess I 
would put it that way.
    As you say, the naming rights are important. But so is just 
building a donor-friendly culture to allow us to appear 
grateful right from the outside when you have a conversation. 
So again, the Park Service has been terrific about saying, in 
this climate in particular to this time, they believe it's time 
to review that order.
    Senator Murkowski. I appreciate that. I think it's 
something that we clearly need to do. People who are feeling 
very generous don't want to feel like they have to have their 
whole life history peeled apart in order to make a gift.
    Let me ask one last question. This is reflective of many of 
the comments that I hear from folks back home, who I mentioned 
the Wrangell-St. Elias and their cleanup effort coming here in 
a few weeks, good neighbors getting out and doing good things 
for their parks.
    But what I hear is that we make it very difficult, or the 
park system makes it difficult for people to just come and 
volunteer, to come and help. Is this an issue or a problem from 
your perspective, where people don't feel as welcome to just be 
a volunteer? Mr. MacDonald?
    Mr. MacDonald. Yes, from the front lines of Acadia, I would 
answer no. That is, people are treated so well. The volunteer 
program meets up at the park headquarters. They have priority 
parking places. There's park staff there every morning to 
welcome them. So the culture of folks wanting to give back, at 
least at that park, it's extremely receptive.
    The park staff shows up on weekends, you know, to help run 
these volunteer cleanup days. So at least at Acadia, I think 
the Park Service as a culture, at the local level, of being 
very, very receptive and appreciative of the volunteer efforts 
that have been a hallmark of our work since 1986.
    Mr. Gabrys. Senator, from the standpoint of the 
concessionaire, I think that has been somewhat of a concern 
with the Park Service. But I think that's changing. I think a 
prime example is, for the first time this year, we as a 
concessionaire were invited to ask our employees if they would 
like to come down to the Mall the day after the July Fourth 
celebration to clean up the Mall. In past years, that would not 
have happened.
    So we at Guest Services put that out to our employees and 
say, ``If you'd rather go down and help out on the Mall, you 
can go there instead of coming to your normal work station 
tomorrow.'' It was overwhelmingly supported. A lot of other 
groups participated, too.
    So I think there's a movement in the right direction there 
within the Park Service.
    Mr. Obey. Senator, if I could just add, I would agree with 
the comments of both Mr. Gabrys and Mr. MacDonald. The Park 
Service needs core resources in order to manage volunteers. So 
when you have something like the sequester, obviously, that can 
be an issue, and Senator Baldwin referenced some of the 
practical implications that can arise.
    But at the same time, I think that there's more of an 
opportunity than maybe has yet been recognized to use volunteer 
service and service corps, whether they're youth corps, whether 
there are others. AARP did a survey several years back, and the 
single most desired volunteer activity by a retiree was a 
volunteer ranger. There are so many people with tremendous 
expertise and experience from a lifetime of work who could 
bring that to bear in a creative way in a park setting.
    So whether it's that, whether it's really trying to 
leverage the youth corps that are out there with the trained 
people who know how to run a crew, or whether it's looking at 
returning veterans, who really have a desire to give back or 
are looking for other things to do. There's still high 
unemployment for returning veterans, as well. I think those are 
areas that we should be looking at.
    Mr. Puskar. I would simply add that there are a number of 
nonprofit organizations that have been leading their volunteer 
programs because of the kinds of constraints that have been 
brought up in some parks where they might not have that 
internal capacity to date. So when you look at a group like the 
Golden Gate National Parks Conservancy that manages a force of 
35,000 volunteers in putting in hundreds of thousands of hours 
annually, it's amazing in that kind of partnership what you can 
do to mobilize that community, some of whom, through their 
volunteer service, may want to continue up a chain that 
ultimately leads to donations and other forms of contribution 
back to their public lands.
    Senator Murkowski. Good comments there. I was hiking 
through Klondike Gold Rush National Park some years ago. To 
come upon a group of AmeriCorps volunteers that was working 
with some youth corps folks to restore some of the trails 
there, recognizing that particularly in Alaska, with our 
remoteness and the size of our parks, in terms of having that 
trained staff that can then take these groups of volunteers to 
provide for some of the work that we hope for, oftentimes it 
can be very, very difficult.
    So it's these partnerships, I think, where we're seeing 
real progress and real opportunity for good things to happen 
there.
    So, again, I appreciate all that you have put out on the 
table here for discussion today. I think you heard from the 
chairman, and you saw from the questioning from all of the 
members here, there is a great deal of interest in how we move 
forward, how we care for, nurture, and really highlight and 
showcase the national treasures that we have within our park 
system. But it takes the work of all of us.
    There's been a lot of discussion today about the impact of 
sequester. That's fair. But we all recognize that we were in 
trouble a long time before the decision on sequester was made. 
The graph that Senator Coburn showed us is really quite 
telling. This is a cumulative effect that we are seeing. The 
reality is we've got some very serious, I think, reform when it 
comes to how we handle our maintenance issues within our parks.
    I'm hopeful that we'll use this occasion of this 
anniversary coming up to really galvanize the good ideas and 
really the hearts of Americans to come out and support truly 
national treasures.
    So thank you for what you've given us and your attention 
this morning. With that, the committee stands adjourned.
    [Whereupon, at 12:14 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

     Response of David MacDonald to Question From Senator Barrasso
    Question 1. Mr. MacDonald, we have heard from the witnesses here 
today about the importance of reauthorizing the Federal Lands 
Recreation Enhancement Act so that the respective park can retain 80% 
of the fees they collect. In your testimony you state the Act should 
"authorize the National Park Service to experiment with the fee 
structure to maximize revenues based on locally appropriate 
solutions.''
    Will you explain how an experimental fee structure may be used 
locally at the Acadia National Park?
    Answer. Thank you for your interest and questions regarding re-
authorization of the Federal Lands Recreation Enhancement Act. At 
Acadia National Park, the ability of the National Park Service to 
retain 80% of the fees collected here has helped greatly in tackling 
backlogged maintenance and the improvement of public resources such as 
hiking trails, carriage roads, motor roads, and visitor services. If 
FLREA were not reauthorized and Acadia was to lose this funding, the 
Park's maintenance backlog would grow exponentially, and public 
enjoyment would suffer.
    Although we cannot speak for the Park Service itself, Friends of 
Acadia believes that it is important to consider providing the 
authority for parks to implement experimental fee structures in order 
to enable incentives (or disincentives) through fee structure that 
would support and reinforce other resource management objectives. For 
example, here at Acadia National Park, we wrestle during the peak 
summer season with congestion of too many private automobiles and tour 
buses at the most popular park destinations at Acadia. This can damage 
natural resources and detract from the quality of a visitor's 
experience.
    Over the last several years, we have developed an alternative 
transportation system, the fare free, low-emissions Island Explorer bus 
system. This system has proved very popular and effective; however, its 
use by the public remains voluntary. We believe that in order for it to 
be most effective at reducing congestion and preserving natural and 
cultural resources within the park, the public needs more incentives to 
ride it-or disincentives to bring their private vehicle into the park. 
One way to do so (since the bus is already free of charge for 
passengers) is to give Acadia the ability to increase the park entrance 
fee for those wishing to bring a private vehicle into the park. At 
present, visitors pay $20 for a week's vehicle pass in Acadia and $5 
for those visiting solo by bicycle or foot or riding the Island 
Explorer. What if Acadia had the ability to charge $20 per day for 
those who wish to bring their own vehicle in, but $20/week for those on 
foot, bike or using public transportation? This would likely result in 
more fee revenue for the Park and less vehicular congestion and 
resource degradation. Exceptions could be made for those visitors with 
physical disabilities who require their own private vehicle or local 
residents who may pass in and out of the park daily commuting to work 
or school (Acadia is unique in how its boundary weaves in and out of 
dozens of surrounding villages).
    I use this as only one example of how different parks may benefit 
from the ability to apply differing fee structures, based on the unique 
aspects of their own resource management and visitor experience issues. 
The current Federal Lands Recreation Enhancement Act has been 
successful to date in part because it already does give the Park 
Service a reasonable level of control of policy and application; even 
greater gains could be made with additional flexibility to tailor fee 
structures to increase revenue while complementing other park-specific 
management objectives.
    Thank you once again for the opportunity to testify last month and 
to provide additional information in response to your question. I would 
be glad to discuss any of these issues further as the Committee 
continues work on this important topic. All of us at Friends of Acadia 
endorse efforts to reauthorize and strengthen the Federal Lands 
Recreation Enhancement Act.
                                 ______
                                 
       Response of Craig D.Obey to Question From Senator Barrasso
    Question 1. The Sustainable Supplementary Funding for America's 
National Parks report, calls for ``Park Zone Taxes'' through increased 
sales or property taxes for gateway communities. The report singles out 
Estes Park, Colorado, Gatlinburg, Tennessee, and Moab, Utah. Such a 
proposal would also include places like Jackson, Wyoming and here in 
Washington, DC with all the national parks in the district.
    Does the National Park Conservation Association support going to 
cities and towns and asking them to increase taxes?
    Answer. The collection of discussion papers entitled Sustainable 
Supplementary Funding for America's National Parks: Ideas for Parks 
Community Discussion was compiled by numerous individuals who 
represented diverse groups and views. The concepts contained in that 
piece were put forward for discussion and consideration at a March 19, 
2013 symposium hosted by the Bipartisan Policy Center. NPCA was a lead 
group organizing this event and compiling those sixteen discussion 
ideas, along with the National Parks Hospitality Association.
    In an introductory letter prefacing those discussion drafts, former 
NPCA president Tom Kiernan and National Parks Hospitality Association's 
Derrick Crandall clarified:

          ``At the invitation of NPCA and NPHA, funding and national 
        parks experts have drafted 16 papers outlining strategies that 
        could be employed to increase non-appropriated funding for the 
        national parks. The papers are rich in concepts and examples 
        and are designed to spark conversation and comment. They do not 
        represent the positions of NPCA, NPHA or any other 
        organization. Each paper includes the name of those who 
        contributed to the paper and who have also offered to receive 
        and share your thoughts and the thoughts of others who care 
        about America's national parks.''

    As noted at the conclusion of that paper, Park Zone Taxes, NPCA was 
not the contributor of that particular paper though welcomed the 
concept as one among many worthy of discussion that were submitted.
    Some communities may elect to pursue park zone taxes that can help 
augment federal funding, as happened recently with St. Louis area 
residents who supported Proposition P, a sales tax increase to help 
fund trail and park improvements and renovations to the Gateway Arch. 
But NPCA has not taken a position on that concept.
     Another recommendation in the report is raising the fuel tax.
    Does the NPCA support raising the national fuel tax on fuel?
     As I noted in my written testimony for this hearing:

          Approximately half of the National Park Service's backlog is 
        attributable to transportation infrastructure, some of which is 
        an integral part of the basic national highway infrastructure 
        system. While the Park Service provides for some transportation 
        needs through its operations account, the most significant 
        source of relevant revenue is the $240 million our parks 
        receive every year from the transportation bill. ``Penny for 
        Parks'' would be a partnership with the American people to 
        dedicate one cent from any adjustment to the federal gas tax 
        index towards addressing the transportation infrastructure in 
        national parks and other public lands.

           . . . As Congress begins its work to reauthorize MAP-21, now 
        scheduled to expire in October 2014, it should stop treating 
        national parks and public lands as incidental or secondary 
        assets, but rather as the core federal assets that they are, 
        including significant transportation systems that serve states, 
        communities, and park visitors. How Congress and the 
        Administration will choose to fund a reauthorization is an open 
        question. But NPCA believes Congress should devote a user fee 
        equivalent to a penny per gallon from the gas tax for our 
        national parks (emphasis added). The park transportation 
        infrastructure backlog could be reduced within approximately 
        six years to a level that can be addressed through annual DOT 
        surface transportation appropriations and NPS cyclical 
        maintenance.

    NPCA has not taken a position on raising the national fuel tax. The 
Highway Trust Fund that provides for the funding needs of roads in 
national parks is on the verge of becoming insolvent. Indexing the fuel 
tax is one avenue being discussed by lawmakers for replenishing this 
account. In the event Congress takes that step, NPCA is asking for a 
user fee equivalent to a penny per gallon from the gas tax to be 
applied to the park roads backlog. In the event Congress takes an 
alternative approach to replenishing that fund, we would request an 
equivalent amount to meet the needs of park roads.
                                 ______
                                 
     Responses of Gerard Gabrys to Questions From Senator Barrasso
    Question 1. Mr. Gabrys, in your testimony you made reference to the 
Ski Area Recreational Opportunity Enhancement Act which I cosponsored 
with Senator Udall and subsequently became law in 2011. The legislation 
allowed the Forest Service to facilitate additional recreational 
opportunities at ski areas. What revenue generating visitor services 
could park concessioners provide to the public?
    Answer. Thank you for your efforts on the Ski Area Recreational 
Opportunity Enhancement Act, which is already bringing better 
experiences to visitors to national forests and economic benefits to 
communities near ski areas on national forests as year-round employment 
increases.
    Concessioner operations in national parks face many of the same 
challenges your legislation addressed for ski area permittees in 
national forests. Visitor infrastructure is utilized for a small 
portion of the year, yet the peak visitation period has dominated 
agency thinking and prevented the use of best practices commonplace in 
the tourism field, from variable pricing and yield management to 
cooperative marketing efforts. Here are possible opportunities 
concessioners would seek to expand where appropriate in national parks, 
ideally under provisions similar to your ski areas bill:

  <bullet> Astronomy classes and telescope rentals (including computer-
        aided scopes)  Camera rentals, including all weather cameras 
        and GPS-coded cameras
  <bullet> Photography classes, including use of DSLR cameras and photo 
        editing
  <bullet> Seminars on using the outdoors for health
  <bullet> Healthy and sustainable foods showcase weekends
  <bullet> Wi-Fi service, with basic service free and more robust 
        service on a fee basis
  <bullet> Guided mountain bike tours on trails not normally allowing 
        biking
  <bullet> Rental tents, yurts and simple cabins erected in existing 
        park campgrounds
  <bullet> Backcountry fishing trips
  <bullet> Special interpretation activities for kids
  <bullet> Docu-dramas about park themes, history-like the Lost Colony 
        production
  <bullet> Zip lines
  <bullet> Trail food services (like use of beverage carts on golf 
        courses)
  <bullet> Kayak rentals
  <bullet> Fishing equipment rentals and lessons from mobile as well as 
        stationary sites
  <bullet> Electric bike rentals where regular bikes are rented
  <bullet> Watchable wildlife tours
  <bullet> Rental of glass-bottom, electric boats at certain units
  <bullet> Airport pick-ups of visitors and luggage comparable to that 
        offered by resorts
  <bullet> Voluntourism programs
  <bullet> Additional services to international visitors and group 
        tours

    The economic activity from these new services will generate new 
franchise fee receipts for the National Parks Service, 80% retained in 
the collecting park, and also provide encouragement to concessioners 
for investing funds in park visitor facilities.
    Question 2. In your testimony, you state that the ``visitor 
services you provide in national parks are often inhibited by park 
policies which limit visitor experiences and reduce payments, or 
franchise fees, to the agency.'' What park policies are deterring these 
types of opportunities?
    Answer. Virtually every park inhibits concessioner efforts to meet 
changing visitor needs. In the submitted testimony, we described how 
the limit on passengers allowed on the high speed ferry accessing Dry 
Tortugas National Park reduces park use from allowed levels by up to 
10,000 visitors annually, and thus reduces potential revenues by 
$250,000 annually. Curfews on access to Alcatraz and the Statue of 
Liberty-constraining evening visits-cost these units hundreds of 
thousands of visitors annually-and again, lead to substantial 
unrealized revenues. Off-season group business and special events are 
subject to NPS review and denials. Price approvals are required, 
frequently burdensome and are rarely offered more than 12-18 months 
out, when travel industry marketing standards often require pricing 2-3 
years in advance. Integration of park, entrance fee and recreation fee 
pricing is rare, and creates economic barriers and visitor-unfriendly 
situations for such offerings as cruises on Lake Mead. We also believe 
that NPS policies such as Director's Order 21 inhibits concessioner 
efforts to assist overall visitor experiences through such programs as 
the Guest Donation Program, although we are delighted to see NPS taking 
action on this policy.
    In its strategy for the next century of success outlined in A Call 
to Action, the NPS identifies a need for nimbleness and use of 
partners. The overall relationship between the agency and its 
concessioners, however, reflects a very different strategy: very 
detailed management. In one major park, the agency requires the park 
concessioner to sell cans of soda at three different prices within an 
easy walk-even though the cans of soda are purchased by the 
concessioner at the same price from the distributor. The park unit's 
concessions office specifies differing selling prices at a snack bar, a 
full service restaurant and a convenience store operated by the same 
concessioner. Concessioners would like to test out new services to 
establish visitor interest-but the process to define the service and 
gain price approval is a significant barrier.
    And we must also note the consequences of lawsuits on the National 
Park Service. The courts have required management of some park agencies 
to meet provisions of laws as diverse as the Endangered Species Act and 
the Wild and Scenic Rivers Act and the NPS has in some cases 
incorporated curtailment of visitor services as the best solution to 
this direction-as the agency did in its draft plan for Yosemite's 
Merced River Corridor.
                                 ______
                                 
    Response of Jonathan B. Jarvis to Question From Senator Cantwell
    Question 1. There is a proposal to establish a Mountains-to-Sound 
Greenway National Heritage Area in Washington state. It is the 
culmination of successful collaboration among local community groups, 
businesses, and governments at all levels, from the Governor to the 
counties and cities.
    This proposal seeks to recognize the strong connections between 
people and nature in the Pacific Northwest. The proposed Heritage Area 
includes working farms and forests, 1,600 miles of trails, rivers, 
lakes, ski areas, and much more. Over 1.4 million people live within 
the boundary of the proposed Heritage Area and two thirds of the land 
within the boundary is conserved under permanent protection- including 
the Alpine Lakes Wilderness Area which is one of the most used 
wilderness areas in the nation. The proposed area demonstrates how the 
interaction of communities, businesses, and nature contributes to our 
heritage in the Pacific Northwest and continues to be an economic 
driver for the region.
    The Greenway has a great story of community conservation that has 
provided national leadership in the cleanup of waterways (e.g. Lake 
Washington in the 1950's), open space conservation (e.g. the Forward 
Thrust Initiative in the 1960's), farmland preservation in the 1980's, 
the Greenway initiative in the 1990's, and the green building and 
sustainability movement currently underway.
    Unfortunately, the Park Service, during its initial review of the 
proposal as outlined in the Greenway Feasibility Study, did not find 
that it merits a National Heritage Area designation. I hope that the 
Park Service will look at all of the resources present in this area and 
think about how such a living history of this great environmental 
heritage really docs deserve to be recognized as a National Heritage 
Area.
    Director Jarvis, how do you think the National Heritage Area 
designation can be used to recognize more recent and living histories? 
Will you work with me and others on this widely supported proposal to 
designate the Mountains-to-Sound Greenway as a National Heritage Area?
    Answer. National Heritage Area (NHA) designation recognizes 
landscapes that are associated with important events, individuals, and 
historically significant cultural groups. Many NHAs already celebrate 
the living history and traditions of their regions. While NHA 
designation could certainly be used to recognize more recent history, 
contributing historic and cultural sites are a necessary component of 
any NHA.
    National Park Service staff from the Pacific West Region and 
Washington, D.C. offices have reviewed the Mountains to Sound Greenway 
National Heritage Area Feasibility Study of January 2012 according to 
our interim guidelines. While the NPS does not offer an official 
recommendation regarding the suitability ofNHA designation until we are 
asked to provide testimony on a pending bill before Congress, based on 
our review, the study does not meet the evaluation criteria as outlined 
in the guidelines. Attached is a copy of our response letter that was 
sent to the applicant. I would be glad to discuss this with you or to 
provide additional information about the review process and the 
feasibility study criteria.
   Responses of Jonathan B. Jarvis to Questions From Senator Portman
    Question 1. Director Jarvis, as you may know, when I was OMB 
director, I worked with both parties in Congress to secure support for 
a partnership program that provided needed financial support for the 
parks. When Secretary Jewell testified before this committee she stated 
the administration is planning for the park service centennial. Can you 
provide any further details of that plan?
    Answer. 2016 marks the 100111 anniversary of the National Park 
Service-- a defining moment that offers the opportunity to ret1ect on 
and celebrate our accomplishments as we prepare for a new century of 
stewardship and engagement.
    In 2011, the National Park Service launched A Call to Action, a 
strategic plan for employees and partners that describes specific goals 
and measurable actions that will guide the NPS as it enters its second 
century. Public listening sessions and ongoing feedback from visitors 
and other stakeholders continue to inform planning efforts for 
additional special programs, commemorations, and communications 
strategies.
    Partnership programs that provide needed financial support to the 
parks are another important component of our plan. This past November, 
the NPS, in partnership with the congressionally chartered National 
Park Foundation, kicked otT the tirst phase of a centennial campaign 
that will culminate in a strategy for introducing the National Park 
Service to the next generation of Americans. This work is entirely 
funded by the National Park Foundation through its development efforts.
    This effort, as well as our experience with the Centennial 
Challenge--a successful matching fund through which the National Park 
Service was able to utilize the Fiscal Year 2008 appropriations request 
to help us incentivize private donations with a Federal match--makes us 
confident that our donors will continue to respond to the types of 
partnership programs you mentioned.
    Question 2. Do you plan to work with Congress to craft an agenda 
for the centennial?
    Answer. The National Park Service is committed to a broadly 
collaborative planning process. In addition to the valuable engagement 
of our constituencies in the early stages of developing a strategic 
plan, the NPS has established an external Centennial Advisory Committee 
comprised of representatives from the recreation, hospitality, tourism, 
youth and education, and local business communities. As we continue to 
move forward with our planning process, we welcome the involvement of 
Congress. We also look forward to Senators' participation in centennial 
activities in their states and would welcome your help in inviting your 
constituents to visit national parks and take advantage of the services 
we offer in their communities-not only during the centennial, but every 
day.
    Question 3. The upcoming centennial will be crucial for the future 
of our parks, because in these difficult fiscal times it is especially 
important to recognize the need for new funding strategies to enhance 
and maintain the quality of the national park experience and continue 
preserving natural, cultural and historic resources. Do you agree that 
the upcoming centennial is an excellent opportunity to engage all of 
those who utilize and benefit from our national parks in helping 
prepare for their future?
    Answer. We certainly agree that the upcoming centennial is an 
excellent opportunity to engage the broad community of park visitors, 
stakeholders, and partners in helping prepare for their future. We also 
believe it is an opportunity-and our responsibility- to reach out 
beyond current visitors and partners to invite all Americans to 
understand, visit, cherish and support these places that belong to all 
Americans.
    As noted above, the National Park Service has established an 
external Centennial Advisory Committee to ensure involvement and input 
in our preparations from a wide range of stakeholders and partners. 
This committee is charged with assisting the Servicein broad engagement 
across our many park partner organizations, in addition to providing 
its advice and feedback based on its members' unique perspectives.
    An important component of the centennial will be a broad 
communications strategy. With the generous support of, and in 
collaboration with, the National Park Foundation, we will launch a 
public outreach campaign to build greater awareness and deepen 
engagement with the public and invite their support in everything from 
volunteerism to increased private philanthropy.
    Question 4. It is important that the 2016 centennial not just focus 
on a single year, but help engage the public in a lasting commitment to 
supporting their National Parks. How will the Department of the 
Interior and the National Park Service utilize the momentum of the 
centennial to prepare the parks for their next 100 years of service?
    Answer. The National Park Service centennial will be a celebration 
of the ideals of conservation, recreation, and heritage embodied in all 
of our public lands. Building upon the National Parks Second Century 
Commission Report and the President's America's Great Outdoors 
initiative, the NPS has been engaged with a wide variety of 
stakeholders and partners to shape a vision of this celebration that 
celebrates the Service's past while recommitting us to a second century 
of exemplary stewardship and public enjoyment of these special places.
    We are committed to ensuring that all of our centennial activities, 
outreach, and programs support the strategic goals articulated in the 
National Park Service's A Call to Action-our strategic plan for the 
next century of stewardship and public enjoyment. With the launch of A 
Call to Action, there is already a great deal of energy, enthusiasm, 
and alignment within the agency and our community of partners in 
meeting the challenges of our next century.
    With the generous support of the National Park Foundation, our 
public outreach campaign will help to build engagement, raise awareness 
and drive support for our second century of stewardship on behalf of 
the American people.
    Question 5. In 2011, the House/Senate Conference Committee Report 
encouraged the National Park Service to use innovative solutions like 
historic leases to help mitigate the growing backlog of historic 
structures in need of preservation. (H.R. 2055, 112 Cong. Comm. Rep. 
No. 112-33l (at 1056). Will you please provide the committee with 
information on how many historic leases NPS has entered in to?
    Answer. The NPS system for tracking leases does not identify which 
are leases of historic facilities and which are leases of non-historic 
facilities. We currently track the number of leases, both historic and 
non-historic, with terms in excess of one year. Nationally, there are 
86 leases with terms in excess of one year.
    Question 6. Do you consider historic leases in parks to be a viable 
way to help parks mitigate the operation and maintenance backlog?
    Answer. The NPS agrees that leasing is a valuable tool and that 
there is a need to expand its leasing program. To that end, the NPS is 
currently assessing opportunities to broaden the application of its 
leasing program. Leasing generally works well in urban areas where 
favorable market fundamentals and business opportunities exist-Golden 
Gate National Recreation Area is a great example. The NPS is working to 
improve the use of leasing by developing a more active leasing program, 
leasing-specific training, and encouraging urban parks to reassess 
their commercial services and historic building stock for leasing 
opportunities.
    Leasing is one tool the NPS can use to address its maintenance 
backlog, but it is limited by market forces and the up-front investment 
that many structures require-an initial cost that the NPS must cover. 
Further, leasing cannot help with the large portion of deferred 
maintenance that is tied to park infrastructure, trails, and 
transportation assets.
    Question 7. In addition to being an incredible place to visit and 
spend time outdoors, the park has gone to great lengths to establish a 
model education program. The program has grown to become a core part of 
school curriculum in North East Ohio. The park serves over 3,500 
children in week long residential programs and 8,000 in field trips and 
day camps. This has helped the park reach out to underserved 
communities and develop innovative programs to work with urban 
neighborhoods in Cleveland and Akron. Much of this work is funded via 
philanthropic support. How can the National Park Service support parks 
like CVNP in their efforts in urban outreach and education?
    Answer. The National Park Service is committed to increasing 
opportunities for education in the parks and connecting urban students 
with the National Parks in their communities. Park-based education 
programs strengthen and complement classroom learning. The parks are 
dynamic classrooms where people interact with real places, landscapes, 
historic structures, and other tangible resources that help them 
understand the stories and concepts they learned in traditional 
classrooms.
    In February of2012, the National Park Service led an effort that 
resulted in a signed Memorandum of Understanding between the Department 
of Education and the Department of the Interior to maximize the usc of 
federal lands and resources to enhance educational opportunities for 
the American public. The National Park Service has utilized this 
agreement to expand opportunities for park-based education to high need 
schools through partnerships with professional and youth organizations 
and programs such as teacher training and field trips.
    In addition, the National Park Foundation is working with local 
partners to provide resources for educators to use national parks as 
sources of content and active learning that meet state and federal 
standards. This has allowed parks and partners to increase teacher 
development opportunities including workshops, in-depth subject matter 
seminars, and summer educator internships opportunities. The National 
Park Service is working with the National Park Foundation to secure 
private sponsorships for these and other educational opportunities 
delivered by partners and park staff.
    Question 8. CVNP has grown its volunteer program, co-managed by the 
park and the Conservancy, to 5,900 volunteers and over 200,000 hours 
annually. Their volunteers include youth, families, corporations and 
individuals from diverse backgrounds. How is the National Park Service 
addressing policies to support philanthropy and the park mission?
    Answer. Meeting the NPS mission requires the support of a strong 
community of citizens who are engaged in and committed to meeting the 
challenges and celebrating the successes of civic collaboration. 
Volunteerism is gaining recognition as a critical management tool, and 
through wise investment, this tool can provide an enormous advantage to 
National Parks and the communities they serve. There is an increasing 
need and opportunity for expanding NPS volunteer engagement and 
management throughout the Service by way of philanthropic and 
sponsorship funds. Volunteers-In-Parks (VII's) are especially crucial 
in helping the NPS achieve its outreach, stewardship, and education 
goals. The NPS is also working closely with the National Park 
Foundation to engage citizens in multiple layers of stewardship and 
philanthropy, thereby creating more long- term, sustainable civic 
relationships.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

  Joint Statement of Robert Gish, President, Back Country Horsemen of 
 Washington, Ellensburg, WA, and Sherry Baysinger, Member, Washington 
          Outfitters and Guides Association, Port Angeles, WA
    The use of saddle and pack stock on our public lands and in our 
National Parks has been a mainstay of backcountry service on these 
lands back to when the nation assumed authority for them. John Muir was 
a stock user. Teddy Roosevelt was a stock user. Gifford Pinchot was a 
stock user. In Wilderness, the use of stock has been the only method 
for outfitters, guides, agencies, and volunteers to transport people 
and materials into the backcountry in order to accomplish trail 
maintenance as well as fulfill the vision of the Wilderness Act that 
all Americans can have access to our wild lands. It is not an easy life 
to be a packer, an outfitter, or a volunteer stock handler. It has 
though been a way of life for many past and current stockmen, and it is 
unfortunately becoming a dying art. NPS crews struggle to maintain 
funding for their mule strings. Outfitters, often the first to clear 
trails, have to battle social prejudices, high insurance costs, and 
politically motivated rules that lead to endless litigation and 
difficulties getting meaningful permits that allow for businesses to 
stay in business. The hardships on the land often pale when compared to 
the hardships in the constant social, legal, and political wrangling 
that fail to provide the substance that keeps our public lands trails 
open and accessible.
    We did have high hopes for the Department of Interior's America's 
Great Outdoors (AGO) Initiative until it became clear it wasn't 
targeted for all Americans. It seemed designed for or gravitated to a 
specific strata of urban society that have little connection with the 
land or rural lifestyles. This policy to drift with social norms is not 
new. No place is this clearer than Mt Rainier National Park. Stock use 
was unnecessarily eliminated on all but one trail (plus a segment of 
the PCT). The result is that upkeep is strong along the main arterials 
but many of the outer more distant trails are falling into disrepair 
without stock support. Stock use was not eliminated because of 
environmental impacts but because they were simply unwanted due to a 
new social order dominated by an urban society. This same pressure to 
eliminate stock use by a culture unused to rural lifestyles is 
relentlessly playing out around the country at places like Yosemite 
National Park, Sequoia and Kings Canyon National Park, and in the 
Pasyaten Wilderness of the Okanogan-Wenatchee National Forest. The 
public lands agencies are given up on the value of heritage and roots 
except for casting them in Ken Burns' documentaries. Many will say it 
is simply out with the old, in with the new, but it shouldn't be 
forgotten that it is the old that provided the cultural heritage for 
our nation.
    Back Country Horsemen of American is this year celebrating 40 years 
of providing volunteer service to our nation's public lands. These were 
years of hard work out in the National Parks and National Forests. Many 
of these workers know well how to sharpen chainsaws and guide a pack 
string, but they couldn't tell you the first thing about writing an 
amicus brief for a litigation proceeding or even testifying before a 
Senate Committee. What they can tell you is that no amount of agency 
funding will make a significant difference as long as hard working 
Americans are treated as second class citizens and subject to layers of 
regulations that may make sense in Washington DC or for courtroom 
gamesmanship but have little merit on the ground. Outfitters should not 
have to push for a decade to get reauthorization of their permits, or 
whether there will be adequate heartbeat allowances and service days to 
fill some of the few real jobs left in rural communities. Agency stock 
crews should not have to worry from year to year whether they there 
will be money available to support their working animals. Volunteers 
should be able to continue to use chainsaws to effectively clear 
National Park trails within Wilderness, and they should be able to pack 
their saws with stock. Yes, even once again at Mt. Rainier National 
Park.
    What will keep our National Parks accessible and in good order will 
be a unified effort by agency crews, youth corps, outfitters, 
experienced contractors, and volunteers, all having access to the use 
of saddle and pack stock on trails that are kept open for them, legally 
and physically.
    Thank you for this opportunity to present some of our views,
                                 ______
                                 
             Statement of John Harrell, Tennessee Resident
    I would like to take this opportunity to voice my concern and 
opposition to the fees imposed by the National Park Service, 
specifically the Backcountry Fees in the Great Smoky Mountains National 
Park.
    I am an avid backpacker and have been enjoying the backcountry of 
the GSMNP for many years. I have introduced my son to backpacking and 
he is the next generation of backpackers who will enjoy the Smokys 
which are right here in our backyard. Since the implementation of the 
fee back in February however, we have found that the experience is not 
as satisfying. There are lots of wilderness areas, State Parks and 
National Forests in the area that are free to access and the experience 
is just as satisfying. The grounds of which this fee was implemented 
were based on false information, a lack of real data, and done so with 
an attitude of disregard and lack of concern for the true stewards of 
the Park. The process which was in place was not broken, there was no 
need for a new system to be put in place, and the new system is not 
user as effective as the public was told. I'm sure there will be many 
specific instances brought to light as to the numerous and erroneous 
excuses this fee was forced on to the backpackers of the GSMNP. If the 
committee will truly examine the facts and numbers, then one can see 
that the current administration of the GSMNP hoodwinked us all into 
taxing and segregating a user group of the Park. After all, backpackers 
have less impact on the Park itself than any other user group, in the 
park including Horseback riders, who destroy the trail, day hikers, who 
require an abundance of assistance and abuse the trails and property, 
and auto tourist who are sitting with idling exhaust for hours. The 
backpackers and users of the backcountry are the ones who are paying 
the only fees to access and stay in the backcountry.
    It is with great concern, that I ask you to present this and any 
other concerns you may have gotten, to the committee as opposition to 
this unjust tax and fee for the backcountry use in the GSMNP.
    Thank you for your assistance and attention to this issue.
                                 ______
                                 
               Land and Water Conservation Fund Coalition
    The Land and Water Conservation Fund (LWCF) Coalition comprises 
over a thousand conservation, recreation, business, and sportsmen's 
groups located in every state working together to support all facets of 
the LWCF program in order to meet America's conservation and recreation 
needs in the 21st century. The Coalition appreciates the opportunity to 
provide our views on the issue of addressing the National Park 
Service's backlog of maintenance needs.
    As the Committee is aware, LWCF has its own funding source derived 
mainly from annual OCS revenues, and its currently authorized 
conservation activities can help alleviate the existing maintenance 
backlog while providing many other conservation and recreation 
benefits. The LWCF Coalition believes that there must be a long-term 
solution for both the National Park Service's maintenance backlog and 
the continued diversion of LWCF funds away from their intended purpose. 
We also believe unequivocally that this solution must not involve the 
repurposing of LWCF's existing funding stream, or in any way 
restricting or limiting the now-authorized use of LWCF to acquire the 
property interests--fee and easement, by NPS or other federal and 
nonfederal agencies-that meet conservation and recreation needs across 
the country, address pressing landowner needs, and maintain the very 
heart and soul of our national parks and other public land areas.
History of the Land and Water Conservation Fund
    LWCF has its own funding source, drawn mainly from annual OCS 
revenues that far exceed the amounts credited to the Fund. In FY2012, 
the last year that data is available, OCS revenues were over $6.8 
billion, far larger than the $900 million slated for LWCF or the $322.8 
million that all programs under the LWCF actually received [NOTE: NPS 
acquisitions are just one facet of annual LWCF investments.] OCS 
revenues are scheduled to grow in the coming years, though the 
allocated amount for LWCF--$900 million a year--has gone unchanged 
since the late 1970s. These revenues are a promise made to the many 
communities across America that rely on these resource lands, and on 
the conservation and recreation economies they support. They are 
essentially a capital account, to be reinvested in lands of lasting 
value to all Americans-NOT an operating account to be diverted to 
annual upkeep needs.
    LWCF has a nearly 50-year history of bipartisan support and has 
been utilized in every state and county in the country as a critical 
tool to create state and local outdoor recreation opportunities, open 
up key areas-making public lands public - for hunting, fishing and 
other recreational access, keep working forests working, acquire 
inholdings and protect critical lands in national parks, national 
wildlife refuges, national forests, wild and scenic river corridors, 
national scenic and historic trails, Civil War battlefields, Bureau of 
Land Management lands, and other federal areas.
    Places such as the Columbia River Gorge, Cube Cove in the Tongass 
National Forest, the Dakota Grasslands, Mount Rainier National Park, 
Green Mountain National Forest, Sleeping Bear Dunes National Park, 
Voyageurs National Park, Red River National Wildlife Refuge, Great Sand 
Dunes National Park, Harpers Ferry National Historical Park, Valle de 
Oro National Wildlife Refuge, the Ice Age National Scenic Trail, Grand 
Teton National Park, Sawtooth National Recreation Area, Ace Basin 
National Wildlife Refuge, Cherokee National Forest and Cuyahoga 
National Park have all benefited from LWCF investments. These projects 
have provided enhanced recreational access to popular outdoor areas, 
safeguarded watersheds critical to local economies, preserved natural 
areas and wildlife habitat, and have supported local economies and jobs 
through increased outdoor recreation.
The Land and Water Conservation Fund can help create management savings
    The LWCF Coalition believes it is wholly inaccurate to suggest that 
land acquisitions add to the backlog of maintenance needs. Purchase of 
inholdings and properties adjacent to existing boundaries can help 
solve management problems and reduce costs rather than add to them. 
Most lands acquired with LWCF funds are within the existing boundaries 
of federal parks, refuges, forests and other recreation areas, and much 
of the rest is used for conservation easements and state grants which 
do not add to federal management costs. Agencies generally avoid 
acquisitions with burdensome infrastructure improvements that require 
significant capital investments. An added inholding parcel generally 
does not increase management presence; rather, management is usually 
just absorbed within existing stewardship costs.
    Consolidation of inholdings has many benefits for land management 
agencies and the public. These acquisitions reduce the costs of 
internal boundary line surveying, resolve rights-of-way conflicts, and 
help agencies address long-standing and costly management issues such 
as invasive species, fire management and special use permits. These 
benefits enhance visitor experiences and allow managers to focus their 
attention on other pressing needs.
    Many LWCF projects provide management savings to the individual 
land management agencies. For example, in Mt. Rainier National Park, an 
LWCF acquisition allowed the Park Service to address a costly and 
frequent road washout. Projects in the Yukon Flats National Wildlife 
Refuge allowed the Fish and Wildlife Service to greatly reduce fire 
management costs. The Ophir Valley project in Uncompahgre National 
Forest reduced boundary maintenance costs and allowed the Forest 
Service to more effectively treat invasive species. Rocky Fork in 
Cherokee National Forest reduced wildfire costs, allowed for more 
effective noxious weed treatments, obviated the need for costly 
watershed restoration and reduced boundary line maintenance. These 
projects and many others reduce land management costs while providing 
critical conservation benefits.
Benefits of the Land and Water Conservation Fund Projects
    Investments in LWCF stimulate our nation's economy, create jobs and 
shore up our infrastructure. LWCF makes a substantial contribution to 
these critical priorities by strategically securing the economic asset 
that our federal, state and local public lands represent. Hunting, 
fishing, camping, and other outdoor recreation activities contribute a 
total of $646 billion annually to the economy, supporting 6.1 million 
jobs. Whether manufacturing, retail or service related, most of these 
jobs are sustainable resource or tourism-based jobs and cannot be 
exported, with magnified impacts in local and rural communities. LWCF 
drives local economies not just by helping recreation lands to keep up 
with population and development pressure, but creates and protects jobs 
in our working forests and on working farms and ranches.
    With changing land use and ownership patterns, historic 
recreational access is being cut off or blocked in many areas. Often, 
vast expanses of public land are separated from roads and towns by 
narrow strips that are in private ownership, necessitating a 40-mile 
drive to access hunting or fishing grounds only a few miles away. 
Continued strategic LWCF investments protect the economic asset that is 
our public lands, preventing incompatible development and enhancing 
access to outdoor recreation opportunities. For example, all public 
access points along West Virginia's Lower and Middle Gauley River, 
which is used by over 50,000 people annually, were made possible by 
LWCF funding. Access to Pennsylvania's popular Youghiogheny River in 
Ohiopyle was built in the mid-1970's with LWCF funding. Other purchases 
connect existing public lands or create expanded parking and trailhead 
access.
    In other cases, creation of new federal units is important to the 
American public as a way to commemorate key moments in our history. For 
example, LWCF funds allowed for the successful protection of the new 
Flight 93 National Memorial, dedicated to the brave Americans who gave 
their lives on 9/11. While these new units and associated LWCF 
acquisition authority are not the norm, they are meaningful additions 
to our uniquely American history and are made possible through the 
existence of the LWCF program.
Conclusion
    While inadequate funding of the NPS operations and maintenance 
budget is a critical problem that Congress needs to address, LWCF was 
created nearly 50 years ago to serve different, diverse and equally 
critical needs and to provide an asset-for-asset permanent investment 
on behalf of the American people. Diversion of LWCF funds to write down 
the maintenance backlog would violate this time-honored concept. LWCF 
and maintenance investments should continue to move forward in tandem 
to safeguard our country's natural and cultural heritage, and polls 
show that Americans do not support robbing one in order to slap a 
temporary bandage on the other. The LWCF Coalition believes that there 
must be a long-term solution for both problems but that this solution 
must not involve the repurposing of LWCF's existing funding stream.
    We stand ready to work with the Committee to find this solution. 
Thank you again for the opportunity to present our views on this 
challenging issue.
                                 ______
                                 
               Statement of Peter Wiechers, Kernville CA
    I am writing in regard to the Senate hearing on National Park fees 
which will be held Thursday July 25. I am requesting that this note be 
included as part of the public record.
    I am especially dismayed by the idea of dynamic pricing (charging 
more for park admittance during more popular times of the year). This 
sort of thing might be okay for freeways during rush hour, but not so 
for ``America's Best Idea.''
    I don't like the idea of supposedly upgrading National Park 
Campgrounds to include such things as wifi. In fact, I think the 
private sector is doing a fine job with this sort of stuff in the 
gateway areas just outside of our National Parks. Let's keep it that 
way.
    In three years I will be retiring. Soon thereafter I will qualify 
for a discounted lifetime Senior Pass. I would like to still have this 
pass available to me when I qualify for it.
    It's my understanding that National Parks Director Jon Jarvis will 
be testifying. It is also my understanding that he has been an advocate 
for removing economic barriers so that all Americans can have access to 
our parks. I would hope that he (and Congress) actually believe this 
and will not capitulate to the commercial interests who view our public 
lands in the same vein as the marketing of fast food and laundry 
detergent.
    Thank you.
                                 ______
                                 
                   National Parks Conservation Association,
                                                     July 23, 2013.
Hon. Ron Wyden,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 304 
        Dirksen Senate Office Building, Washington, DC.
    Dear Mr. Chairman:
    We applaud this week's hearing ``to consider supplemental funding 
options to support the National Park Service's efforts to address 
deferred maintenance and operational needs.'' Our organizations have 
worked actively for the past several years to explore these options and 
feel certain that, while continued significant general funding of the 
National Park Service is both necessary and appropriate, there are 
important steps that can be taken to provide both supplementary and 
sustainable funding for the agency and its responsibilities.
    We especially ask that this letter and the accompanying document, 
entitled ``Sustainable Supplementary Funding for America's National 
Parks,'' be made a part of the record of your full committee hearing on 
July 25, 2013. The document consists of sixteen white papers prepared 
for a session hosted by the Bipartisan Policy Center in March 2013. The 
March session hosted by the Center generated broad and bipartisan 
interest and support. The white papers, which represent proposals by 
the authors and not necessarily by sponsoring organizations, are now 
the subject of working groups and pilot projects which, together, leave 
us excited and optimistic about the potential to find common ground on 
various ways to supplement funding for our national parks. The papers 
are also under review by the National Park Service.
    We would be pleased to facilitate one or more briefings for 
committee and member staff to explain ideas of interest and answer 
questions.
    Thank you for this opportunity to assist your important efforts 
regarding America's national parks.
            Sincerely,
                                            Theresa Pierno,
         Acting President, National Parks Conservation Association.
                                          Derrick Crandall,
                 Counselor, National Parks Hospitality Association.
                                 ______
                                 
             Statement of Pamela White, Science Instructor
    I am an avid user of the park system here in Florida as well as 
many years when I lived in the western U.S. Please consider that we 
have a very poor tax base here in Florida and thus we are paid poorly 
for college level jobs. I have always been thrilled that I could use 
the parks and it was within my meager budget as a teacher.
    By the same token (involving money or lack of it), the problem has 
arisen here in the Ocala National Forest-it is a prime example of a 
lawless, sprawling area that most people are afraid to visit and use. 
This is such a shame and we all realize that it would take tax dollars 
and law enforcement to make our forest usable again. This is so very 
SAD-it (Ocala National Forest) is the worst case of misuse of public 
lands (meth labs, criminals, etc. who LIVE in the forest) that I have 
ever seen. I lived out west for years in northern Az. where they 
managed the parks MUCH better. I was never in fear for my life when I 
hiked out there!
    It would be ideal to keep costs very low for people like myself but 
also be able to keep the parks clean and SAFE. I know this takes money. 
Please do your best in the voting days ahead to consider and address 
both issues.
            Respectfully,
                                 ______
                                 
 Statement of Margaret M. Graves, President, Partners in Preservation, 
                                  Inc.
    The 1916 National Park Service Organic Act directs the National 
Park Service ``to conserve the scenery and the natural and historic 
objects and the wildlife therein and to provide for the enjoyment of 
same in such a manner and by such means as will leave them unimpaired 
for the enjoyment of future generations.'' This directive presents a 
significant challenge for the National Park Service which currently is 
responsible for conserving 27,000 historic structures, 3,500 historic 
statutes and monuments, an estimated 2 million archaeological sites, 
123 million museum objects and archival documents\1\ and 84 million 
acres of land within 401 park units.
---------------------------------------------------------------------------
    \1\ See National Parks Conservation Association, Center for Park 
Research: The State of America's National Parks, June 2011, pp. 22-33.
---------------------------------------------------------------------------
    The National Park Service is failing to fulfill its mandate to 
preserve the nation's historic resources.\2\ The National Park Service 
estimates that its deferred maintenance needs are currently $11.5 
billion,\3\ of which $4.5 billion is for structures listed on the 
National Park Service's List of Classified Structures.\4\ This 
staggering sum represents more than simply leaking rooftops; it 
represents the potential loss of our national heritage for future 
generations. According to the National Trust for Historic Preservation, 
2,811 historic structures of national significance are in poor 
condition in the Park system.\5\ The NPS itself estimates that less 
than 60% of the historic structures it is responsible for maintaining 
are in good condition.\6\
---------------------------------------------------------------------------
    \2\  See National Parks Conservation Association, Center for Park 
Research: The State of America's National Parks, June 2011. (``National 
park cultural resources are often ignored and consistently 
underfunded.'' P. 4) ( . . . ``the Center for Park Research found that 
the National Park Service is increasingly unprepared to meet its 
heritage preservation management challenges now and during its second 
century.'' P.24); National Academy of Public Administration (NAPA): 
Saving Our History: A Review of National Park Cultural Resource 
Programs, 2008; the National Parks Second Century Commission: Advancing 
the National Park Idea, 2009. These three reports document the dire 
condition of cultural resources within the National Parks. The vast 
majority of park units were established because of their historic and 
cultural significance.
    \3\ See Statement of Jonathan B. Jarvis, Director, National Park 
Service, Department of Interior, Before the Senate Committee on Energy 
and Natural Resources, for an Oversight Hearing to Consider 
Supplemental Funding Options to Support the National Park Service's 
Efforts to Address Deferred Maintenance and Operational Needs, p. 2.
    \4\ The List of Classified Structures is a computerized inventory 
of all historic and prehistoric structures in which the NPS has, or 
plans to acquire, any legal interest. These structures have historical, 
architectural or engineering significance. Structures listed on LCS 
must either be listed individually or eligible for National Register 
listing or be a contributing element of a historic site or district 
that is listed or is eligible for listing on the National Register.
    \5\ See http://www.preservationnation.org/take-action/advocacy-
center/preservation-funding/budget.
    \6\ See US Department of Interior Budget Justifications and 
Performance Information for Fiscal Year 2013 National Park Service, p. 
13
---------------------------------------------------------------------------
    Government funds alone will not resolve this crisis. In Fiscal Year 
2012 the annual operating budget for the entire National Park Service 
was $2.2 billion.\7\ Clearly, private funds are needed to save the 
nation's historic resources. Fiscal common sense requires the National 
Park Service to embrace public private partnerships to stem the loss of 
historic resources.
---------------------------------------------------------------------------
    \7\ See Statement of Jonathan B. Jarvis, p. 2.
---------------------------------------------------------------------------
    Historic leases provide an opportunity to attract private capital 
and expertise to the challenges of the preservation of historic 
resources in parks. Leases offer a cost effective tool to preserve 
historic park structures that are underutilized and therefore at risk 
of deterioration. A historic lease shifts the burden of maintenance to 
the lessee during the duration of the lease term. In a historic lease, 
the lessee agrees to invest in the rehabilitation and ongoing 
maintenance of the leased structure in exchange for the right to use 
the structure. Depending on the condition of the property at the 
beginning of the lease term, the lessee may be required to pay rent. 
Because many of the historic structures available for leasing are not 
in pristine condition, many leases provide for lessee performed 
rehabilitation in lieu of rent. Historic leases offer a win win 
solution because they provide for privately funded preservation and 
maintenance and an opportunity for enhanced revenue for public park 
purposes.
    The value of historic leases is not only in the dollars generated 
in revenue but also in the value of rehabilitation, restoration and 
ongoing maintenance of park resources with private funds, saving 
taxpayer funds for other national priorities. Given the current federal 
budget restraints, the National Park Service is unlikely to ever have 
all of the funds necessary to preserve the 27,000 historic structures 
within the Park System.
    Unfortunately, the National Park Service has made only limited use 
of historic leases to date. According to the most recent information 
available from the Advisory Council of Historic Preservation 2008 
Progress Report, in Fiscal Year 2007, 48 parks leased a total of 147 
historic properties.\8\ This represents a small fraction of the 
historic properties eligible for historic leases. Bureaucratic 
obstacles must be overcome to save historic structures from demolition 
by neglect.\9\
---------------------------------------------------------------------------
    \8\ Advisory Council for Historic Preservation Progress Report 
dated September 30, 2008 and Report of the National Park Service Sept. 
30, 2004 pursuant to Executive Order 13287 ``Preserve America'' Section 
3 Improving Federal Agency Planning and Accountability.
    \9\ A Report by John Hope Franklin and the National Park Service 
Advisory Board titled Rethinking the National Parks for the 21st 
Century: A Report of the National Park System Advisory Board issued in 
July, 2001 described the NPS as ``a sleeping giant-beloved and 
respected, yes; but perhaps too cautious, too resistant to change, too 
reluctant to engage the challenges that must be addressed in the 21st 
century.'' This assessment rings true today, especially at lower levels 
of the Park Service. http://www.nps.gov/policy/report.htm. Park 
Superintendents today have extraordinary control over what happens 
within a park unit. See NAPA, Saving Our History, 7.
---------------------------------------------------------------------------
    In 2011, the House/Senate Conference Committee Report encouraged 
the National Park Service to use innovative solutions like historic 
leases to help mitigate the growing backlog of historic structures in 
need of preservation. (H.R. 2055, 112 Cong. Comm. Rep. No.112-331 (at 
1056). It is not clear what actions the NPS has taken to expand the use 
of historic leases since 2011 or why the NPS has not made greater use 
of historic leases. Legislative action may be necessary to facilitate 
the greater use of historic leases by the NPS. As members of the Senate 
Energy and Natural Resources Committee, you have the opportunity to 
direct the Park Service to pursue more historic leases or risk losing 
more of the nation's historic assets.
    The legal framework for historic leases is well established. Leases 
are authorized by the National Parks Omnibus Management Act of 1998 (16 
USC 1a-2(k)) and Section 111 of the National Historic Preservation Act 
(NHPA) and comprehensive regulations are included in 36 Code of Federal 
Regulations Part 18. In addition, Director's Order 38, issued on 
January 20, 2006 and the NPS Leasing Reference Manual, issued in 2005, 
provide substantial regulatory guidance.
    A recent report prepared by the Center for Park Management outlines 
the many benefits of historic leases. Benefits include:

          1. Underutilized park structures are restored
          2. Provides funding for historic preservation and maintenance
          3. Provides NPS with option to offer preservation tax credits
          4. NPS ownership of capital improvements made by lessee
          5.Repairs, renovation and maintenance of park facilities and 
        infrastructure
          6.Reduces workload for park maintenance staff
          7.Reduces liability for hazardous assets
          8.Additional revenue for parks
          9.Park assets are refurbished with private sector development 
        expertise and financing
          10. Assets continue to be well maintained, enhancing National 
        Park Service mission
          11. Fosters economic growth in the local community
          12. Strengthens relationship between park and local business
          13. Outreach to community\10\
---------------------------------------------------------------------------
    \10\ National Park Service Leasing Program Assessment Final Report: 
Finding and Recommendations by Kristen McConnell, Stephanie Hester, 
Geoff Kish. November, 2010.

    Parks that have pursued historic leases are enthusiastic about the 
benefits and believe that the program has real potential to address 
critical historic preservation needs. Historic leases have been granted 
in the following parks:
Acadia National Park, ME
Antietam National Battlefield, MD
Appomattox Court House National Historic Park, VA
Boston National Historical Park, MA
Buffalo National River, AR
Cape Cod National Seashore, MA
Cape Lookout National Seashore, NC
Chesapeake & Ohio Canal National Historic Park, MD
Chickamauga & Chattanooga National Military Park, TN
Cuyahoga Valley National Recreational Area, OH
Delaware Water Gap National Recreational Area, PA
Gateway National Recreation Area, NY/NJ
Golden Gate National Recreational Area, CA
Grant-Kohrs Ranch National Historic Site, MT
Herbert Hoover National Historic Site, IA
Hopewell Culture National Historical Park, OH
Horse Shoe Bend National Military Park, AL
Hot Springs National Park, AK
Independence National Historical Park, PA
Indiana Dunes National Lakeshore, IN
John Day Fossil Beds National Monument, OR
Keweenaw National Historical Park, MI
Klondike Gold Rush National Historical Park, AK
Lincoln Home National Historic Site, IL
Lowell National Historic Park, MA
Martin Luther King, Jr. National Historic Site, GA
Pea Ridge National Military Park, AR
San Francisco Maritime National Historic Park, CA
Shiloh National Military Park, TN
Statue of Liberty National Monument, NY
Valley Forge National Historic Park, PA\11\
---------------------------------------------------------------------------
    \11\ Report of the National Park Service Sept. 30, 2004 pursuant to 
Executive Order 13287 ``Preserve America'' Section 3 Improving Federal 
Agency Planning and Accountability. See National Parks Conservation 
Association Center for Park Research: The State of America's National 
Parks, June 2011, p. 39 for information re historic lease at Valley 
Forge National Historical Park.

    These leases include historic structures of all sizes and types and 
agricultural land. Each lease is crafted to the specific site's needs 
but all of the leases require that any rehabilitation or restoration 
work meet the Secretary of Interior's Standards guaranteeing only 
quality work. Permitted uses include residential use, office space, 
hotels, bed & breakfasts, artist retreats and schools. Public 
interpretation or access may be required as part of the lease terms.
    Cumberland Island National Seashore offers a textbook example of 
how a historic lease could enhance the preservation of the Seashore's 
historic resources. The Seashore was established in 1972 ``in order to 
provide for public outdoor recreation, use and enjoyment of . 
shoreline, and waters . . .  and to preserve related scenic, 
scientific, and historical values.'' 16 U.S.C. 459i. The Seashore 
includes a myriad of diverse historic resources ranging from Native 
American shell middens to large historic mansions built by the Carnegie 
family. The National Park Service is responsible for the preservation 
of 82 individual historic structures and 47 known archeological sites. 
Park maintenance funds are inadequate, a fact acknowledged by park 
personnel and outside advocacy organizations.\12\
---------------------------------------------------------------------------
    \12\ 2009 National Parks Conservation Association State of Parks 
Report for Cumberland Island National Seashore.
---------------------------------------------------------------------------
    In December, 2010, at the conclusion of a use and occupancy 
agreement, the NPS gained control of the Grange and Beach Creek Dock 
House, two National Register listed structures. The Park Service does 
not have the funds to maintain these structures and they currently sit 
empty and unused. Partners in Preservation, Inc., a nonprofit 
organization, is willing to invest the necessary funds to preserve and 
maintain these two structures. However, the local superintendent 
prefers an alternative which will require over $2.5 million of 
appropriated funds which are not likely ever to be available. Other 
National Register listed structures within the Seashore have been lost 
to demolition by neglect due to inadequate park maintenance funds. A 
historic lease of these structures would guarantee their preservation 
and alleviate the ongoing maintenance burden on the National Park 
Service-a win, win, win for the public, the Park Service-and future 
generations.
    In sum, our nation's heritage is at risk of being lost due to the 
lack of necessary public funds to preserve and protect historic 
resources within the National Park system. If the National Park Service 
embraces historic leases as a flexible, cost effective tool for public 
private partnerships in parks, many historic resources can be saved for 
the benefit of future generations. The time to act is now before more 
historic resources are lost forever.
                                 ______
                                 
 Statement of Joseph Gersen, Director of Government Relations, Public 
                        Lands Service Coalition
    On behalf of the Public Lands Service Coalition, I would like to 
provide testimony on the significant cost savings Conservation Corps 
provide the National Park Service on backlogged maintenance projects. A 
significant opportunity to utilize NPS funding more effectively is to 
engage conservation corps to complete backlog maintenance projects at a 
50%+ savings.
    The Public Lands Service Coalition promotes youth service, jobs, 
and career development on public/tribal lands and waters. Each year, 
Coalition members engage more than 20,000 young people in jobs and 
service opportunities, and they are poised to expand greatly to address 
the record-high youth unemployment, the billions of dollars of 
backlogged maintenance needs on public lands, the need for a future 
federal public lands workforce, the national youth obesity epidemic, 
and the disengagement of youth from the great American outdoors.
    Experienced conservation corps programs engage thousands of young 
people on public and tribal lands and waters each year. Operating in 
all 50 states, these programs provide public and tribal land and water 
managers with an effective and efficient way to complete necessary and 
important projects and give young people opportunities to further their 
education and improve their career prospects, while building the next 
generation of land and water managers and resource stewards.
    Each year, Corps complete hundreds of high-quality and often 
technical projects on public lands and waters. Project sponsors 
consistently express a high degree of satisfaction with the quality of 
work and productivity of the Corps. Virtually all federal project 
partners (99.6%) say they would work with Corps again. Types of work 
include, but are not limited to:

  <bullet> Protecting wildlife and preserving public lands and waters 
        (ecological restoration);
  <bullet> Preparing communities for and responding to disasters, 
        including wildfire;
  <bullet> Enhancing recreation on public lands;
  <bullet> Preserving historic structures;
  <bullet> Supporting individual placements and internships at the land 
        and water management agencies.

Cost Savings through Public Private Partnerships
    Corps work with the National Park Service through a fee-for-service 
project-based approach (conservation, restoration, and historic 
preservation) through cooperative agreements.
    The National Park Service (NPS) Park Facility Maintenance Division 
(PFMD) conducted a project analysis to determine how the costs of 
engaging a conservation corps to accomplish cyclic maintenance 
activities at national parks compares with the costs of using 
contractors or NPS crews. The project analysis determined that, on 
average, using conservation crews instead of NPS crews saved 65% with 
the minimum savings just 3% and the maximum savings 87%. The analysis 
found that the savings using conservation corps instead of contractor 
crews were even more significant with average savings of 83% and over 
$130,000 per project.
    Finally, it is estimated that the cost of two professional level 
SCA interns, is the same as one seasonal employee doing similar work. 
These public private partnerships also leverage the federal investment 
by bringing at least a 25% match.
    The National Park Service should expand the use of partnerships 
with Conservation Corps on backlogged maintenance projects in order to 
get more projects done for less while addressing pressing national 
needs.
                                 ______
                                 
                     Statement of Roy R. Schweiker
    The National Park system is supposed to be the common heritage of 
all Americans, hence fees need to be kept at a level that ordinary 
Americans can afford. Park concessionaires need to be prevented from 
gentrifying their offerings to a level that excludes the working class.
     Generally, those desiring expanded services such as full-service 
hotels or RV parks with hookups should expect to find them in gateway 
communities not within the park. (Anybody remember when a bowling alley 
and movie theater were proposed for Yosemite Valley so all those bored 
people would have something to do?) Park camping and lodging facilities 
should be oriented toward those who will be exploring the park not 
those using them as a base for traveling outside the park. 
Concessionaires should be discouraged from making upgrades to increase 
fees and extend their contracts - instead of letting wealth determine 
who gets rare spaces in the park let them go to those who appreciate 
the rustic way things are.
                                 ______
                                 
                   Statement of Bryan Burke, Eloy, AZ
    I would like to urge the Senate to reject the move being made by 
concessionaires to increase costs to use public services by privatizing 
facilities and/or raising fees to use public lands.
    This happened in the California State Parks years ago. The result 
was a significant increase in the cost to use campgrounds, no 
improvements to most of them, and former state employees were forced to 
take cuts in pay and benefits when they became employees of 
concessionaires.
    I also strongly object to the management model being put forward in 
places like the Tonto National Forest in Arizona. The Tonto NF has all 
sorts of fee areas, and their rational is that the fees will be used to 
improve access. That ``improvement'' is better roads and larger camps 
for RVs towing toy haulers full of quad runners and motorcycles. This 
is popular with gateway towns selling gas and beer, but it is 
devastating to the natural environment.
    The Park Service has already ruined the ``front country'' in places 
like Yellowstone, Yosemite, and Grand Canyon by making access far too 
easy. These popular parks are now giant traffic jams throughout most of 
the summer. I don't even visit the developed areas any more. The only 
decent sections left are the back country, remote, and hard to access 
parts.
    Please, please don't turn our nation's wild lands into profit 
machines for concession corporations and bureaucrats that only care 
about the money. These lands are far more valuable than money. No new 
fees and no new development! If anything, the management agencies 
should start removing more roads.
    Thank you for your consideration,
                                 ______
                                 
            Statement of Allen Nelson, Ph.D., Nederland, CO
    I am writing in regard to your July 25th hearing on National Parks 
fees. I am a senior and a Colorado resident who frequently visits our 
national parks, especially RMNP which is within 50 miles of my home. I 
also am the holder of an original Golden Age Passport. On the passport, 
it reads ``A LifeTime Admission Permit''.
    I feel strongly that the National Parks are public lands and that 
access to these resources should not be limited due to increased fees 
and economic restrictions. I also feel that the lifetime promises of 
the interagency passes such as my Golden Age Passport should continue 
to be honored. For seniors, the guarantee of unlimited entry into our 
national parks is one of the few benefits of getting older.
    My underlying concern is the potential effect of commercialization 
and privatization of public lands. I've seen recent instances here in 
Colorado, where private concessionaires who manage Forest Service 
Recreation Areas, have raised fees and attempted to not honor 
interagency passes. I understand the costs of operating these resources 
and I am not at all opposed to the profit motive in business. That 
said, I believe that there are areas where profit should not be the 
objective. As with the guarantee of access to education, access to the 
public lands should be a right and not a priviledge. The operation of 
these public lands should be driven by the benefit to the public rather 
than the profit of private companies. I strongly urge the committee to 
keep access to these lands affordable to all citizens.
    Thank you for listening.
                                 ______
                                 
                            Western Slope No-Fee Coalition,
                                        Durango, CO, July 24, 2013.
Hon.  Ron Wyden,
Chairman, Energy and Natural Resources Committee, U.S. Senate.
Hon. Lisa Murkowski,
Ranking Member, Energy and Natural Resources Committee, U. S. Senate.
    Dear Chairman Wyden and Ranking Member Murkowski:
    I am deeply troubled by the article calling for boosting funding 
for the NPS by increasing fees on park visitors, as expressed in the 
NPHA/NPCA publication $ustainable $upplementary Funding For America's 
National Parks. On behalf of the Western Slope No-Fee Coalition and the 
public lands supporters we represent, I would like to go on record as 
opposed to these ideas.
    The proposal for ``differential pricing'' would convert the best 
parks at the most desirable seasons into enclaves for the wealthy. 
Visitors of more modest resources would be shunted to the shoulder and 
off seasons. This might help fill concessionaire hotel rooms during the 
slower times of year, but it does nothing to nurture public support for 
the National Park system. This "differential pricing" scheme is driven 
by the commercial interests that operate in the parks and runs counter 
to the egalitarian ideals under which they were established.
    The establishment of national passes, with discounted pricing for 
seniors and the disabled, was never intended to maximize revenue. Those 
were policy decisions made by Congress meant to provide an affordable 
way for all Americans-and foreign visitors-to visit our parks because 
they are a defining part of our American heritage. While it of course 
takes money to operate the park system, making money should never be 
the driving factor. The provision of affordable national passes has 
been very popular with the public and must continue.
    Ideas like selling ``debit'' cards for National Parks would place 
them in the commercial market, on an equal footing with any other 
market commodity. The parks are not market commodities, were never 
intended to be run for profit, and to reduce them to that level would 
cheapen their value in the public perception. Assuming that people 
would not fully utilize the value of these ``debit cards,'' with the 
NPS keeping the unredeemed cash, is a backdoor way of cheating people 
into making donations. There are already numerous ways in which people 
can and do donate to the National Parks. We don't need to be tricked 
into doing it.
    Charging per person per day entrance fees, instead of the current 
per carload per week, would not only dramatically increase the cost of 
visiting a park, it would become an enforcement nightmare. Do we really 
need to have Park Rangers checking people's passes to make sure they 
haven't overstayed their entrance fees, instead of giving interpretive 
talks and protecting visitors and park resources? Because very few park 
visits last more than a week the current system is largely self-
enforcing and very efficient to administer. It's not broken and does 
not need fixing.
    The National Parks were established for the benefit of the people 
and the park resources, not as a fund-raising mechanism for the 
National Park Service. The best way to ensure the long-term financial 
health of the National Parks is for people of all ages, incomes, 
origins, and abilities to visit them and to feel welcome in them. That 
is how people learn to appreciate them, which leads to public support 
for the use of taxpayer funds to operate them. Treating the parks as 
money-makers for the NPS will, in the long run, reduce rather than 
enhance that public support. Instead of raising fees, Congress should 
be seeking ways to make the parks more affordable.
            Sincerely,
                                                 President.
                                 ______
                                 
 Statement of Scott Silver, Executive Director, Wild Wilderness, Bend, 
                                   OR
                  comments for inclusion in the record
    The following brief comments are submitted on behalf of Wild 
Wilderness, a conservation and recreation organization based in Bend 
Oregon since 1991.
    I watched today's hearing online and have read the testimony, 
including the document submitted by Mr. Gabrys titled: ``$ustainable 
$upplementary Funding For America's National Parks.'' I have long been 
involved with issues pertaining to the National Park System and have 
followed the work of the National Park Hospitality Association and the 
closely affiliated American Recreation Coalition. I have made a decade-
long study of the efforts of the concessionaire industry and its 
various lobby groups to influence Federal policy and speak on this 
topic with uncommon experience.
    With respect to today's hearing, I wish the following bulleted 
points to be available for consideration by Committee Members.

  <bullet> The National Parks are Special.--Use any superlative you 
        wish, the National Parks are not just any old piece of public 
        land. This fact is well appreciated by the committee and was 
        emphasized by each of the witnesses.
  <bullet> FLREA will soon sunset and something must be done.-- This 
        too is a simple statement of undisputed fact. If Congress does 
        not provide continuing fee collection and retention authority 
        for the National Parks, there will be serious consequences.
  <bullet> With respect to recreation fees in general, the National 
        Parks are Special.--Unlike recreation fees charged by the USFS 
        and BLM, National Park entrance fees are well accepted by the 
        public. That is not simply the result of entrance fees having 
        been charged at the National Parks for nearly 100 years, while 
        forest fees are a relatively new creation. It is the 
        consequence of the parks being special. They are understood to 
        be ``National Treasures'' and they are recognized and 
        appreciated as being different than other public lands which 
        serve other functions and purposes.
  <bullet> Congress should create and pass legislation to provide the 
        NPS with its own authority to charge, collect and retain 
        Entrance Fees.--FLREA has been controversial and problematic 
        since it became law in 2004. Much of the problem can be 
        attributed to trying to create a single authority which applied 
        to both the ``Crown Jewels'' and to more common lands.
  <bullet> Some of the fee-related funding ideas are better than others 
        and some are much worse.--The $ustainable $upplementary Funding 
        document includes a panoply of fee-related suggestions, one of 
        which is so offensive as to be the focus of the remainder of 
        these comments. That offensive suggestion has to do with 
        ``differential pricing'' or as it is sometimes called, ``peak 
        pricing''.

    Differential Pricing is a concept the concessionaire industry has 
been pushing for the past 30 plus years. Their interest in differential 
pricing has little, or perhaps nothing, to do with funding the parks. 
It is a solution for a problem the concessionaires themselves have long 
faced. That problem is that the parks are more popular at certain times 
of the year than at other times. For example, people want to visit 
Death Valley in the springtime when the flowers are in bloom. People do 
not want to visit Death Valley in August when the temperature can top 
120 degrees. No doubt, Committee Members can think of many analogous 
examples so I will not belabor this point.
    The idea of differential pricing is to raise the price of entering 
a National Park to a level where the fee itself becomes so high as to 
dissuade visitation. Differential pricing works by pricing those for 
whom the price increase is significant, out of the market. When used in 
this way, differential pricing is exclusionary, discriminatory and 
antithetical to the vision of our National Parks famously stated by 
Stegner in the following words:

          ``National parks are the best idea we ever had. Absolutely 
        American, absolutely democratic, they reflect us at our best 
        rather than our worst.''

    From the standpoint of National Park concessionaires, the value of 
differential pricing is in shifting use from those times of the year 
when their accommodations are fully rented to the slack shoulder-season 
when occupancy and the sale of goods and services is sub-optimal for 
profitability.
    From the standpoint of the National Parks themselves, differential 
pricing is unlikely to provide added revenue. When park fees increase 
by more than a small increment, visitation falls and usually revenues 
fall as well. One need only look to what has been happening in 
Washington State Parks since the introduction of its new ``Discover 
Pass''.
    Please consider the possibility that the motivations of the 
National Park concessionaires are not necessarily in keeping with those 
of the National Parks. Likewise, the concessionaires' motivations may 
not necessarily be aimed at enhancing, or supporting, the best 
interests of the totality of National Park visitors. The 
concessionaires are in the hospitality business for the purpose of 
making a profit and depend upon the drawing power of these parks to 
attract customers. But, making money is not a purpose of the National 
Parks nor, for that matter, is attracting customers. The purpose of the 
parks is to protect the resource and to provide for the enjoyment 
thereof.
    That said, and as Director Jarvis reminded the committee in his 
testimony, for every one dollar spent in operating the National Parks 
the nation enjoys a ten dollar benefit in economic activity. This same 
10 to 1 ratio holds for recreation upon the National Forests.
    To the extent that National Park entrance fees are over-priced or 
priced at exclusionary levels in an effort to dissuade visitation, the 
general economy will be adversely impacted. We ask that you reject the 
concessionaires' oft-stated (but unsubstantiated) claim that 
differential pricing will shift visitation to lesser used parks and 
that the total amount of visitation will remain constant or even 
increase. People want to go to Yosemite, or Acadia, or Yellowstone or 
Glacier National Park. They want to go in the summer when the weather 
is good, when the kids are out of school and when both husband and wife 
can get time off work. And while it is possible to price families out 
of the market and drive them to visit Disneyland instead of a National 
Park, no amount of promotional marketing can convince them to visit a 
substitute park which is not in the same league as the park they wanted 
to visit. Marketing can not convince them to visit any National Park in 
the shoulder-season, at least not after the kids have returned to 
school and not after they've already spent their family vacation budget 
somewhere else.
    In conclusion: We ask that the Committee crafts fee authority 
legislation for the National Parks and that it deals separately with 
the more common lands. We also ask the Committee to please try and be 
as attentive to the input of citizens, taxpayers and park visitors as 
it is to the input of park concessionaires.
    Thank you for holding this important hearing, for considering these 
comments, and for doing what is necessary and appropriate to provide 
for sustainable National Park funding.
    Sincerely,

                                    

      

</pre></body></html>
